<html>
<title> - IMPLEMENTATION OF THE SUSTAINABLE FISHERIES ACT AND THE REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
       IMPLEMENTATION OF THE SUSTAINABLE FISHERIES ACT AND THE 
   REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND 
                            MANAGEMENT ACT

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             April 4, 2001

                               __________

                           Serial No. 107-15

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
71-554 PS                   WASHINGTON : 2002

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 4, 2001....................................     1

Statement of Members:
    Abercrombie, Hon. Neil, a Representative in Congress from the 
      State of Hawaii, Prepared statement of.....................     3
    Gilchrest, Hon. Wayne, a Representative in Congress from the 
      State of Maryland..........................................     1
        Prepared statement of....................................     2
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     4
    Underwood, Hon. Robert A., a Delegate to Congress from Guam, 
      Prepared statement of......................................     2

Statement of Witnesses:
    Crockett, Lee R., Executive Director, Marine Fish 
      Conservation Network.......................................    27
        Prepared statement of....................................    29
        Response to questions submitted for the record...........   127
    Gilford, Dr. James H., Chairman, Mid-Atlantic Fishery 
      Management Council.........................................    13
        Prepared statement of....................................    14
        Response to questions submitted for the record...........    88
    Hogarth, Dr. William T., Acting Assistant Administrator for 
      Fisheries, National Marine Fisheries Service, U.S. 
      Department of Commerce.....................................     5
        Prepared statement of....................................     8
        Response to questions submitted for the record...........    68
    Houde, Edward D., Professor, University of Maryland Center 
      for Environmental Science, Chesapeake Biological Laboratory    36
        Prepared statement of....................................    38
        Response to questions submitted for the record...........   137
    LeBlanc, Justin, Vice President, Government Relations, 
      National Fisheries Institute...............................    18
        Prepared statement of....................................    21
        Response to questions submitted for the record...........   105

Additional materials supplied:
    Furlong, Daniel T., Executive Director, Mid-Atlantic Fishery 
      Management Council, Letter from Western Pacific Regional 
      Fishery Management Council submitted for the record........    65
    Gulf of Mexico Fishery Management Council, Response to 
      questions submitted for the record.........................   146
    Western Pacific Regional Fishery Management Council, Response 
      to questions submitted for the record......................   151


 OVERSIGHT HEARING ON THE IMPLEMENTATION OF THE SUSTAINABLE FISHERIES 
      ACT AND THE REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY 
                    CONSERVATION AND MANAGEMENT ACT

                              ----------                              


                        Wednesday, April 4, 2001

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:03 p.m. in 
Room 1334, Longworth House Office Building, Hon. Wayne 
Gilchrest [Chairman of the Subcommittee] presiding.

STATEMENT OF THE HONORABLE WAYNE T. GILCHREST, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The Subcommittee on Fisheries, Wildlife and 
Oceans will come to order. Welcome, everyone, to the hearing. 
This is one of many hearings that we will have dealing with the 
extraordinarily complex Magnuson-Stevens Act, and I hope it 
will be productive. I want everyone to know all of the interest 
groups--that throughout the coming hearings, everyone will be 
represented. We received a number of letters yesterday and 
today from a number of groups that wanted to remind us of their 
interest, and I hope they don't feel slighted.
    The Coastal Conservation Association of Maryland, Virginia 
and North Carolina has sent us a letter. They would like to 
have input in this process. Mr. Pallone has sent us a letter on 
this issue dealing with the Magnuson-Stevens Act and 
recreational fishing; the Recreational Fishing Alliance, I 
believe maybe the constituent. At any rate, as we hold these 
hearings, throughout process, everyone that has any interest in 
this issue, and I know there are many, they will be thoroughly 
represented, and their voice will be heard.
    As most of you know, in 1996, Congress passed the 
Sustainable Fisheries Act, which contained a number of 
substantial changes to the Magnuson-Stevens Act, including 
provisions dealing with the identification and rebuilding of 
overfished fisheries; the description and identification of 
essential fish habitat; the minimization of bycatch to the 
extent practicable; a study on the use and effects of 
individual fishing quotas (IFQs); the clarification of the 
community development quota program; the modification of the 
Fishery Management Council procedures; the establishment of a 
fishing capacity reduction program and the establishment of a 
Pacific Insular Area Fishing Agreement procedure.
    The Magnuson-Stevens Act now needs to be reauthorized 
again. This hearing is the first in a series of hearings which 
will focus on how the 1996 amendments have been implemented and 
the issues Congress should address in this effort to extend 
this landmark fishery conservation law. As the new Chairman of 
this Subcommittee, I am committed, as are the staff and other 
Members and, I am sure, an extraordinary number of people from 
around this country, to thoroughly, carefully scrutinize and 
examine every aspect and the very fabric of this act.
    This hearing, which is round one--I never was really a 
boxing fan, but that is, I guess, an apt description based on 
some of the dialogue and discussion and exchange of information 
we have had in the preceding days. This hearing, which is round 
one, will hopefully frame and clarify some of the issues that 
the Subcommittee should look at in more detail during the 
process.
    I look forward to hearing from the witnesses today, and we 
will take your message to heart and deal with it effectively 
and also continue a dialogue with all of the witnesses, I hope, 
over a long period of time.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of The Honorable Wayne Gilchrest, Chairman, Subcommittee on 
              Fisheries Conservation, Wildlife and Oceans

    I would like to welcome our witnesses to the first of what I hope 
will be a number of hearings on the important topic of the 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act.
    As most of you know, in 1996, Congress passed the Sustainable 
Fisheries Act which contained a number of substantial changes to the 
Magnuson-Stevens Act including provisions dealing with: the 
identification and rebuilding of overfished fisheries; the description 
and identification of Essential Fish Habitat; the minimization of 
bycatch (to the extent practicable); a study on the use and effects of 
Individual Fishing Quotas (IFQs); the clarification of the Community 
Development Quota (CDQ) program; the modification of the Fishery 
Management Council procedures; the establishment of a fishing capacity 
reduction program; and the creation of a Pacific Insular Area Fishing 
Agreement procedure.
    The Magnuson-Stevens Act now needs to be reauthorized again. This 
hearing is the first in a series of hearings which will focus on how 
the 1996 amendments have been implemented and the issues Congress 
should address in this effort to extend this landmark fishery 
conservation law. As the new Chairman of this Subcommittee, I am 
committed to carefully examine every aspect and the very fabric of this 
Act.
    This hearing, which is round one, will hopefully frame and clarify 
some of the issues that this Subcommittee should look at in more detail 
during this process.
    I look forward to hearing from our witnesses today and in 
subsequent Magnuson reauthorization hearings.
                                 ______
                                 
    Mr. Gilchrest. I will ask unanimous consent that the 
ranking member, Mr. Underwood's, statement be submitted for the 
record.
    [The prepared statement of Mr. Underwood follows:]

  Statement of The Honorable Robert Underwood, a Delegate to Congress 
                               from Guam

    Mr. Chairman, thank you for holding this hearing today on the 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act.
    The last reauthorization of this law, the Sustainable Fisheries Act 
passed in 1996, made broad changes to almost every aspect of our 
fisheries management system from the requirements to reduce bycatch and 
end overfishing to the new requirements to protect fisheries habitat. 
Much of this effort was driven by a decline of fish stocks in many 
areas of the country and a desire to ensure that fisheries disasters 
like that which occurred in New England in the mid-90's would not occur 
elsewhere.
    Without question, the implementation of these new provisions was a 
challenge for both the National Marine Fisheries Service and the 
Fishery Management Councils. The lack of adequate scientific data with 
respect to stock abundances and habitat needs has made this task even 
more challenging, as well as somewhat frustrating for those on the 
outside who have an interest in seeing these stocks managed in a 
sustainable manner, be it the conservation community or the fishing 
industry.
    Perhaps even more frustrating is the fact that while implementation 
has continued, the very fisheries disasters we sought to avoid have 
continued to occur. Some will argue that this is because the 
Sustainable Fisheries Act did not go far enough, and more changes are 
needed. Others will say that SFA has not had sufficient time to have an 
effect and we should not rush to impose more restrictions. Regardless, 
of your view on this, I think all sides will agree that we must have 
strong conservation and management of our fishery resources if they are 
to be truly sustainable.
    To that end, I look forward to hearing from our witnesses today on 
how we can improve our fisheries management system and to bring an end 
to the cycle of fisheries disasters, whether through new legislation or 
better implementation of existing law. I also look forward to the 
hearings we will hold in the months to come, and pledge to work with 
you, Mr. Chairman, to ensure the long-term health of our fisheries and 
our fishing industry.
                                 ______
                                 
    Mr. Gilchrest. I now recognize Mr. Abercrombie.
    Mr. Abercrombie. Thank you very much, Mr. Chairman. I have 
not usurped Mr. Underwood's position but rather, given the 
schedule of the Congress, there is a competing obligation he 
has which he could not avoid, and so, I am taking his place 
today with your kind permission. And I just want to tell you 
that it is a pleasure to be with you and particularly the 
gentleman from New Jersey as well. It is always a great 
opportunity to work together to accomplish good things, and 
thank you for entering Mr. Underwood's statement.
    Mr. Gilchrest. Thank you, Mr. Abercrombie.
    [The prepared statement of Mr. Abercrombie follows:]

   Statement of The Honorable Neil Abercrombie, a Representative in 
                   Congress from the State of Hawaii

    Thank you Mr. Chairman, and good morning. I want to stress how 
pleased I am that we are holding this hearing today, and that further 
hearings are planned, on the Magnuson-Stevens Act, the underpinning of 
our nation's fisheries management system. I would also like to thank 
the panel members for taking time out of their schedules to explain to 
us their views on the current fisheries management program and how we 
can improve it.
    One of the original main purposes of the Magnuson-Stevens Act was 
the exclusion of foreign fishing fleets that were overharvesting and 
decimating our national resources. Obviously we were successful at 
achieving that goal, and we have now an extensive domestic fleet. I 
think it is important that we work as hard as we possibly can to 
implement and enforce laws and regulations that ensure the long term 
survival and sustainability of our fisheries stocks at levels that 
allow continued commercial and recreational harvests for our own 
fishermen.
    It is important to remember in these hearings that though we may 
hear different views on how best to manage these precious commodities, 
we all want the same thing. We want fish that live and breed at levels 
high enough to sustain both themselves and this fishing industry. How 
we reach this goal seems to be the subject of most of our debates.
    The need for adequate science cannot be ignored, nor can the need 
for fishermen to have the ability to continue to support themselves and 
their families. Conservationists fight for the rights of the fish not 
to be driven to extinction, and all viewpoints must admit that 
extinction would serve nobody's purpose.
    This is an issue which in the past has been extremely divisive, but 
in this new Congress, with our emphasis on bipartisanship, I think it 
very important that we work together and keep our eyes on the end goal 
- to keep all commercial and recreational fisheries a sustainable part 
of our economy for the foreseeable future. To do that, we must have 
healthy resources. Thank you.
                                 ______
                                 
    Mr. Saxton, opening statement?
    Mr. Pallone?

   STATEMENT OF HONORABLE FRANK PALLONE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Yes, thank you, Mr. Chairman. I wanted to 
thank you for holding the hearing today on this important 
legislation on the Magnuson-Stevens Act, and I think it will 
probably be the most important issue that we consider in this 
Subcommittee this year.
    The 1996 reauthorization of Magnuson-Stevens, the 
Sustainable Fisheries Act, was intended to ensure that our 
fisheries would be managed on a sustainable basis. Without a 
strong fishery resource, you can't have a strong fishing 
industry. To that end, it required that the councils reduce 
bycatch and end overfishing in the fisheries they manage. It 
also required them to identify the habitat these fisheries need 
to survive and thrive and reduce the impact that fishing had on 
these habitats.
    Yet, Mr. Chairman, the latest Status of the Fisheries of 
the U.S. report from the Secretary indicates that more than 100 
stocks of fish are considered to be overfished, and we continue 
to see fisheries decline and disasters declared. In turn, 
Federal tax dollars must be spent to provide disaster 
assistance and to buy out fishing vessels to reduce the fleet.
    So what is happening? Were the provisions that we 
established in 1996 not strong enough, or have the councils and 
NMFS not been as diligent in their implementations as we 
believed they would be? Or is it, as some believe, too early in 
the process to determine the effectiveness of the Sustainable 
Fisheries Act? Clearly, we need to answer these questions if we 
are going to bring an end to fisheries disasters and the need 
for taxpayer-funded buyouts and bailouts.
    Mr. Chairman, I think we also need to look at the 
deplorable status of our fisheries data. The Status of the 
Fisheries of the U.S. report indicates that there are more than 
600 stocks for which the biomass is either unknown or 
undefined, thereby making it impossible to determine if the 
fishery is overfished. This should be of great concern. Also of 
concern for many in the fishing industry, I know, are numerous 
stocks that are considered to be overfished and are being 
managed with data that is 2, 3 or even 4 years old, perhaps 
even older, requiring quota restrictions that some feel are 
unnecessary.
    We need to give serious consideration to what needs to be 
done to improve our data collection and restore the confidence 
of the fishing industry and the environmental community in the 
data we use to manage these resources. Now, again, Mr. 
Chairman, I want to thank you for holding this hearing. I know 
there are going to be others, and I really think this is a 
critical issue, as you know, not only for New Jersey but for 
the rest of the nation as well. Thank you.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Our witnesses today are Dr. William Hogarth, acting 
assistant administrator for fisheries, National Marine 
Fisheries Service, National Oceanic and Atmospheric 
Administration from the Department of Commerce--welcome, Dr. 
Hogarth; Dr. James Gilford, Chairman, Mid-Atlantic Fishery 
Management Council--welcome, Dr. Gilford; Mr. Justin LeBlanc, 
vice-president of government relations, National Fisheries 
Institute--welcome; Mr. Lee Crockett, executive director, 
Marine Fish Conservation Network--welcome, Mr. Crockett; and 
Dr. Edward Houde, professor, University of Maryland Center for 
Environmental Science Chesapeake Biological Laboratory. Dr. 
Houde, thank you very much for your attendance here this 
afternoon.
    We will begin with Dr. Hogarth.

     STATEMENT OF DR. WILLIAM T. HOGARTH, ACTING ASSISTANT 
ADMINISTRATOR FOR FISHERIES, NATIONAL MARINE FISHERIES SERVICE, 
     NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATIVE, U.S. 
                     DEPARTMENT OF COMMERCE

    Dr. Hogarth. Thank you, Chairman Gilchrest, Members of the 
Subcommittee. I appreciate the opportunity to testify today on 
the reauthorization of the Magnuson-Stevens Fisheries 
Conservation and Management Act. I am Bill Hogarth, the Acting 
Assistant Administrator for Fisheries in the Department of 
Commerce.
    Mr. Gilchrest. Dr. Hogarth, can you pull your microphone a 
little closer, please?
    Dr. Hogarth. Okay.
    Mr. Gilchrest. Is it on?
    Dr. Hogarth. Is it on?
    Mr. Gilchrest. Yes, it is on.
    Dr. Hogarth. Let me say up front that we feel that the 
future health of the nation's fisheries is anything but bleak. 
The U.S. consumers spent an estimated $52 billion for fishery 
products in 1999. The commercial marine fishery industry 
contributed $27 billion to our gross national product, while 
recreation fishermen spent $9 billion, which translates into 
more than $25 billion to the U.S. economy.
    Mr. Chairman, we believe that these numbers will improve as 
we continue to meet conservation mandates under the Sustainable 
Fisheries Act (SFA) of 1996.
    First today, I would like to update the Subcommittee about 
NOAA's fishery actions to implement three key conservation 
provisions in the SFA: overfishing, bycatch and essential fish 
habitat. NOAA Fisheries continues to address overfishing 
through improved conservation guidelines and establishing 
updated overfishing definitions for virtually all Federally-
managed fisheries. We have worked closely with the Regional 
Fishery Management Councils to resolve overfishing criteria and 
their management, as well as, flexibility in the process, and 
we are moving ahead with new management programs.
    I am pleased to report that we have seen tangible stock 
improvements in our 75 approved rebuilding plans. According to 
our most recent annual report to Congress on the status of 
fisheries in the U.S., the number of stocks with acceptable 
harvest rates and those that are not overfished both increased 
last year. We expect this trend to continue, and in fact, by 
December of this year, we expect to have all 92 overfished 
stocks to have a rebuilding plan underway.
    NOAA Fisheries and the councils are also making major 
progress at reducing bycatch. In the Gulf of Mexico and in the 
South Atlantic Fish-Shrimp Trawl Fishery, fishermen now use 
bycatch reduction devices which have resulted in a decline in 
finfish bycatch level even up to about 50 to 60 percent in red 
snapper bycatch in the Gulf. NOAA Fisheries continues to work 
closely with the industry through the Gulf and South Atlantic 
Foundation in research on fishing gear to reduce bycatch.
    We have also identified and described the essential fish 
habitat in all 40 existing fishery management plans. However, 
three major issues have emerged since we began implementing the 
essential fish habitat (EFH) provision. First, a number of 
parties have asked why the EFH designations appear to be so 
expansive. Second, some environmental and fishing groups 
believe NOAA Fisheries and the councils have not gone far 
enough to minimize fishing impacts of EFH. And third, a 
coalition of nonfishing industries have expressed concerns 
about the consultation process with Federal agencies.
    Mr. Chairman, I address these three issues in my written 
testimony, and I would be happy to answer any questions today. 
In fact, we have a GAO report which was released last year 
which says to date, there is little evidence that the 
consultation process has adversely affected planned projects or 
that the broad designations have resulted in the most valuable 
habitats being overlooked. They looked specifically at the 
Southeast Region of nine projects and showed that none of them 
had caused any delay in any projects and that they were being 
implemented as Congress had intended.
    The SFA also provided for many annual and one-time reports. 
NOAA Fisheries has submitted four annual reports to Congress on 
the Status of Fisheries of the U.S. In addition, the National 
Research Council (NRC) prepared a report on individual fishery 
quotas and the community development quota program in Western 
Alaska, and the United States Atlantic States Marine Fisheries 
Commission coordinated a report on the Government's role in 
controlling harvesting capacity.
    Another report prepared by the NRC, Sustaining Marine 
Fisheries, examined a wide range of management systems and 
evaluated their potential contribution to sustainable 
fisheries. The agency has completed several SFA-mandated 
reports and helped shape and direct some critical scientific 
missions.
    As you know, NOAA Fisheries completes a large volume of 
rulemaking and makes determinations on any given action under 
six statutes and three executive orders, including the National 
Environmental Policy Act and the Regulatory Flexibility Act. 
Many of these determinations open the agency to judicial 
challenge. We have initiated an agency-wide project to make our 
decisions more litigation-proof and to more fully take 
advantage of the decision making tools provided.
    I would like to turn now to the Magnuson-Stevens Act 
reauthorization. As you know, we are in a new administration, 
and we have not had time to develop an official position on the 
reauthorization. However, I would like to touch on a few issues 
that the stakeholders have raised to us as we have been talking 
around the country. The fundamental benchmark of the SFA is 
provision of mandate and the elimination of overfishing in 
Federally-managed fisheries. Since issuing national standard 
guidelines in May 1998, NOAA Fisheries has been helping the 
councils find the needed flexibility to create overfishing 
definitions, but there is still some confusion, and there may 
need to be some clarification in this area.
    The SFA also established a 4-year moratorium on the 
submission of new individual fishery quotas (IFQs) and mandated 
reports of both IFQs and community development quotas (CDQs.) 
These reports conclude that IFQs and CDQs have conservation and 
economic benefits and should be a management tool. However, 
concerns remain about their use.
    Since Section 312 of the SFA provides for public and 
private partnerships and fishing capacity reduction programs, 
our efforts to implement these provisions have revealed some 
time-consuming complications that are discussed further in my 
testimony. The SFA also addresses the hardship associated with 
disaster relief in Section 312(a). The broad and flexible 
nature of the program have caused some of our constituents to 
raise questions about the criteria applied to the designation 
of a commercial fishery failure and a fishery resource disaster 
and the Federal and State Government process for approving 
funded activities.
    Section 305(h) calls for the creation of a central registry 
system for limited access permits, the so-called lien registry. 
This provision continues to be the subject of stakeholder 
discussion and is being reviewed pending resolution of various 
issues associated with implementation. As for seabird 
protections, the Endangered Species Act is the primary 
statutory authority for addressing the incidental take of 
listed seabirds. Although the Magnuson-Stevens Act provides 
NOAA Fisheries with authority to reduce seabird incidental 
takes, there is no specific requirement, since seabirds are not 
identified as bycatch.
    Finally, Mr. Chairman, in simplifying and tightening up the 
approval process for FMPs and amendments in 1996, the SFA 
inadvertently created two distinct review processes that 
resulted in timing discrepancies in regulatory actions. On 
occasion, the Secretary has had to make an approval decision of 
a plan or amendment without having the benefit of public 
comment or has been unable to return an inadequate plan 
immediately to the council for modification and timely 
approval.
    In conclusion, NOAA Fisheries has made great strides in 
implementing the SFA, but we have a long way to go. I want to 
thank you for the opportunity to testify today and discuss the 
implementation and reauthorization. I look forward to working 
with you and other Members of the Committee on this and other 
fishery-related issues in the 107th Congress. I am prepared to 
respond to any questions you and the Members may have.
    Thank you.
    [The prepared statement of Dr. Hogarth follows:]

Statement of William T. Hogarth, Ph.D., Acting Assistant Administrator 
 for Fisheries, National Marine Fisheries Service, U.S. Department of 
                                Commerce

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to this hearing on reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act (Magnuson-Stevens Act). I am 
William T. Hogarth, the Acting Assistant Administrator for Fisheries in 
the National Oceanic and Atmospheric Administration/Department of 
Commerce. In your invitation of March 19, 2001, you indicated this 
initial hearing would focus on three items: (1) progress in 
implementing the 1996 Sustainable Fisheries Act (SFA) amendments; (2) 
reports mandated by the SFA; and, (3) some issues that our stakeholders 
have suggested be reviewed during the reauthorization process.
THE 1996 SFA AMENDMENTS: NEW DIRECTIONS IN U.S. FISHERIES POLICY
    The Sustainable Fisheries Act (SFA) redirected U.S. fisheries 
policy in many important areas, but particularly away from promoting 
growth in the harvesting sector, toward conservation and sustainability 
of fisheries. NMFS and the regional fishery management councils have 
worked hard the last 4 years to implement those changes. Since 1996, 
NMFS has:
    <bullet> Lestablished new overfishing definitions and thresholds, 
and developed detailed guidelines for implementation of national 
standard 1, as well as for the new national standards, in particular 
national standards 8 and 9 on impacts on communities and by-catch 
issues;
    <bullet> Lplaced much more emphasis on producing sound and fair 
regulatory economic and social impact assessments (some in response to 
Magnuson-Stevens Act mandates, and others pursuant to different laws);
    <bullet> Lidentified and described essential fish habitat (EFH) in 
all 40 existing fishery management plans;
    <bullet> Lcontinued to promote and implement some form of limited 
entry in practically all Federally managed fisheries; and
    <bullet> Lplayed an active role in the preparation of a number of 
reports (some of them annually while others just once) that help us 
monitor progress in meeting SFA goals and consider all the implications 
of complex and contentious policy issues.
    I would like to describe in more detail our efforts to respond to 
three key provisions of the SFA that are critically significant in 
addressing long-term conservation goals: (1) overfishing, (2) bycatch, 
and (3) essential fish habitat. All three deal, directly or indirectly, 
with the management of fishing operations, and all of them place a 
priority on resource conservation. I use the word conservation in the 
broad sense to include conservation, protection, and/or rebuilding of 
directly targeted fish stocks, of fish and other marine life that is 
taken incidentally in fishing operations, and of the marine habitat 
that is vital to targeted stocks, protected species, and to all living 
marine resources.
Overfishing
    The future health of the Nation's fisheries is anything but bleak, 
as some might have us believe. Although there is much work still to do, 
we have made great strides in establishing the framework to meet 
conservation mandates under the Magnuson-Stevens Act, and in 
implementing new management programs to ensure fisheries at sustainable 
levels in the future. The foundation for progress is now in place with 
the publication of revised guidelines for conservation and the 
establishment of updated overfishing definitions for virtually all 
Federally managed fisheries. Where differences have occurred regarding 
overfishing criteria and their measurement, we have worked with the 
Councils and others to overcome those differences and move ahead with 
new management programs.
    We have seen tangible improvements in many stocks. Our annual 
report to Congress on the Status of Fisheries in the United States 
provides a snapshot of how the Nation's marine fisheries are faring and 
progress we have made in their management. We now have 75 approved 
rebuilding plans, of which 45 have been implemented in just the last 3 
years. According to the latest report, the number of stocks with 
acceptable harvest rates and those that are not overfished both 
increased appreciably in the last year. In fact, nine stocks have been 
removed from the overfished list, and we expect many more will be 
similarly reclassified in the coming years. Rebuilding efforts will 
continue for many of these stocks until they reach maximum sustainable 
levels. Examples of Federally managed fisheries that have exhibited 
substantial resource recovery are Northeast scallops and haddock, and 
King mackerel in the Southeast.
    As I mentioned earlier, although progress has been made, we have 
much more work to do. While the number of stocks that are not 
overfished increased last year, the number of stocks that were found to 
be overfished increased significantly also. This may, at first, appear 
contradictory. However, most of the increase was not because of a 
sudden decline in those stocks, but resulted either from new 
overfishing definitions or new stock abundance data becoming available. 
As this data becomes available, the total number of stocks for which 
determinations can be made changes. For example, there were an 
additional 37 stocks found to be overfished in 2000. However, 32 of 
those were reclassified from unknown/undefined to overfished because 
new overfishing definitions or biological information became available. 
Increases in the number of overfished stocks are to be expected as we 
continue to transition to the higher standards of the SFA.
    Before leaving this topic, I would point out that rebuilding 
overfished stocks is just one part of the management equation. The law 
requires us to consider the plight of the fishing industry and 
dependent communities as we make management decisions. With the 
additional funding that Congress has provided, we have expanded our 
efforts to collect necessary economic and social information, and have 
significantly improved our impact analyses. We have also revised our 
guidance in this area, and are working closely with Council and NMFS 
staffs to implement that guidance. During the current fiscal year, we 
will hold at least six workshops around the country to discuss the new 
guidance and help apply the guidance to regional issues. With the 
continued support of Congress, we hope in the near future to have 
comprehensive data bases, as well as analytical models and other 
techniques, to enable us to complete more thorough impact analyses for 
decisionmakers.
Bycatch Issues
    The SFA added national standard 9, which stipulates that 
conservation and management measures shall minimize, to the extent 
practicable, bycatch and mortality associated with bycatch. Incidental 
harvests of finfish remain a major concern in the Gulf of Mexico shrimp 
trawl fishery where measures to combat this problem pre-dated the SFA. 
In recent years, bycatch has become a national issue that affects many 
gear types, principally trawls and longlines, in a growing number of 
Federally managed fisheries.
    We believe that NMFS and the Councils are making meaningful 
progress in dealing with bycatch, although the problem is highly 
specific to individual fisheries and gear types and, therefore, resists 
uniform solutions. In the Gulf of Mexico shrimp trawl fishery, 
regulations requiring the use of Bycatch Reduction Devices (BRDs) have 
been implemented progressively, with the result that bycatch levels of 
finfish, in particular red snapper, are declining. Regulations 
addressing bycatch problems have been instituted in many other 
Federally managed fisheries.
    The agency has continued to support gear research that focuses on 
this problem. One example is NMFS-supported research on technical means 
to reduce seabird mortality in longline fisheries. This work has been 
applied domestically and in the 1999 FAO-sponsored International Plan 
of Action for Reducing the Incidental Catch of Seabirds in Longline 
Fisheries.
    Also of critical concern is the bycatch problem in a number of 
Federally managed fisheries involving incidental takings of protected 
species. In these situations, several laws may apply. Issues related to 
some seabirds fall under the Endangered Species Act and those related 
to turtles and marine mammals often are addressed by both the ESA and 
the Marine Mammal Protection Act (MMPA). In some cases, other laws such 
as the Migratory Bird Act apply. Examples abound, but the best known 
are sea turtles in the shrimp trawl and many finfish fisheries; 
seabirds in long-line fisheries; and, marine mammals in some commercial 
fisheries using various gear.
Essential Fish Habitat
    The provisions addressing EFH in the 1996 SFA created new 
responsibilities for NMFS and the Councils. Section 303 (a) (7) 
requires that each fishery management plan describe and identify EFH 
and minimize to the extent practicable the adverse effects of fishing 
on EFH. In addition, the SFA requires that we identify other actions to 
encourage the conservation and enhancement of EFH for Federally managed 
fisheries. The SFA also assigned to the Secretary of Commerce the roles 
of consulting and coordinating with other Federal agencies with respect 
to actions that may adversely affect EFH. NMFS has heard both praise 
and concern from our constituents over the increased emphasis we are 
placing on habitat conservation to implement the EFH provisions of the 
SFA. We are making progress and are expanding research on identifying, 
protecting and understanding EFH which is hampered by the limited 
available information about the habitat requirements of managed fish 
species.
    The EFH provisions of the SFA provided important new tools for NMFS 
and the Councils to manage sustainable fisheries. By law, we now must 
ensure that our fishery management decisions consider the potential 
effects of fishing on the habitats needed by commercially and 
recreationally important species of fish for their basic life 
functions. Likewise, we must ensure that our recommendations to Federal 
and state agencies regarding non-fishing activities are focused on 
measures needed to conserve the habitats that support managed 
fisheries.
    Three major issues have emerged regarding implementation of these 
EFH provisions. First, a number of parties have asked why the EFH 
designations appear to be so expansive. It is true that EFH 
designations encompass most of the coastal waters and EEZ. However, it 
is important to realize that a map of all currently identified EFH in 
U.S. waters comprises the aggregate of separate EFH designations for 
more than 700 managed species, each with 2 to 4 distinct life stages 
and seasonal differences in habitat requirements, and many with EFH 
designated as only bottom habitats or only surface waters. For 
individual species or life stages, EFH is generally a subset (often 50 
to 70 percent) of the total available habitat. The specificity of EFH 
designations depends on the amount of information available. Much more 
scientific information is necessary to identify the type and quantity 
of habitats necessary to achieve a desired level of fish production, or 
even to specify which habitats contribute most to the growth, 
reproduction, and survival of the target species. NMFS is continuing to 
work with the Councils, scientific and research communities to revise 
and refine EFH designations as additional information becomes 
available.
    Second, some environmental and fishing groups have said that NMFS 
and the Councils have not done enough to minimize the adverse impacts 
of fishing on EFH. Unfortunately, there is limited information to 
demonstrate a direct link between physical habitat disturbance from 
fishing gear and decreases in productivity, survival, or recruitment of 
managed fish species. Where sufficient information is available, NMFS 
and the Councils are incorporating measures into our management 
decisions to minimize the effects of fishing on EFH. In addition, NMFS 
is working in partnership with other agencies and institutions to 
conduct new research to improve our understanding of the effects of 
fishing on bottom habitats. NMFS and the Councils are also preparing 
new environmental impact statements for most of our FMPs to evaluate in 
detail the effects of fishing on EFH and a range of measures that could 
be taken to minimize adverse effects. NMFS also is organizing a 
symposium on the effects of fishing activities on benthic habitats, 
tentatively scheduled for early 2002.
    Third, a coalition of non-fishing industries has expressed concern 
about the process for consultations between NMFS and other Federal 
agencies whose actions may adversely affect EFH. The EFH consultations 
and commenting provisions of the Magnuson-Stevens Act are the only 
existing mandate that requires Federal agencies to address specifically 
how proposed actions might affect the habitats needed by Federally 
managed fish species. To streamline the efforts and enhance efficiency, 
NMFS has strongly urged Federal agencies to wrap EFH consultations into 
existing environmental review procedures under other laws, and most 
consultations are being handled with that approach. Federal agencies 
are assessing the impacts of their actions on important fish habitats, 
and their decisions are responding to NMFS recommendations on how to 
avoid or minimize those impacts. NMFS considers this process a 
significant opportunity to provide scientific advice to other agencies 
and improve the management of sustainable fisheries.
REPORTS MANDATED BY THE SFA
    Associated with these strengthened and new Magnuson-Stevens Act 
conservation objectives are many reporting requirements. There are two 
kinds of reports on which I would like to comment. First, there are 
annual reports that NMFS is required to prepare, for example, the 
annual reports to Congress on the Status of Fisheries of the United 
States, which we have now issued four times. The second type of report 
is typically a one-time study with broad policy implications. Examples 
include reports prepared by the National Research Council (NRC) on 
individual fishing quotas and the community development quota program 
in western Alaska, and a report coordinated by the Atlantic State 
Marine Fisheries Commission on the government's role in controlling 
harvesting capacity. We have completed and carefully considered all the 
reports and studies that were mandated by the SFA. The reports are all 
unique in that they deal with specific issues for different 
programmatic ends, but they have in common that they have served highly 
useful purposes and provided us substantial direction toward more 
sustainable fisheries.
    The agency has completed other SFA-mandated reports that have 
helped shape and direct some critical scientific missions. The Fishery 
Research Plan has assisted in guiding and prioritizing our fisheries 
science programs, and the Fishery Ecosystem Management Study supported 
NMFS efforts to do the science required for this more comprehensive and 
holistic approach to management. Another report prepared by the NRC, 
Sustaining Marine Fisheries, examined a wide range of management 
systems, evaluating their potential contribution to sustainable 
fisheries. Increasingly, these studies advocate a broad view of how to 
deal with fisheries management issues. In addition, the agency has 
successfully completed reports on (1) bycatch and incidental harvest 
research, (2) peer-reviewed red snapper research and management, (3) 
stock-specific identification of salmon in ocean fisheries, and (4) 
harvest capacity reduction in New England fisheries.
    Some one-time reports, such as the NRC studies of rights-based 
management systems, have enabled us to examine complex issues like 
individual fishing quotas (IFQs), through the eyes of outside experts 
and our commercial, recreational, and environmental constituencies. 
Still other reports, like the Federal Investment Study on the 
governmental role in the expansion and contraction of fish harvesting 
capacity, were valuable mainly because they concentrated on the 
implications and effects of government programs.
    Finally, I think these mandated reports have helped us identify 
more clearly the scientific and technical issues that need additional 
study and further deliberation. An obvious example is rights-based 
management systems, which many agree involve sensitive issues. With the 
completion of the NRC report on IFQs, Sharing the Fish, NMFS and the 
Councils have a much better understanding of the economic and social 
issues that will have to be addressed as we develop a national policy 
on rights-based management systems. NMFS will continue its review of 
these and other management systems as it works toward sustainable 
fishing in all Federally managed fish stocks.
MAGNUSON-STEVENS ACT REAUTHORIZATION
    The SFA formally reauthorized the Act through 1999. The 
Administration will be developing its position on Magnuson-Stevens Act 
reauthorization. Accordingly, we have established an internal process, 
including a designated working group, for soliciting inputs from the 
NMFS headquarters and field offices and from the eight Councils. 
Because of Native American interests in certain fisheries and their 
roles and responsibilities as co-managers of associated resources, our 
process for soliciting input will also include potentially affected 
tribal governments. As we move through the reauthorization process, 
NMFS will provide specific comments on these issues. The issues 
surrounding reauthorization of the Magnuson-Stevens Act are vitally 
important to those who are engaged in the fisheries.
    We have heard from many of our constituents and the Councils 
regarding their concerns. Based on those discussions and our management 
experiences, the following is a list of issues that may be considered 
during the reauthorization process.
Overfishing Definitions and Thresholds: National Standard 1 and Section 
        304 (e)
    A fundamental benchmark in the 1996 SFA is the provision that 
mandates elimination of overfishing in Federally managed fisheries. 
NMFS has devoted substantial time and effort since 1996 to create 
overfishing definitions and thresholds that conform with the Magnuson-
Stevens Act mandates and can be applied to many different types of 
Federally managed fisheries.
    We believe that we succeeded substantially in meeting this charge 
with the issuance in May 1998 of guidelines for implementing national 
standards, including national standard 1, which deals with the 
prevention of overfishing. We have worked and continue to work closely 
with all the Councils to help them implement these guidelines in their 
work on FMPs.
    During this process, we received questions from fishermen, 
environmentalists and all our constituencies on new definitions and 
thresholds and our annual report on the status of stocks that applies 
these standards to about 900 distinct fisheries. Some are concerned 
about a perceived lack of flexibility in developing these definitions 
and associated management measures. Others feel that in moving from 
recruitment- to maximum sustainable yield-based definitions, we have 
effectively raised the conservation standard too high, unnecessarily 
depriving commercial and recreational users of fishing privileges.
Individual Fishing Quotas: Section 303 (d)
    The SFA established a 4-year moratorium (to October 1, 2000) on 
submission of new IFQs and mandated reports on IFQs and CDQs, which 
were completed in 1998. These reports, conducted by the National 
Research Council (NRC), concluded that existing IFQs and CDQs generate 
conservation and economic benefits, including mitigation of 
overcapacity, but that many fishing industry constituencies have 
concerns about their implications, in particular for small fishermen 
and fishing communities. The NRC report on IFQs, Sharing the Fish, 
recommended that IFQs be made available as one tool among others that 
the Councils could use if desired, and that the Congress and NMFS 
should develop policies on several related issues, such as 
consolidation and transferability of quota shares. Late last year, 
Congress extended the IFQ moratorium to October 1, 2002, but, in the 
interim, authorized two Councils to study and prepare for them. We will 
continue to work with the Councils, Congress and our constituents to 
make these tools available in a manner that is appropriate for the 
regions and stocks under consideration.
Fishing Capacity Reduction Program: Section 312 (b-e)
    Government programs that buy out and thereby reduce overcapacity 
are another means of achieving a fundamental goal of the Magnuson-
Stevens Act. Most of these buyouts have been funded with public 
resources, but another variety would include private sector 
participation through the payment by industry of fees to pay off the 
loans required to fund the buyouts. Such public and private buyout 
partnerships were provided for in the 1996 SFA Section 312 (b-e) 
provisions that detail the rules for the Fishing Capacity Reduction 
Program. However, efforts to implement these provisions have revealed 
concerns that those requirements may be too complicated and time-
consuming, particularly with respect to changes in the relevant fishery 
management plans and the mandatory regulatory assessments.
Disaster Relief: Section 312 (a)
    The resource downturns that are evident in so many of our Federally 
managed fisheries have caused hardships for many fishermen and their 
respective fishing communities. One SFA program that addresses this 
need and can also support conservation is fisheries disaster relief. 
Federal payments to fishing communities and industry groups have been 
made increasingly frequently under Section 312 (a), the SFA provisions 
that deal with Fisheries Disaster Relief. The program is much broader 
and more flexible than most, and some of our constituencies have raised 
questions about the criteria or standards that govern the designation 
of a commercial fishery failure and a fishery resource disaster, the 
use to which disaster relief funds are put, and the Federal and State 
governmental process for approving activities funded under Section 312 
(a).
Central Registry System for Limited Access Permits: Section 305 (h)
    The SFA in Section 305 (h) calls for the creation of a central 
registry system for limited access permits, the so-called lien 
registry. This provision continues to be the subject of discussions 
among stakeholders and is being reviewed pending resolution of various 
issues associated with implementation of the registry.
Seabirds and the Management of Bycatch
    The ESA is the primary statutory authority for addressing the 
incidental catch of seabirds in fisheries that may potentially take an 
endangered seabird species. Although the Magnuson-Stevens Act provides 
NMFS with authority to implement measures to reduce seabird incidental 
takes, the Act does not specifically require the implementation of 
measures to reduce incidental catches of seabirds, since seabirds are 
not currently defined as bycatch. It should be noted, too, that the 
United States has agreed in 1999 to a United Nations Food and 
Agriculture Organization (FAO)-sponsored international plan of action 
to reduce seabird mortality in longline fisheries, and committed to 
develop a national plan to implement the FAO agreement.
Timeliness of the Management Review Process
    In simplifying and tightening up the approval process for fishery 
management plans and amendments in 1996, the SFA created two distinct 
processes: the review process for plans and amendments, and the review 
and implementation process for regulations implementing those plans and 
amendments. This new system has resulted in timing discrepancies. On 
occasion, the Secretary has had to make an approval decision on a plan 
or amendment without having the benefit of public comment on the 
proposed regulations. Concerns have also been raised about the 
Secretary's inability to return an inadequate plan immediately to the 
Council, so that it can make changes and have the plan approved in a 
timely fashion.
CONCLUSION
    Mr. Chairman, this concludes my testimony. Again, I want to thank 
you for the opportunity to testify today and discuss the implementation 
and reauthorization of the Magnuson-Stevens Act. The Administration 
looks forward to working with you and other Members on the Committee on 
this and other fisheries-related issues in the 107th Congress. I am 
prepared to respond to any questions you and other Members of the 
Committee may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Hogarth.
    Dr. Gilford?

   STATEMENT OF DR. JAMES H. GILFORD, CHAIRMAN, MID-ATLANTIC 
                   FISHERY MANAGEMENT COUNCIL

    Mr. Gilford. Thank you, Chairman Gilchrest.
    I am here on behalf of the chairman of the eight Fisheries 
Management Councils. I want to thank you for the opportunity to 
present our views. The council chairmen believe that--
    Mr. Gilchrest. Excuse me, Dr. Gilford. Some of our Members 
up here can't quite hear you, sir.
    Mr. Gilford. The council chairmen believe the Magnuson-
Stevens Act, as amended in 1996, fundamentally is a good piece 
of legislation. We also believe it is working. Many of our most 
important fisheries are recovering, and we are seeing 
significant improvements in a majority of the overfished stocks 
which are under management. In the past year, winter flounder, 
white hake, American plaice and yellowtail flounder were 
removed from the National Marine Fisheries Service list of 
overfished fisheries. I anticipate that loligo squid, summer 
flounder and scup will likewise be removed from that list in 
the very near future, perhaps by the end of the year.
    From the council chairmen's point of view, the changes 
suggested in our written testimony would serve to enhance and 
improve the act. Our testimony, incidentally, concerns only 
reauthorization issues on which the council chairmen have 
reached consensus. Some of the concerns that council chairmen 
recommend for consideration by the Committee are 
administrative, while others relate more directly to management 
measures. With respect to management matters, we recommend the 
following: resolve problems that are associated with MSY-based 
definition of overfishing. The council chairmen would very much 
appreciate the opportunity to work with the Subcommittee in 
seeking some resolution to that problem.
    Secondly, modify the definition of essential fish habitat 
or provide specific guidance on how to use different types of 
data in defining and designating essential fish habitat. Third, 
give the councils authority to regulate vessels involved in 
nonfishing activities that adversely affect fisheries or 
essential fish habitat. Four, allow the councils greater 
latitude in specifying rebuilding periods for overfished 
stocks. Five, end the prohibition on the use of IFQs or ITQs, 
and allow the councils maximum flexibility in designing IFQ 
systems and setting fees to be charged for the initial 
allocations, first sale and leasing of IFQs and allow the 
councils discretionary authority to establish fees to help fund 
observer programs.
    With respect to those items which relate more directly to 
administrative matters, we recommend the following: authorize 
locality pay for council members in the continental United 
States; authorize councils to receive funds or support from 
local, state and Federal agencies and nonprofit organizations; 
three, authorize councils to hold closed meetings for the 
purpose of reviewing research proposals; four, authorize the 
National Marine Fisheries Service to collect economic, 
proprietary or confidential commercial or financial information 
relevant to the development of fishery management measures; 
five, mandate the National Marine Fisheries Service to consult 
with the relevant councils before disapproving fishery 
management plans, amendment and framework actions submitted by 
the councils for National Marine Fisheries Service approval; 
six, allow concurrent approval of plans and amendments as well 
as regulations and provide a 15-day disapproval process. Also, 
allow the councils the opportunity to resubmit responsive 
measures rather than submit a complete fisheries management 
plan or amendment as now required.
    Seven, exclude the National Marine Fisheries Service 
regional administrators from voting on emergency or interim 
actions requested by the councils; and eight--
    Mr. Gilchrest. Could you say that again? I am sorry; could 
you say that last--
    Mr. Gilford. The last one?
    Mr. Gilchrest. Yes, sir.
    Mr. Gilford. Yes, sir. Exclude the National Marine 
Fisheries Service regional administrator from voting on 
emergency or interim actions requested by the councils. I will 
explain that later if you wish me to, sir.
    Eight, expand cooperative State-Federal enforcement 
programs and consider establishing permanent funding for such 
programs.
    There are four matters in addition to the council 
chairmen's recommendations that I hope the Subcommittee will 
consider, namely, one, a seat for the State of New York on the 
New England Fishery Management Council; two, eliminate the 
requirement of newspaper notifications of meetings; three, 
permit the direct transfer of council funds from the National 
Marine Fisheries Service; and lastly but most importantly 
mandate a mechanism to assure compatible state and Federal 
management measures for interjurisdictional stocks managed by 
both the Atlantic States Marine Fisheries Commission and the 
Mid-Atlantic and New England Fisheries Management Councils.
    Thank you again for the opportunity to present the 
recommendations of the council chairmen for your consideration, 
and let me also make one last comment, and that is that the 
council chairmen are very appreciative of the support and the 
effort we have in working jointly with the National Marine 
Fisheries Service. They are very capable, competent and have a 
high degree of integrity. Nothing in our comments is meant to 
reflect differently.
    Thank you.
    [The prepared statement of Dr. Gilford follows:]

 Statement of James H. Gilford, Ph.D., Chairman, Mid-Atlantic Fishery 
                           Management Council

    On behalf of the other seven Council chairmen and myself, I thank 
the Members of the Subcommittee for the opportunity to present our 
views. First let me say the Council chairmen believe the Magnuson-
Stevens Act as amended in 1996 is fundamentally a good piece of 
legislation and it is working. Many of our most important fisheries are 
recovering and we are seeing significant improvements in a majority of 
the overfished stocks under management. During the past year winter 
flounder, white hake, American plaice, yellowtail flounder were some of 
the species removed from NMFS' list of overfished fisheries. Loligo 
squid, summer flounder and scup should likewise be removed from that 
list by the end of this year. The changes I am suggesting today are not 
substantial, but they will serve to enhance and improve the Act. The 
numbered points I make in this presentation concern only the 
reauthorization issues on which the Council chairmen reached consensus. 
The positions I will cover were developed in June 1999 and have been 
modified slightly since they were first presented to the Committee on 
Resources in July of 1999 by Joseph Brancaleone, then Chairman of the 
New England Fishery Management Council. These items are sequenced 
consistent with the Magnuson-Stevens Act's table of contents, and 
although numbered they do not reflect any prioritization convention. I 
will be glad to answer questions on any of the issues I am bringing 
before you on behalf of the Councils, or on issues of specific concern 
to the Mid-Atlantic Council.
1. Section 3(29) and Section 304(e) ... Redefine Overfishing
    The chairmen believe there are a number of problems related to MSY-
based definitions of overfishing. For example, data deficiencies may 
lead to inappropriate calculations of MSY, which in turn skew 
overfishing definitions. Ultimately, this could lead to unnecessary 
social and economic dislocation for fishermen who are subject to 
measures that are tied to stock rebuilding schedules skewed by 
unrealistic overfishing definitions. We would like to work with the 
Subcommittee in seeking solutions to our concerns as the 
reauthorization process proceeds.
2. Section 302(d) ... Council Member Compensation
    The Act should specify that Council member compensation be based on 
the General Schedule that includes locality pay associated with the 
geographic locations of the Councils' offices. This action would 
provide for a more equitable salary compensation. Salaries of members 
serving in Alaska, the Caribbean, and Western Pacific are adjusted by a 
COLA. The salary of the Federal members of the Councils includes 
locality pay. The Department of Commerce has issued a legal opinion 
that prohibits Council members in the continental U.S. from receiving 
locality pay. Congressional action, therefore, is necessary.
3. Section 302(f)(4) and (7) ... Receipt of Funds from any State or 
        Federal Government Organization
    Currently Councils can receive funds only from the Department of 
Commerce, NOAA or NMFS. The Councils routinely work with other 
government organizations to support research, workshops, conferences, 
or to procure contractual services. In a number of cases, complex dual 
contacts, timely pass-throughs, and unnecessary administrative or grant 
oversight are required to complete the task. The Councils request a 
change that would give them authority to receive funds or support from 
local, state and other Federal government agencies and non-profit 
organizations. This would be consistent with Section 302 (f)(4) that 
requires the Administrator of General Services to provide support to 
the Councils.
4. Section 302(i)(3)1Al(ii) ... Review of Research Proposals
    The Act should be amended to include a provision for the Councils 
to close meetings to the public for the purposes of reviewing research 
proposals. Some of the Councils now provide and administer funding to 
researchers and fishermen for data collection and other research 
purposes. The proposals submitted to the Councils for funding may 
contain proprietary information that the submitters do not want to make 
public for various reasons. It will be in the best interests of this 
process if the Councils have the ability to close meetings to consider 
these proposals.
5. Section 303(a)(7) ... Essential Fish Habitat
    The 1996 Act required the Councils to identify and describe EFH, 
but gave little direction on how to designate EFH. The EFH definition, 
i.e., ``those waters and substrate necessary to fish for spawning, 
breeding, feeding or growth to maturity,'' allows for a broad 
interpretation. The EFH Interim Final Rule encouraged Councils to 
interpret data on relative abundance and distribution for the life 
history stages of each species in a risk-averse manner. This led to EFH 
designations that were criticized by some as too far-reaching. ``If 
everything is designated as essential then nothing is essential,'' was 
a common criticism throughout the EFH designation process on both a 
national and regional scale. Either the EFH definition should be 
modified, or the guidance on how to use different types of data should 
be more specific.
6. Section 303(b) ... Regulating Non-Fishing Activities of Vessels
    The Council chairmen recommend that Section 303(b) of the Act be 
amended to provide authority to Councils to regulate non-fishing 
activities by vessels that could adversely impact fisheries or 
essential fish habitat (EFH). One of the most damaging activities to 
such habitat is the anchoring of large vessels near habitat areas of 
particular concern (HAPC) and other EFH (e.g., coral reefs, etc.). When 
these ships swing on the chain deployed for anchoring in 100 feet of 
water, 10 to 20 acres of bottom may be plowed up by the chain dragging 
over the bottom. Regulation of this type of activity by the Councils 
should be authorized.
7. Section 303(b)(7) ... Collection of Economic Data
    The Magnuson-Stevens Act specifies the collection of biological, 
economic, and sociocultural data to meet specific objectives of the 
Act, and requires the fishery management councils to consider this 
information in their deliberations. However, Section 303(b)(7) 
specifically excludes the collection of economic data, and Section 
402(a) precludes Councils from collecting ``proprietary or confidential 
commercial or financial information.'' NMFS should not be precluded 
from collecting such proprietary information so long as it is treated 
as confidential information under Section 402. Without this economic 
data, multi disciplinary analyses of fishery management regulations are 
not possible, preventing NMFS and the Councils from satisfying National 
Standard 2: ``... conservation and management measures shall be based 
upon the best scientific information...'', National Standard 8: `` ... 
to the extent practicable, minimize adverse economic impacts ...'', and 
other requirements of the Act and the Regulatory Flexibility Act (RFA).
    The chairmen recommend resolution of these inconsistencies by 
amending the Magnuson-Stevens Act to eliminate the restrictions on the 
collection of economic data. Amending Section 303(b)(7) by removing 
``other than economic data'' would allow NMFS to require fish 
processors who first receive fish that are subject to a Federal fishery 
plan to submit economic data. Removing this current restriction will 
strengthen the ability of NMFS to collect necessary data, and eliminate 
the appearance of a contradiction in the law requiring economic 
analyses while simultaneously prohibiting the collection of economic 
data necessary for such analyses.
8. Section 303(d)(1) ... Rescinding the Congressional Prohibitions on 
        IFQs or ITQs
    Section 303(d)(1) of the Act prohibited a Council from submitting 
or the Secretary from approving an Individual Fishing Quota (IFQ) 
system before October 1, 2000. More recently, through the fiscal year 
2001 Appropriation Act, this moratorium on IFQs/ITQs was extended for 
an additional two years. If the reauthorization process is completed in 
2001, the Council chairmen support rescinding these provisions before 
the year 2002 deadline. If this does not occur, then the chairmen 
oppose extending the moratorium on IFQs/ITQs beyond 2002.
9. Section 303(d)(5) and Section 304(d)(2) ... Establishment of Fees
    The Council chairmen are opposed to the imposition of fees that are 
not regional in nature and established by the Councils. However, we do 
support the National Academy of Sciences recommendation that 
Congressional action allow the Councils maximum flexibility in 
designing IFQ systems and allow flexibility in setting the fees to be 
charged for initial allocations, first sale and leasing of IFQs.
10. Section 304(a) ... FMP Review Program
    The chairmen believe that NMFS, in its review of proposed plans, 
amendments and framework actions has failed to adequately communicate 
to the Councils perceived problems in a timely manner. We propose the 
inclusion of a mandate in the Act to require through an abbreviated 
rule-making process that NMFS consult with the Councils before 
disapproving fishery management plans, amendments, or framework actions 
submitted by the Councils for NMFS approval.
11. Section 304(a and b) ... Coordinated Review and Approval of Plans 
        and their Amendments and Regulations
    The Sustainable Fisheries Act (SFA) amended Sections 304(a) and (b) 
of the M-S Act to create separate sections for the review and approval 
of plans and amendments, and for the review and approval of 
regulations. Accordingly, the approval process for these two actions 
now proceeds on separate tracks, rather than concurrently. The SFA also 
deleted the 304(a) provision allowing disapproval or partial 
disapproval of an amendment within the first 15 days of transmission. 
The Council chairmen recommend modification of these provisions to 
include the original language allowing concurrent approval of plans and 
amendments as well as regulations and providing for the initial 15-day 
disapproval process. The Councils would also like the ability to 
resubmit responsive measures rather than having to submit a complete 
fishery management plan or amendment as is now required by subsection 
(4) of Section 304(a).
12. Section 304(e)(4)(A) ... Rebuilding Periods
    The Councils should have greater latitude for specifying rebuilding 
periods than is provided under the National Standard Guidelines. Social 
and economic factors should be given equal or greater consideration in 
determining schedules that result in the greatest overall net benefit 
to the Nation.
13. Section 305(c)(2)(A) ... NMFS Regional Administrator Emergency or 
        Interim Action Vote
    For the purpose of preserving the Secretary's authority to reject a 
Council's request for emergency or interim action, the NMFS Regional 
Administrator is currently instructed to cast a negative vote even if 
he/she supports the action. While we recognize the extreme sensitivity 
in recommending a change to the voting responsibilities of our partners 
in the National Marine Fisheries Service--we certainly do not wish to 
appear to be disparaging the Regional Administrators in any way--the 
Council chairmen believe that Congressional intent is being violated by 
this policy. We suggest a modification to the Act as follows (new 
language in bold):
        (A) the Secretary shall promulgate emergency regulations or 
        interim measures under paragraph (1) to address the emergency 
        or overfishing if the Council, by unanimous vote of the members 
        (excluding the NMFS Regional Administrator) who are voting 
        members, requests the taking of such action; and
14. Section 311(a) ... Enforcement
    The Council chairmen support the implementation of a cooperative 
state/Federal enforcement programs patterned after the NMFS/South 
Carolina enforcement cooperative agreement. We applaud the inclusion of 
fifteen million dollars in the 2001 NMFS budget to expand the program 
to other states. While it is not necessary to amend the Act to 
establish such programs it is consistent with the changes needed to 
enhance management under the Act to suggest to Congress that they 
consider establishing permanent funding for such cooperative state/
Federal programs.
15. Section 313(a): see also Section 403 ... Observer Program
    The chairmen reaffirm their support to give discretionary authority 
to the Councils to establish fees to help fund observer programs. This 
authority would be the same as granted to the North Pacific Council 
under Section 313 for observers.
16. Section 402(b)(1) and (2) ... Confidentiality of Information
    Section 402 replaced and modified former Sections 303(d) and (e). 
The SFA replaced the word ``statistics'' with the word ``information'', 
expanded confidential protection for information submitted in 
compliance with the requirements of an FMP to information submitted in 
compliance with any requirement of the Act, and broadened the 
exceptions to confidentiality by allowing for disclosure in several new 
circumstances.
    The following draft language clarifies the word ``information'' in 
402(b)(1) and (2) by adding the same parenthetical used in (a), and 
deletes the provision about observer information. The revised section 
would read as follows (additions in bold):
    (b) CONFIDENTIALITY OF INFORMATION.-
    (1) Any information submitted to the Secretary by any person in 
compliance with any requirement under this Act that would disclose 
proprietary or confidential commercial or financial information 
regarding fishing operations, or fish processing operations  shall be 
confidential information and shall not be disclosed, except ...
    (2) The Secretary shall, by regulation, prescribe such procedures 
as may be necessary to preserve the confidentiality of information 
submitted in compliance with any requirement under this Act that would 
disclose proprietary or confidential commercial or financial 
information regarding fishing operations or fish processing operations, 
 except that the Secretary may release or make public any such 
information in any aggregate or summary form which does not directly or 
indirectly disclose the identity or business of any person who submits 
such information. Nothing in this subsection shall be interpreted or 
construed to prevent the use for conservation and management purposes 
by the Secretary or with the approval of the Secretary, the Council, of 
any information submitted in compliance with any requirement or 
regulation under this Act or the use, release, or publication of 
bycatch information pursuant to paragraph (1)(E).
OTHER:
Bycatch Issues
    There appears to be an inconsistent definition of bycatch, 
depending on geography. In the Atlantic, highly migratory species 
harvested in ``catch and release fisheries'' managed by the Secretary 
under 304(g) of the Magnuson Stevens Act or the Atlantic Tunas 
Convention Act are not considered bycatch, but in the Pacific they are. 
We suggest that highly migratory species in the Pacific, managed under 
a Western Pacific Council fishery management plan and tagged and 
released alive under a scientific or recreational fishery tag and 
release program, should not be considered bycatch. Note that there also 
is an inconsistency between the Magnuson-Stevens Act definition of 
bycatch and the NMFS Bycatch Plan. The NMFS definition is much broader 
and includes marine mammals and birds and retention of non-target 
species. The Council chairmen prefer the Magnuson-Stevens Act 
definition. We also wish to retain turtles in the definition of 
``fish'' because of their importance in every region and especially in 
past, and possibly future, fisheries pursued by indigenous peoples of 
the Western Pacific Region.
Mid-Atlantic Council Issues:
Section 302(a)(1)(A) ... Add New York to the New England Council
    New York is a border state between the Mid-Atlantic and New England 
regions, just like North Carolina is a border state between the Mid-
Atlantic and South Atlantic regions. Many fishery regulations divide 
New York state. Fishermen from the east end of Long Island fish in 
waters defined as southern New England and use New England fishing 
techniques. These fishermen target lobster, groundfish, black sea bass 
and tilefish, all Mid-Atlantic species. Fishermen from central and 
western Long Island fish in a more traditional Mid-Atlantic style and 
focus more on Mid-Atlantic species. The Mid-Atlantic regulated mesh 
area does not begin until one reaches the waters west of 72--30' west 
longitude. This has the effect of splitting New York. It puts a major 
part of the new York commercial fleet (Montauk, Greenport and 
Shinnecock) in the southern New England area, while the balance of the 
commercial fleet as well as the majority of recreational fishermen and 
fisheries are located in the waters west of 72--30'. It is recommended 
that voting membership on the New England Council be increased by two 
seats (state director and obligatory) to allow for the full 
representation of New York on the New England Fishery Management 
Council.
Section 302(i)(2)(c) ... Eliminate newspaper notification of meetings
    Given today's communication technology, the requirement to notify 
the public regarding meetings using local newspapers in major fishing 
ports is unnecessary. Other means such as press releases, direct 
mailings, newsletters, e-mail broadcasts, and web page updates of 
activities and events, including Council meetings are far more 
effective in communicating with our target audience than a legal notice 
in a local newspaper. Moreover, it is a lot less costly to use today's 
digital highway than yesterday's byway. Hence, we support the 
elimination of this statutorily required method of communicating with 
the public.
Direct Transfer of Council Funds
    Councils are often held hostage by the DOC and NOAA grants process. 
To avoid this process, and allow the Councils to operate is a more 
efficient and predictable manner, we recommend that Councils receive 
direct transfers of funding from NMFS rather than continue the 
burdensome grant process currently used.
    Mr. Chairman, I thank you for this opportunity to comment on the 
Magnuson-Stevens Act reauthorization. As I mentioned earlier, I will be 
happy to answer questions or provide information about the positions 
taken by the Council chairmen.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Gilford.
    Mr. LeBlanc?

   STATEMENT OF JUSTIN LE BLANC, VICE PRESIDENT, GOVERNMENT 
            RELATIONS, NATIONAL FISHERIES INSTITUTE

    Mr. LeBlanc. Chairman Gilchrest, distinguished Members of 
the Subcommittee, on behalf of the more than 800 members of the 
National Fisheries Institute, I want to thank you for the 
opportunity to testify before you on the reauthorization of the 
Magnuson-Stevens Fishery Conservation and Management Act.
    The 1996 Sustainable Fisheries Act, as we all know, marked 
a tremendous redirection of our nation's fisheries policies. 
Considerable new burdens were placed on the regional fishery 
management councils and the National Marine Fisheries Service. 
Many sectors of the commercial fishing industry, including the 
NFI, supported many of the provisions enacted in the SFA. 
However, the implementation of these provisions by NMFS has 
revealed very serious problems with the act that need to be 
addressed.
    Number one, the best scientific information available: 
national standard number two requires all FMPs to be based on 
the best scientific information available. In recent years, we 
have seen numerous examples of the agency's best available 
science being disproven by outside expertise, including the 
surf clam and ocean quahog fishery; scallop fishery; the 
wreckfish fishery in the South Atlantic, and now, there is new 
data with regard to scup.
    The NFI believes that there are three things that could 
markedly improve the best scientific information available: 
independent peer review of NMFS' stock assessments; cooperative 
research programs; and equitable treatment of anecdotal 
information from both commercial and recreational sectors.
    Number two, essential fish habitat: implementation of the 
EFH provisions by NMFS has been flawed. If everything is 
essential, then nothing is. If you attempt to protect 
everything, you will likely end up protecting nothing at all. 
The NMFS concept of habitat areas of particular concern is much 
more on target, and the authority to regulate the impacts of 
fishing activities should be focused on these areas, not the 
entire exclusive economic zone.
    Number three, overfishing and rebuilding programs: current 
overfishing definitions and rebuilding goals fail to recognize 
that environmental conditions affect fisheries. In 
Understanding Fisheries Management, a sea grant manual recently 
re-released, the authors state: ``Another aspect of carrying 
capacity is that it changes as environmental conditions change 
from year to year.'' The most obvious example of this is found 
in the brown shrimp fishery of the Gulf of Mexico. From 1980 to 
1998, landings were as high as 193 million pounds and as low as 
125 million pounds. Much of this variation can be attributed to 
salinity conditions in the marsh habitat used by very small 
shrimp. When conditions are good--that is, high salinity--there 
is more suitable habitat, and more young shrimp survive. When 
conditions are poor--low salinity--there is less suitable 
habitat, and fewer young shrimp survive.
    Our concepts of overfishing; our definition of what is an 
overfished stock and our rebuilding targets need to be altered 
to recognize this variability.
    Number four, observers: there has been a call by some for 
universal observer coverage in all U.S. fisheries. Observers 
can and do play a critical role in enhancing the scientific 
data for fishery management plans. Universal observer coverage, 
however, is not necessary; may be cost-prohibitive and poses 
potential safety threats, particularly on small vessels. In 
addition, we need to clarify the goals and objectives of 
observer programs before they are implemented. Are the 
observers on board to monitor bycatch, discard, species 
composition, landings or some combination of all these 
parameters? How will the fishery and the council and the 
National Marine Fisheries Service confirm that the data being 
collected by observers is meeting these goals and objectives 
and that the information is being incorporated into the 
management process?
    Number five, cumulative impacts of regulatory decisions: 
national standard number eight requires NMFS to minimize the 
adverse economic impacts of fishery conservation and management 
measures on fishing communities. All too often, however, the 
agency determines that the regulatory decision has no 
significant social or economic impact. In many of these cases, 
it is the most recent of a string of regulatory decisions that 
could well be the straw that breaks the camel's back. In fact, 
the General Accounting Office has recommended that NMFS 
consider secondary and cumulative impacts when it is meeting 
the obligations of national standard number eight.
    The NFI believes, therefore, that the national standard 
should be amended to require the agency to consider cumulative 
economic and social impacts. Such analyses would not only 
assess the impacts of additional incremental regulations on a 
particular fishery but also how those regulatory decisions may 
impact other fisheries.
    Number six, ecosystem management: while many fishermen have 
been urging NMFS to take into consideration the impacts of 
coastal development, pollution and other environmental changes 
on fisheries productivity and to adopt multispecies management 
systems, the sheer information needs of a comprehensive 
ecosystem management approach are overwhelming. Before 
ecosystem management can be implemented in any real sense, 
massive data gaps would need to be filled. The regional fishery 
management councils and NMFS are already overwhelmed with 
obligations under the SFA, and as the growing number of 
lawsuits filed against the agency reveal, are already severely 
limited in their ability to meet these obligations.
    Comprehensive ecosystem based fisheries conservation and 
management would require a NMFS budget many times larger than 
is currently the case. To require such an approach would 
therefore result in essentially an unfunded mandate to the 
agency and, by proxy, to the user groups who simply do not have 
a thorough enough scientific understanding of marine ecosystems 
to know all of the variables that must be incorporated into 
ecosystem-based management.
    Number seven and finally, the precautionary approach: the 
precautionary approach proposes that the less you know, the 
more conservative your approach. It sounds so good, so 
commonsensical, how can anyone oppose it? However, the simple 
description of the precautionary approach fails to recognize 
the inherent uncertainty present in fishery science. I would 
like to quote from Dr. Doug Butterworth of the University of 
Cape Town in South Africa. My written testimony has a much 
longer statement that he presented at the United Nations last 
year with regard to the precautionary approach, but I will just 
read from one paragraph that I think gets at the heart of the 
matter. Dr. Butterworth's words: ``My chief argument is with 
those who cite the precautionary principle as the justification 
to defend a worst-case scenario-based management approach, but 
if we are honest with ourselves, this is simply not a practical 
approach to life. If anyone disagrees with me, I would be 
interested in their explanation of how they got here, given 
that precautionarily, they should have declined to take an 
aircraft flight to Rome,'' which is where the UN meeting was, 
``because they were unable to rule out absolutely the 
possibility that the aircraft would crash.''
    Dr. Butterworth's point is that the precautionary approach 
cannot be applied unless combined with an assessment of the 
probabilities of certain outcomes and a determination of 
acceptable levels of risk that those outcomes will occur. The 
determination of an acceptable risk level is a social and a 
political decision. It is not a scientific one. NFI believes 
that to apply the precautionary approach in the absence of risk 
analysis assumes that a zero chance of overfishing, regardless 
of the social and economic impact, is the right social choice.
    We must remember that fishermen, just like farmers, provide 
Americans with an important renewable resource food, a food, in 
fact, which medical experts recommend Americans consume more of 
as part of a healthy and balanced diet. These fishermen create 
jobs and economic prosperity--
    Mr. Gilchrest. Mr. LeBlanc, we are going to have a vote in 
less than 10 minutes, and I am wondering if you are close to 
the end of your statement.
    Mr. LeBlanc. Indeed, one last sentence.
    Under worst-case scenario-based management, Mr. Chairman, 
Americans would continue to flock to their oceanfront 
condominiums which have replaced commercial fishing piers; look 
out on an ocean full of fish and have no seafood on the dinner 
plate.
    Thank you for the opportunity to testify.
    Mr. Gilchrest. Thank you.
    [The prepared statement of Mr. LeBlanc follows:]

  Statement of Justin LeBlanc, Vice President, Government Relations, 
                      National Fisheries Institute

    Chairman Gilchrest, Congressman Underwood, and distinguished 
Members of the Subcommittee, on behalf of the more than 800 members of 
the National Fisheries Institute (NFI), I want to thank you for the 
opportunity to testify before you on the reauthorization of the 
Magnuson-Stevens Fishery Conservation and Management Act (MSFCMA). I am 
Justin LeBlanc, the Vice President of Government Relations at the NFI.
    The NFI is the Nation's leading trade association for the diverse 
commercial fish and seafood industry. We are an ``ocean to table'' 
organization, representing harvesters, processors, importers, 
exporters, distributors, restaurants, and retail establishments. NFI's 
mission is to ensure an ample, safe, and sustainable seafood supply to 
consumers. The NFI is therefore committed to the long-term sustainable 
use of our nation's fishery resources. As I have stated before to this 
Subcommittee, some of our member companies have been providing seafood 
to U.S. consumers for more than 100 years and would like to continue to 
do so for at least another 100 years.
    The 1996 Sustainable Fisheries Act (SFA), as we all know, marked a 
tremendous redirection of our nations fishery policies. Considerable 
new burdens were placed on the Regional Fishery Management Councils and 
the National Marine Fisheries Service (NMFS) to end overfishing, 
rebuild overfished fisheries, protect Essential Fish Habitat, and 
assess impacts on fishing communities, among other things. Many sectors 
of the commercial fishing industry, including the NFI, supported many 
of the provisions enacted in the SFA. However, the implementation of 
these provisions by the National Marine Fisheries Service (NMFS) has 
revealed very serious problems with the Act that need to be addressed. 
While well-intentioned, many of these new provisions have had 
unexpected impacts and consequences and have revealed strategic 
weaknesses in our fisheries conservation and management system. My 
testimony will focus on 7 key issues:
1. LBest Scientific Information Available
2. LEssential Fish Habitat
3. LOverfishing/Rebuilding
4. LObservers
5. LCumulative Impacts of Regulatory Decisions
6. LPrecautionary Approach
7. LEcosystem Management
1. Best Scientific Information Available
    National Standard #2 of the MSFCMA requires all Fishery Management 
Plans (FMPs) to be based on the best scientific information available. 
In all too many cases, there has been far greater emphasis on what 
information is available and far too little interest in generating the 
best information. For example (and there are many), the New England 
Fishery Management Council and the NMFS are currently developing a 
Fishery Management Plan for deep-sea red crab. As a basis for the FMP, 
they are using data generated by a 1974 otter trawl survey of 2 week 
duration and choosing to ignore more recent research conducted by 
Canada, the Virginia Institute of Marine Sciences, and the University 
of Maryland because such information is not ``official NMFS data.'' It 
is clearly in the best interest of all parties that the most 
contemporary reliable data be used for stock assessment and FMP 
development, whether such data is generated ``in-house'' or by outside 
sources.
    In recent years, there have been numerous examples of NMFS data 
being disproven by outside expertise. The surf clam/ocean quahog 
fishery of the Mid-Atlantic region was essentially saved by outside 
expertise that demonstrated serious undersampling of the resource by 
NMFS surveys. Outside research on New England scallops also 
demonstrated inadequate science by the agency. Although the NMFS likes 
to tout New England scallops as a management success story, the 
industry had to fight tooth and nail to get the outside research 
recognized as legitimate by the agency and incorporated into the FMP 
process. Independent, outside review of the NMFS data on the South 
Atlantic Reef Fish FMP also demonstrated serious deficiencies in the 
information being used by the agency.
    The NFI believes there are three things that could markedly improve 
the Best Scientific Information Available: independent peer review of 
NMFS stock assessment data, cooperative research programs, and 
equitable treatment of ``anecdotal information'' from both commercial 
and recreational sectors.
    Every regional fishery management council has a committee that 
``independently'' reviews NMFS stock assessment data. Far too often, 
these review committees are anything but independent. Often filled with 
other NMFS employees and recipients of NMFS funding, these committees 
have inherent conflicts-of-interest that create either conscious or 
unconscious tendencies to support the NMFS data. With the tendency of 
truly independent analyses to differ from NMFS-generated data and the 
unwillingness (now lessening) of the agency to consider outside 
information, truly independent peer reviews of the scientific data upon 
which FMPs are based could dramatically improve NMFS stock assessment 
work and the confidence of user groups in that work.
    Other major criticisms of NMFS scientific work are that it is 
insufficient in quantity and quality and that it lacks stakeholder 
confidence. Cooperative research programs could go a long-way to 
solving some of these problems, at least in part. Cooperative research 
efforts allow the NMFS to leverage limited Federal dollars while at the 
same time building relationships with the commercial sector from which 
both scientists and fishermen can learn. For example, the Mid-Atlantic 
commercial fleet, through Rutgers University is currently engaged in 
side-by-side trawl surveys with a commercial fishing vessel (F/V Janice 
and Danielle) fishing alongside the NMFS FR/V Albatross at the 
Albatross historic sampling sites. Although the data is yet to be 
analyzed, reports from the vessels indicate a difference in catch of 
such enormous magnitude that the statistical reliability of NMFS' 
surveys may be suspect. For example, the commercial vessel has landed 
as much scup in one tow at one NMFS station as the Albatross landed for 
its entire survey last year.
    On the West Coast, the Pacific groundfish fishery is suffering 
under a tremendous harvest reduction to rebuild fisheries classified as 
overfished. With NMFS surveys of these stocks occurring only once every 
3 years, this 30-years old fishery is being managed with essentially 
ten data points. Cooperative research could help fill these massive 
data gaps. The General Accounting Office (GAO)\1\ in its report last 
April recommended that the NMFS ``increase the involvement of the 
fishing industry, its expertise, and its vessels in fishery research 
activities...''
    In addition, the NMFS must incorporate anecdotal information 
provided by fishermen into its stock assessment process, if only to 
question and/or ground truth the legitimacy of its own scientific 
information as the side-by-side trawl work I just mentioned suggests. 
This proposal is constantly scoffed at by NMFS employees and members of 
the conservation community. No one is proposing that fishermen shouting 
at a council meeting ``There are plenty of fish out there!'' should 
turn over a NMFS official stock assessment. However, as the GAO\1\ 
reports, NMFS does require commercial fishermen to collect and report 
about the type, weight, and length of species harvested. Because much 
of this information cannot be independently verified, NMFS is reluctant 
to use it. NMFS does, however, use similar self-reported data for 
recreational fishermen. NMFS obtains information about recreational 
catches, in part, by calling a random sample of recreational fishermen 
and asking them what they caught. These unverified responses are then 
combined with catch data obtained from a sample of recreational 
fishermen as they land to estimate the total recreational catch. While 
anecdotal information cannot replace true scientific analyses, it can 
inform the process in important ways and should be taken into 
consideration in some manner.
2. Essential Fish Habitat
    The implementation of the Essential Fish Habitat (EFH) provisions 
by the NMFS has been flawed as revealed in the hearing this 
Subcommittee held on EFH last year. The scope of EFH has been defined 
far too broadly, resulting in essentially the entire Exclusive Economic 
Zone (EEZ) being defined as EFH. If everything is essential then 
nothing is. If you attempt to protect everything, you will likely end 
up protecting nothing at all. The NFI believes this conception of EFH 
is inconsistent with congressional intent. The concept of EFH should be 
used to afford the conservation of discrete or particular, definable 
units of habitat. The NMFS concept of Habitat Areas of Particular 
Concern (HAPCs) is much more on target and the authority to regulate 
the impacts of fishing activities should be focused on these areas, not 
the entire EEZ.
3. Overfishing and Rebuilding Programs
    Currently, any stock of fish that is of low abundance relative to 
some historic high is classified as an overfished stock, whether this 
low abundance is the result of fishing activity or changes in the 
marine environment unrelated to fishing. Since these fisheries are 
classified as overfished, the Councils are required to implement 
rebuilding plans to once again attain the historic high level of 
abundance within 10 years, whether or not the current state of the 
marine environment can sustain such an abundance level (considered the 
carrying capacity of the environment for a stock of fish). The apparent 
driving force behind this is a misconception of the Maximum Sustainable 
Yield (MSY) of a fishery as a static concept that does not change.
    But MSY is dependent on the carrying capacity of the marine 
environment. Changes in the marine environment alter the carrying 
capacity of the environment, which, in turn changes the potential MSY 
for the fishery. The National Academy of Sciences (NAS), in its 1999 
report: Sustaining Marine Fisheries\2\ states that ``Environmental 
changes can produce effects similar to those of fishing, and it is 
often difficult to distinguish them from the effects of fishing. 
Although they cannot be controlled directly, environmental fluctuations 
exert a fundamental influence on the behavior of marine ecosystems and 
must be taken into account by managers. To be sustainable, fishing and 
fishery management must be flexible and responsive to environmental 
changes as well as conservative of ecosystem components.''
    In the second edition of ``Understanding Fisheries Management''\3\, 
a manual published by the Auburn University Sea Grant Marine Extension 
and Research Center and the Mississippi-Alabama Sea Grant Legal 
Program, the authors state:
    ``Another aspects of carrying capacity is that it changes as 
environmental conditions changes from year to year. The most obvious 
example of this is found in the brown shrimp fishery of the Gulf of 
Mexico. From 1980 to 1998 landings were as high as 193 million pounds 
(1986) and as low as 125 million pounds (in 1983). Much of this 
variation can be attributed to salinity conditions in the marsh habitat 
used by very small shrimp. When conditions were good (high salinity), 
there was more suitable habitat and more young shrimp survived. When 
conditions were poor (low salinity), there was less suitable habitat 
and fewer young shrimp survived.''
    While it is obvious that harvest regimes need to take this 
variability into account, more importantly, our concepts of overfishing 
need to be altered to recognize this variability. Otherwise, in low 
salinity years, the Gulf of Mexico brown shrimp fishery would be 
classified as overfished and a rebuilding plan to attain the abundance 
of a high salinity year would be imposed, unnecessarily restricting 
fishing activity and not producing the desired result, particularly if 
there are a number of low salinity years in a row.
    In another example, the Mid-Atlantic scup fishery is classified as 
overfished and subject to a rebuilding plan. The NMFS has relative 
abundance data for scup going back 30 years. The long-term average 
relative abundance of scup since 1969 is 0.78 kg/tow Spring Spawning 
Stock Biomass (rolling 3-year average). However, for 3 years (1977-
1979) immediately following the passage of the FCMA, scup relative 
abundance shot up to an average 2.26 kg/tow Spring Spawning Stock 
Biomass. The NMFS has selected as its rebuilding target (MSY) for scup 
this average of the three highest years on record, even though it is 
three times higher than the long-term average. It is unlikely that scup 
will ever reach these abundance levels again, even with a cessation of 
all fishing activity.
    On the West Coast, Pacific Ocean Perch (POP) is commonly found in 
Alaska, Canada, and northern Washington. The Washington stock was 
heavily fished by foreign vessels prior to enactment of the MSFCMA. 
When the U.S. assumed management in 1977, the Pacific Fishery 
Management Council established a rebuilding program to restore the 
stock. Surprisingly, stocks leveled off but did not increase in spite 
of stringent harvest controls. At the same time, POP stocks in Alaska 
were rapidly rebuilding. It now appears that the Washington stock was 
an outlying population that moved into the area in response to some 
unknown shift in the marine environment that shifted back as evidenced 
by the return of POP to Alaska. Such a shift changed the carrying 
capacity for POP in the waters off the coast of Washington. In 
addition, as POP stocks declined, other species replaced the ecosystem 
``space'' made available, yet another change to the carrying capacity 
of Washington waters. Finally, original stock assessments more than 
likely over-estimated the virgin biomass as the reporting of foreign 
catches was haphazard and unreliable: since POP was a prime commodity, 
especially in Russia, all rockfish were reported as POP. Despite all 
these factors, under the MSFCMA we are required to rebuild POP to an 
abundance level that probably never existed and, even if it did, is not 
likely possible today.
    It is therefore imperative that our definitions of MSY, 
overfishing, and rebuilding recognize environmental variability and 
take it into consideration when determining whether fisheries are 
overfished and what appropriate rebuilding targets should be.
    Another example of the 1996 SFA gone awry is Georges Bank haddock 
(G.B. haddock). In 1993, the New England Fishery Management Council 
submitted a rebuilding plan for G.B. haddock as part of Amendment 5 to 
the Multispecies FMP. Under the rebuilding plan approved by the 
Secretary, the status of G.B. haddock has markedly improved. Spawning 
stock biomass has increased from 10,900 metric tons (mt) to 38,100 mt 
in 1998. The 1998 and 1999 year classes of haddock are estimated to be 
48.5 million and 35.2 million fish, respectively. The 1998 year class 
is the largest year-class since 1978 and the third largest year class 
since 1964, the 1999 year-class is the fourth largest since 1964.
    Spawning stock biomass for 1999 is estimated to be 48,522 mt or 46 
percent of the MSY yield target of 105,000 mt. Spawning stock biomass 
is projected to increase to 86,145 mt by 2001 (probability 75 percent) 
under present restrictions and the present fishing mortality rate. The 
stock is projected to rebuild to MSY spawning stock biomass (105,000 
mt) under present restrictions by 2002. The present fishing mortality 
rate is well below the maximum allowed and is well below the rate at 
which the Canadians are fishing the stock.
    Nonetheless, under the present requirements of the MSFCMA and the 
National Standard Guidelines, the Council must establish a new 
rebuilding program for G.B. Haddock. That rebuilding program must be 
accomplished in the shortest possible time, not to exceed 10 years. The 
Council's groundfish plan development team has suggested a rebuilding 
time of 2004 with a fishing mortality rate 38 percent lower than the 
current rate, which is already 39 percent lower than the maximum 
allowed! This requirement will further restrict fishing for G.B. 
haddock at precisely the time the stock will have reached MSY under the 
existing restrictions!
    The system is clearly broken.
4. Observers
    There has been a call by some for universal observer coverage in 
all U.S. fisheries. Observers can and do play a critical role in 
enhancing the scientific data for FMPs. Universal observer coverage, 
however, is not necessary, may be cost-prohibitive, and poses potential 
safety threats. Used in combination with self-reported information, 
representative observer coverage can provide statistically reliable 
information. In addition, many fisheries and the vessels engaged in 
them are ill-suited for observers whose presence could create safety 
concerns for both observers and the crew, particularly on small 
vessels.
    Also of importance is the need to clarify the goals and objectives 
of observer programs before they are implemented. Are the observers on-
board to monitor bycatch, discards, species composition, total 
landings, or some combination of these parameters? How will the 
fishery, the Council, and the NMFS confirm that the data being 
collected by observers is effective at addressing the goals and 
objectives and that the information is being incorporated into the 
management process? The NFI believes that all observer programs should 
have clearly articulated goals and objectives developed before their 
implementation and that these programs should be periodically assessed 
to ensure they are fulfilling the goals and objectives. Such an 
approach will only improve observer programs in the long-term.
    In addition, the costs of observer programs should be borne by all 
the beneficiaries of the program, including all participants in the 
observed fishery as well as other affected fisheries, where 
appropriate.
5. Cumulative Impacts of Regulatory Decisions
    National Standard #8 requires the NMFS to minimize the adverse 
economic impacts of fishery conservation and management measures on 
fishing communities. All too often, however, the NMFS assesses a 
regulatory decision in isolation from previous decisions in the same 
fishery, thereby determining that the regulatory decision has no 
significant economic impact and is, therefore, consistent with not only 
with National Standard #8, but also the requirements of the National 
Environmental Policy Act, the Regulatory Flexibility Act and Executive 
Order 12866. In many of these cases, the most-recent regulatory 
decision could well be the straw that breaks the camel's back. The 
GAO\1\ recommended that the consideration of secondary and cumulative 
impacts by the NMFS be expanded.
    For example, as has already been mentioned, the data base used to 
manage west coast groundfish is poor. As a result--and especially with 
Pacific rockfish species--the Pacific Fishery Management Council has 
taken a number of management actions, each of which independently are 
arguably scientifically correct, but which cumulatively have led to a 
disaster declaration for the industry. These include ``precautionary'' 
reductions on Pacific rockfish harvest due to lack of data; imposition 
(with no phase-in period) of new harvest rate policies that further 
reduce harvest levels; and multi-species harvest restrictions in order 
to protect single species. Even worse, the Council has collected 
virtually no social and economic data on the fleet, processors, or 
local communities, so the Council can't even begin to measure 
cumulative impacts; but the number of ``For Sale'' signs on the dock 
tells you that the impacts exist.
    The NFI believes, therefore, that National Standard #8 should be 
amended to require the agency, when considering the impact of 
regulatory decisions on fishing communities and seeking to minimize 
negative economic impacts, to consider the cumulative economic and 
social impacts in order to more accurately reflect the toll such 
decisions can take on fishing communities. Such analyses would not only 
assess the impacts of additional incremental regulations on a 
particular fishery but also how those regulatory decisions may impact 
other fisheries by, for example, shifting effort to those other 
fisheries.
6. Precautionary Approach
    The MSFCMA does not call for the application of the precautionary 
approach. However, the United States is party to several international 
agreements, most notably the United Nations Code of Conduct for 
Responsible Fisheries, that call for the application of the 
precautionary approach. The precautionary approach has been touted as 
an approach to fisheries management to will save us from making 
mistakes that could devastate a fishery. Simply put, the precautionary 
approach proposes that the less you know, the more conservative your 
approach. It sounds so good, so common-sensical, how can anyone oppose 
it. However, this simple description of the precautionary approach 
fails to recognize the inherent uncertainty present in fisheries 
science.
    I would like to refer to someone with far more expertise on this 
matter than myself. Dr. Doug Butterworth of the University of Cape 
Town, South Africa presented a paper at the United Nations last year on 
the precautionary approach\4\. Dr. Butterworth is an internationally 
recognized fisheries expert and provides scientific guidance on the 
precautionary approach to both the United Nations and the Convention on 
International Trade in Endangered Species (CITES). Dr. Butterworth 
states:
    ``Fisheries assessment is an inexact science, in which uncertainty 
is pervasive. At a certain level, uncertainty, or, lack of 
predictability, is endemic, and fisheries management has to learn to 
live with that. Three decades ago, fisheries management dealt with this 
problem simply. Coarsely put, it said: use the scientist's agreed best 
assessment, then take off 10 percent for safety. But then scientists 
started trying to get more clever. We argued essentially that the 
safety level should be greater, the less certain we are...''
    ``Now as a counter to arguments typically offered by short-term-
orientated industrial interests in the past--`catches can't be reduced 
unless there's absolute certainty that this is necessary'--the existing 
statement of the Precautionary Principle (where there are threats of 
serious or irreversible damage, lack of full scientific certainty shall 
not be used as a reason for postponing cost-effective measures to 
prevent environmental degradation, inserted) is fine, albeit lacking in 
specifics... But the Principle as stated offers no operational 
definition and the choice of language is poor. In science we can only 
disprove, not prove, so that there is never `full scientific 
certainty'. These deficiencies has allowed free reign in interpreting 
the Principle.''
    ``My chief argument is with those who cite the Precautionary 
Principle as the justification to defend a `worst-case scenario' based 
management approach... But if we are honest with ourselves, that is 
simply not a practical approach to life. If anyone disagrees with me, 
I'll be interested in their explanation of how they got here, given 
that, precautionarily, they should have declined to take an aircraft 
flight to Rome because they were unable to rule out absolutely the 
possibility that the aircraft would crash.''
    Dr. Butterworth's point is that the precautionary approach cannot 
be effectively applied in the context of fisheries management unless 
combined with an assessment of the probabilities of certain outcomes 
and a determination of acceptable levels of risk that these outcomes 
will occur.
    The determination of acceptable risk levels is a social and 
political decision. It is not a scientific one. Scientists should tell 
fishery managers that a certain fishing mortality rate has a certain 
probability of overfishing the resource. Fishery managers should then 
combine this information with an estimate of the social and economic 
impacts of their decisions and choose an acceptable balance.
    Of course, worst-case scenario management would have you seek a 
fishing mortality rate that has no chance of overfishing the resource. 
Such an approach is not only impractical, it is impossible. But even in 
the absence of worst-case scenario management, the Precautionary 
approach would have you always select a lower fishing mortality rate 
regardless of the cost to society. But is that appropriate? Or is there 
some point at which we, as a society, are willing to accept a slightly 
higher risk of negative outcomes to minimize negative social and 
economic impacts? And where does the tradeoff occur? At what point is 
this risk of overfishing too high? 5 percent, 10 percent, 50 percent? 
At what point are the social and economic costs too great? The 
challenge is that there is no right answer to these questions. Science 
cannot tell us what to do. We must make a social decision about the 
balance we seek in fisheries conservation and management.
    The NFI believes that to apply the Precautionary Approach in the 
absence of such risk analysis assumes that a zero chance of overfishing 
regardless of the social and economic impact is the right social 
choice. We cannot support such an approach. Now, of course an FMP 
should be less likely to result in overfishing than more likely, but 
just how unlikely is appropriate will vary from fishery to fishery 
dependent upon the social and economic costs.
    We must remember that fishermen, just like farmers, provide 
Americans with an important resource: food. A food, in fact, which 
medical experts recommend Americans consume more of as part of a 
healthy and balanced diet. These fishermen create jobs and economic 
prosperity, stabilizing and enhancing the communities in which they 
live. Are we as a society willing to sacrifice fishing communities and 
the people whose livelihoods depend upon fishing in order to achieve 
zero-risk (biologically) fishery conservation and management regimes? 
Or should we be willing to accept certain levels of risk to ensure that 
fishing communities and fishermen are around to reap the benefits of 
rebuilt fisheries for American and world consumers in the future? Under 
worst-case scenario management, Americans could continue to flock to 
their ocean-front condominiums that have replaced commercial fishing 
piers, look out on an ocean full of fish, and have no seafood on the 
dinner plate.
7. Ecosystem Management or Multi-species Management
    In the 1999 Report to Congress by the Ecosystem Principles Advisory 
Panel titled Ecosystem-Based Fishery Management\5\, the Panel calls on 
the NMFS to develop Fisheries Ecosystem Plans (FEPs) for every Fishery 
Management Plan. The Panel calls for these FEPs to contain the 
following:
a. LDelineate the geographic extent of the ecosystem(s) that occur(s) 
within Council authority, including characterization of the biological, 
chemical, and physical dynamics of those ecosystems, and ``zone'' the 
area for alternative uses.
b. LDevelop a conceptual model of the food web.
c. LDescribe the habitat needs of different life history stages for all 
plants and animals that represent the ``significant food web'' and how 
they are considered in conservation and management measures.
d. LCalculate total removals including incidental mortality and show 
how they relate to standing biomass, production, optimum yields, 
natural mortality, and trophic structure.
e. LAssess how uncertainty is characterized and what kind of buffers 
against uncertainty are included in conservation and management 
actions.
f. LDevelop indices of ecosystem health as targets for management.
g. LDescribe available long-term monitoring data and how they are used.
h. LAssess the ecological, human, and institutional elements of the 
ecosystem that most significantly affect fisheries and are outside the 
Council/Department of Commerce authority. Included should be a strategy 
to address those influences in order to achieve both FMP and FEP 
objectives.
    While many fishermen have been urging the NMFS to take into 
consideration the impacts of coastal development, pollution, and other 
environmental changes on fisheries productivity and to adopt multi-
species management systems that take into consideration competitive 
interactions and predator-prey relationships, the sheer information 
needs of a comprehensive ecosystem management approach as outlined by 
the Panel are overwhelming.
    Before ecosystem management could be implemented in any real sense, 
massive data insufficiencies would need to be filled. The Regional 
Fishery Management Councils and the NMFS are already overwhelmed with 
obligations under the MSFCMA and, as the growing number of lawsuits 
filed against the agency reveal, are already severely limited in their 
ability to meet these obligations. Comprehensive ecosystem-based 
fisheries conservation and management would require a NMFS budget many 
times larger than is currently the case. The NFI is not convinced that 
there is a political willingness to fund the agency sufficiently to 
meet the scientific requirements of ecosystem-based management.
    To require such an approach would, therefore, result in essentially 
an unfunded mandate to the agency and, by proxy, to the user groups. We 
simply do not have a thorough enough scientific understanding of marine 
ecosystems to know all the variables that must be incorporated into 
ecosystem-based management. The NFI believes we must considerably 
expand our knowledge base before we can implement ecosystem-based 
fisheries conservation and management in a manner that avoids 
unintended consequences for both fishermen and marine ecosystems.
    Mr. Chairman, Members of the Subcommittee, the reauthorization of 
the MSFCMA presents a tremendous opportunity to further evolve our 
fisheries conservation and management policies. The 1996 SFA was an 
important step in that evolution from which we have learned many 
lessons. I look forward to working with all of you during the 
reauthorization process to ensure a law that provides for sustainable 
fisheries while allowing U.S. consumers to enjoy safe, wholesome 
seafood. I thank you for the opportunity to testify before you.
References:
    1. LGeneral Accounting Office. April 2000. Fishery Management: 
Problems Remain With National Marine Fisheries Service's Implementation 
of the Magnuson-Stevens Act. GAO/RCED-00-69.
    2. LNational Academy Press. 1999 Washington, D.C. Sustaining Marine 
Fisheries. Committee on Ecosystem Management for Sustainable Marine 
Fisheries. Ocean Studies Board. Commission on Geosciences, Environment, 
and Resources. National Research Council.
    3. LWallace, Richard K. and Kristen Fletcher. 2001. Understanding 
Fisheries Management: A Manual for understanding the Federal Fisheries 
Management Process, Including Analysis of the 1996 Sustainable 
Fisheries Act. 2nd Ed. Auburn University Sea Grant Marine Extension and 
Research Center & Mississippi-Alabama Sea Grant Legal Program MASGP-00-
005.
    4. LButterworth, Doug S. 2000. Science and Fisheries in the New 
Millennium, presented at University of Virginia School of Law, Center 
for Oceans Law and Policy Conference: Current Fisheries Issues and the 
Food and Agriculture Organization of the United Nations. March 15-17, 
2000. Food and Agriculture Organization Headquarters, Rome, Italy. 
MARAM, Dept. of Mathematics and Applied Mathematics, University of Cape 
Town, Rondebosch 7701, South Africa.
    5. LEcosystem-Based Fishery Management. April 1999. A Report to 
Congress by the Ecosystem Principles Advisory Panel as mandated by the 
Sustainable Fisheries Act amendments to the Magnuson-Stevens Fishery 
Conservation and Management Act.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much.
    Mr. Crockett?

  STATEMENT OF LEE CROCKETT, EXECUTIVE DIRECTOR, MARINE FISH 
                      CONSERVATION NETWORK

    Mr. Crockett. Good afternoon, Mr. Chairman and Members of 
the Subcommittee. My name is Lee Crockett. I am the executive 
director of the Marine Fish Conservation Network. The network 
is a coalition of 102 environmental organizations, commercial 
and recreational fishing groups and marine science groups 
dedicated to promoting the long-term sustainability of marine 
fisheries. We appreciate the opportunity to present our views 
on reauthorization of the Magnuson-Stevens Act.
    Thanks to the hard work of you, Mr. Chairman, and others, 
the Sustainable Fisheries Act was passed and signed into law in 
October 1996. It was hailed as a landmark piece of legislation 
that would significantly improve fisheries conservation. Yet 
more than 4 years after its passage, the bright promise of the 
SFA has not materialized. Since the SFA's enactment in 1996, 
members of the network have been closely following its 
implementation. Based on our experiences, we have issued two 
reports. The first, which evaluated council implementation of 
the SFA, was entitled Missing the Boat; the other, entitled 
Lost at Sea, evaluated NMFS' implementation of the act.
    Based on these analyses, we identified three major 
shortcomings with implementation of the SFA. First, while some 
progress has been made in controlling overfishing and 
rebuilding overfished stocks, short-term overfishing was 
allowed in some fisheries, and many rebuilding plants had been 
stretched out to the maximum allowed by law. Second, many 
councils ignored the bycatch requirement by either relying on 
past, inadequate, actions or by postponing action until a later 
date.
    The most common rationale for the inaction was the lack of 
data. However, nearly all councils failed to establish the 
required bycatch reporting system to gather such data. Thirdly, 
we felt that the councils did a good job of identifying 
essential fish habitat, but nearly all had failed to carry out 
one of the most important SFA mandates: protecting the EFH from 
damaging fishing practices. In Lost at Sea, our evaluation of 
NMFS, we found that despite earlier assurances, NMFS failed to 
reject the vast majority of the inadequate SFA implementation 
amendments.
    We are currently in the process of conducting a followup to 
Lost at Sea to determine what the councils and NMFS have done 
to correct deficient plan amendments since September 1999. In 
my testimony, I detailed some of our preliminary findings. 
While I don't want to repeat that discussion, I do want to 
point out two overarching problems that we found: first, once 
NMFS approves an inadequate plan amendment, the councils are 
not likely to change it. Secondly, even when NMFS has 
disapproved inadequate amendments, the councils are slow to 
correct deficiencies.
    While some have argued that our concerns could be addressed 
through better implementation of the act, we believe that it is 
the act's legal framework that allows poor implementation. In 
the case of overfishing, flexibility in the law has allowed 
NMFS to develop regulations that allow overfishing of weak 
stocks in mixed-stock fisheries. In the case of bycatch, 
flexibility in the law allows the councils to claim that there 
is too little data to take action while at the same time 
failing to take meaningful steps to collect the data.
    Flexibility in the law has allowed managers to identify EFH 
but take no action to protect it from damaging fishing 
practices. We believe that implementation of the SFA is not 
likely to improve until Congress provides further legal 
clarification and direction. To accomplish this, we recommend 
that Congress strengthen the Magnuson-Stevens Act during 
reauthorization in the following ways: first, you should 
prohibit overfishing of all stocks in a mixed-stock fishery. On 
bycatch, you should make avoiding bycatch a priority and 
require fishery managers to take action to reduce bycatch under 
strict timelines. To protect essential fish habitat from 
damaging fishing practices, we should prohibit fishing 
activities that damage EFH unless the prohibition is shown to 
be unnecessary. We should also prohibit the introduction of new 
fishing gears or the opening of closed areas unless EFH damage 
is assessed and minimized.
    We must also expand fishery management beyond traditional 
single-species management to ecosystem-based management. To do 
this, we should require councils to develop ecosystem plans for 
each major ecosystem within their jurisdiction and then require 
that the management measures be consistent with those ecosystem 
plans. We should also establish mandatory observer programs. 
Objective observation and data collection are vital to 
effectively manage marine fisheries. To improve data 
collection, legislative changes are needed to establish 
mandatory fishery observer programs for all Federally-managed 
fisheries to collect statistically valid, reliable data. We 
believe that these observer programs should be funded by a user 
fee based on value and applied to all fish landed and sold in 
the United States.
    Several witnesses have also mentioned that they want to see 
the moratorium on individual fishing quotas lifted. The 
network's position on this is that we think the moratorium on 
IFQs should remain in place until Congress acts to establish 
standards that protect fishermen and the marine environment.
    So, having detailed the network's ideas for reauthorization 
to the Magnuson-Stevens Act, I would like to close by 
cautioning the Subcommittee against weakening the conservation 
provisions of the act. Nearly 5 years have passed since passage 
of the SFA. We are just beginning to see some stocks begin to 
rebound. However, many other stocks have shown little 
improvement, and some continue to decline. The recent 
Department of Commerce Status of Stocks report shows that for 
the fourth year in a row, the number of stocks that are either 
overfished, experiencing overfishing or both has increased. 
Currently 107 stocks, 43 percent of those that are assessed, 
are in that condition.
    We think that that is a clear indication that our fish 
conservation laws need to be strengthened, not weakened. Thank 
you for providing us this opportunity to present our views on 
reauthorization of the Magnuson-Stevens Act. I would be happy 
to answer any questions.
    [The prepared statement of Mr. Crockett follows:]

     Statement of Lee R. Crockett, Executive Director, Marine Fish 
                          Conservation Network

    Good afternoon Mr. Chairman and Members of the Subcommittee, my 
name is Lee Crockett, I am the Executive Director of the Marine Fish 
Conservation Network (Network). The Network is a coalition of 102 
environmental organizations, commercial and recreational fishing 
associations, and marine science groups dedicated to promoting the 
long-term sustainability of marine fisheries. Our member organizations 
represent nearly 5 million people. For your information, I've attached 
a list of Network members to my testimony. We appreciate this 
opportunity to present our views on reauthorization of the Magnuson-
Stevens Act. As you requested, I will focus my testimony on progress 
and effectiveness of implementation of the 1996 Sustainable Fisheries 
Act (SFA) amendments to the Magnuson-Stevens Act and the issues that we 
think the Subcommittee should address during reauthorization.
    I would first like to say how pleased we are that you are now the 
Chairman of this Subcommittee. You have been a leader in Congress on 
fish conservation for many years and can rightfully claim to be one of 
the fathers of the SFA. It was your legislation, H.R. 4404, the 
``Marine Fish Conservation Amendments of 1994,'' that formed the basis 
for the SFA's overfishing, bycatch, and essential fish habitat 
provisions. As you have a paternal claim to the conservation provisions 
of the SFA, so does the Network. We have advocated for changes to the 
Magnuson-Stevens Act to prohibit overfishing, minimize bycatch, and 
identify and protect essential fish habitat since 1993.
    Since enactment of the SFA in 1996, members of the Network have 
been actively involved in its implementation at the regional fishery 
management council level. Our members have actively participated in the 
council process as members of and advisors to council committees, and 
as interested stakeholders through written and oral testimony. We have 
been working diligently over the past 4 years to ensure that the SFA is 
implemented as Congress intended. Based on our experience, the Network 
issued a report in January 1999, in partnership with the Center for 
Marine Conservation, evaluating council implementation of the SFA. The 
report, entitled Missing the Boat, identified major failures in the 
implementation of the SFA. We found that while the councils had made 
some progress in controlling overfishing and rebuilding overfished 
stocks, much more work was needed. Some councils continued to allow 
short-term overfishing, and many stretched rebuilding plans out to the 
maximum allowed by law, 10 years or beyond. These risky practices 
jeopardize rebuilding these overfished stocks.
    We also found that the councils failed to implement the SFA's 
bycatch requirements. Many councils ignored this requirement either by 
relying on past inadequate actions, or by postponing action until some 
later unspecified date. The most often cited excuse for inaction was a 
lack of data. However, the councils uniformly did not even establish 
the SFA mandated bycatch reporting systems necessary to gather such 
data.
    The councils did a better job of implementing the Act's essential 
fish habitat (EFH) requirements. Across the board, the councils engaged 
in a thorough information gathering process and identified EFH in an 
appropriately precautionary manner. However, nearly all of the councils 
failed to carry out one of the most important SFA mandates: protecting 
EFH from damaging fishing practices.
    In response to Missing the Boat, the National Marine Fisheries 
Service (NMFS) stated that it was too early to criticize implementation 
of the SFA and assured the public and us that it would return 
inadequate SFA implementation amendments and plans to the councils for 
``necessary modifications.'' Since then, members of the Network have 
been closely following NMFS' response to the fishery management 
councils' SFA implementation amendments. We reviewed each amendment and 
provided NMFS with detailed comments and recommendations on which 
sections should be approved or disapproved for not meeting SFA 
requirements. We also issued another report on NMFS' implementation of 
the SFA entitled Lost at Sea. In that report, we found that, despite 
its earlier assurances, NMFS failed to reject the vast majority of the 
inadequate SFA implementation amendments. NMFS approved three plan 
amendments that allowed continued short-term overfishing. It also 
approved 12 rebuilding plans that did not meet the requirement to 
rebuild overfished stocks in as short a time as possible, but instead 
stretched rebuilding out for10 years. With regard to bycatch, we found 
that all of the 24 plan amendments submitted as of September 1999 were 
inadequate and should have been rejected. Unfortunately, NMFS rejected 
only 5 of those inadequate amendments.
    With regard to EFH, only two of the existing EFH amendments 
contained any new measures to protect habitat from damaging fishing 
practices, and both affected only small areas. Aside from these minor 
actions, little else has been done to protect fish habitat from fishing 
impacts. Most councils failed to even conduct a comprehensive 
assessment of the effects of fishing gear on habitat or the 
practicability of measures to reduce those impacts. NMFS' response to 
those failings was to partially disapprove nine inadequate amendments, 
while approving 28 equally inadequate amendments.
    The Network is in the process of conducting a follow-up to Lost at 
Sea to determine what the councils and NMFS have done to correct 
deficient plan amendments since September 1999. While this study is not 
complete, I would like to share some of our preliminary results with 
you.
    In New England, the Council has not implemented the SFA overfishing 
definitions or the required rebuilding plans, nearly 5 years after the 
Act's passage. Many stocks continue to be managed based on pre-SFA 
overfishing and rebuilding targets. With regard to bycatch, the Council 
failed to establish a bycatch reporting methodology and continues to 
rely on existing reporting requirements to report bycatch--vessel trip 
reports and minimal at-sea observer coverage--even though it admits 
that both are unreliable for assessing bycatch. As to protecting EFH, 
NMFS fully approved the Omnibus EFH amendment. However, this approval 
was unwarranted as the amendments failed: (1) to assess the impacts of 
the eighteen predominant gears used in New England on EFH; and (2) 
incorrectly found that existing measures were adequate to minimize 
fishing impacts on EFH. Since the passage of the Omnibus EFH Amendment, 
many of the measures it relied on to minimize fishing effects on EFH 
have been weakened (groundfish closed areas) or never implemented 
(scallop days at sea reductions).
    Similar issues arise in the Mid-Atlantic, NMFS approved most of the 
Council's overfishing and rebuilding plans--even thought many relied on 
pre-SFA overfishing definitions that were risk-prone. While NMFS 
rejected the scup rebuilding plan, the Council has yet to develop an 
amendment to modify the existing plan. Most of the Mid-Atlantic 
Council's plan amendments to address bycatch rely on existing catch 
reporting requirements. Paradoxically, the Council deferred taking 
action to minimize bycatch due to lack of data because of the 
unreliability of existing reporting methods. NMFS approved most of 
these plans and only rejected the scup bycatch provisions of the Summer 
Flounder, Scup, and Black Sea Bass management plan. The Council has yet 
to adopt adequate measures to reduce scup bycatch in the squid, 
herring, and mackerel fisheries. NMFS rejected all of the EFH 
amendments because they did not adequately assess the impact of fishing 
on EFH, or provide an adequate rationale for not taking action to 
minimize the effects of damaging fishing practices. The Council has yet 
to remedy these deficient EFH provisions.
    In the South Atlantic, NMFS rejected most of the overfishing 
provisions of the Council's SFA amendment because they relied on pre-
SFA overfishing definitions that did not comply with the new 
requirements of the SFA, namely that they be biomass-based. The Council 
has yet to implement revised overfishing definitions for most of these 
rejected species. With regard to bycatch, the Council continues to rely 
on logbooks to collect bycatch information--many of which still fail to 
contain necessary fields to report bycatch. While NMFS is planning to 
modify fishery logbooks to include bycatch reporting this year, such a 
measure fails to address the serious concerns about reliability, or 
ensure accurate bycatch reporting in the future.
    The Gulf Council's comprehensive EFH amendment was only partially 
approved by NMFS because it did not identify EFH for all managed 
species and did not adequately assess the impacts of all fishing gear 
on EFH. The Council has yet to take any action to address the problems 
identified by NMFS when it partially approved the amendment. NMFS 
rejected the Council's bycatch reporting proposal and the provisions to 
minimize bycatch in all Gulf fisheries except stone crab. The Council 
has not submitted an amendment to address these problems, because it 
maintains that NMFS must provide it with the bycatch data necessary to 
revise the rejected amendments. Similarly, the Council has failed to 
revise its overfishing targets--most of which NMFS rejected--to comply 
with the new overfishing and rebuilding requirements of the SFA.
    As of March 2001, the Caribbean Council has not submitted its 
comprehensive SFA amendment addressing the overfishing and bycatch 
provisions of the SFA. NMFS only partially approved the Council's EFH 
amendment, because it did not identify EFH for all managed species. The 
Council has yet to address this deficiency or to take action to address 
fishing gear impacts on EFH.
    NMFS rejected the bycatch provisions of the Pacific Council's 
groundfish management plan. While the Council has developed a new 
bycatch amendment it still continues to fail to establish a 
standardized bycatch reporting methodology and to assess and minimize 
bycatch in the groundfish fishery. NMFS revoked its approval of 
rebuilding plans for boccacio rockfish, lingcod, and Pacific Ocean 
perch. The Council is required to revise these rebuilding plans no 
later than January 1, 2002. NMFS approved the EFH amendment to the 
Pacific Coast Salmon fishery management plan (FMP) on September 27, 
2000, 2 years after the SFA's October 1998 deadline. NMFS also approved 
the EFH amendment for the Groundfish plan in April 2000, even though it 
failed to assess or minimize the adverse effects of fishing on EFH.
    In the Western Pacific, NMFS rejected the bycatch provisions of 
both the Bottomfish and Pelagics management plans because they failed 
to quantify or minimize bycatch. The Council has yet to address these 
problems. NMFS rejected the overfishing definitions in the Crustaceans, 
Bottomfish, and Precious Corals management plans. The Council has not 
modified any of the rejected overfishing definitions as of March 2001.
    NMFS did not reject any of the SFA implementation amendments in the 
North Pacific. However, such approval was unwarranted, as many of the 
plans failed to address bycatch, protect EFH, or to prevent 
overfishing. The Council has focused its efforts on developing 
implementing rules for the American Fisheries Act, addressing the 
effects of its fisheries on the endangered Steller sea lion, seabird 
populations, and other affected protected species, and developing a 
supplemental environmental impact statement for its groundfish 
fisheries.
Reauthorization of the Magnuson-Stevens Act
    When the SFA was enacted in 1996, it was hailed as a landmark piece 
of conservation legislation that would significantly improve fisheries 
conservation. Yet more than 4 years after its passage, the bright 
promise of the SFA has not materialized. As our multiple reviews 
demonstrate, overfishing is allowed to continue. Rebuilding plans are 
too long and too risky. Bycatch is not being quantified or minimized. 
EFH has been identified, but too little is being done to protect it.
    Some argue that our concerns could be addressed through better 
implementation of the Act. In theory this may be true, but in practice 
it is not. Our review of SFA implementation clearly demonstrates two 
phenomena. First, once NMFS approves an inadequate management plan 
amendment, the councils are not likely to change it. Second, even when 
NMFS has disapproved inadequate amendments, and required revision as 
soon as possible, the councils are slow to correct deficiencies.
    However, while part of the problem can be attributed to poor 
implementation, the Act's legal framework also allows this to happen. 
In the case of overfishing, flexibility in the law has allowed NMFS to 
develop regulations that allow for overfishing of weak stocks in mixed 
stock fisheries. In the case of bycatch, flexibility in the law allows 
NMFS and the councils to claim that there is too little data to take 
action to minimize bycatch, while at the same time failing to take 
meaningful steps to collect that data. Flexibility in the law has 
allowed managers to identify EFH, but take almost no action to protect 
it from damaging fishing practices, the one area they have direct 
control over.
    We believe that implementation of the SFA is not likely to improve 
and that mangers will continue to exploit the flexibility of the Act 
until Congress provides much needed further legal clarification. To 
accomplish this, the Marine Fish Conservation Network recommends that 
Congress strengthen the conservation provisions of the Magnuson-Stevens 
Act during reauthorization. Our specific recommendations are listed 
below.
       recommendations for strengthening the magnuson-stevens act
Eliminate Overfishing of All Species
    The Magnuson-Stevens Act mandates that conservation and management 
measures must prevent overfishing. But in too many cases, managers 
still react to overfishing after it occurs and continue to improperly 
interpret the law and regulations so as to continue to allow 
overfishing. In addition, managers are not accounting for all sources 
of fishing mortality or ecosystem considerations in setting catch 
levels. Managers are extending periods allowed for rebuilding to 10 
years, and, in some cases, beyond those limits. This ``risk-prone'' 
management increases the likelihood that stocks will not be rebuilt in 
10 years, or even longer.
    NMFS continues to interpret the prohibition on overfishing to allow 
for overfishing of fish caught in association with other populations of 
fish that are not themselves overfished. Only when a fish species is 
threatened with extinction does NMFS require protection for these 
``mixed stock'' fisheries.
    This practice is seriously impeding efforts to rebuild many weak 
stocks in mixed stock fisheries, and has resulted in the depletion of 
many species to the point where they are vulnerable to extinction. In 
the Gulf of Mexico and the South Atlantic, a number of grouper species 
are in serious trouble. Four species, Nassau grouper, Warsaw grouper, 
speckled hind, and jewfish are on the Endangered Species Act's List of 
Candidate Species. In the Gulf of Mexico, 10 of 15 of the managed 
grouper species have been identified as being at risk of extinction by 
the American Fisheries Society (AFS). In New England, Atlantic halibut 
stocks remain severely overfished and two species of skate (barndoor 
and thorny skates) are at risk of extinction according to the AFS. 
Despite the fact that there is no allowable catch of these threatened 
species, they are still caught and killed by non-selective fishing 
practices used in mixed stock fisheries.
    On the West Coast, boccacio rockfish stocks have declined to less 
than 2 percent of their historic sizes and several organizations have 
petitioned for their listing on the ESA List of Candidate Species. The 
plight of the boccacio is particularly troubling because a little more 
than a decade ago, it comprised approximately 40 percent of the 
groundfish landings on the West Coast. Unless these weak stocks in 
mixed stock fisheries are protected we will continue to serially 
deplete many important stocks.
    Fishing for some species, especially during particularly vulnerable 
life stages, has placed those fish at risk. For example, fishermen 
targeting certain grouper and snapper species, focus their efforts on 
areas where they aggregate to spawn year after year. Although this life 
history characteristic makes these species vulnerable to overfishing, 
they received some protection in the past from fishermen's inability to 
locate and revisit these areas. However, technological improvements in 
navigation technology have removed that protection, thus contributing 
to overfishing and delaying or preventing timely rebuilding of these 
fish stocks. These vulnerable fish need to be identified and protected.
    To address these concerns, the Magnuson-Stevens Act should be 
amended to:
    <bullet> Lprohibit overfishing of all stocks in a mixed stock 
fishery;
    <bullet> Lrequire that each council provide added protection for 
stocks during spawning and other particularly vulnerable life stages; 
and
    <bullet> Lmandate the application of the precautionary approach to 
fisheries management by requiring that management measures include 
measures to buffer against scientific uncertainty.
Avoid Bycatch
    Bycatch is the indiscriminate catching of fish and marine life 
other than those a fishing vessel intends to capture. This includes 
fish that are not the target species, sex, size, or quality. It also 
includes many other fish and marine life that have no economic value 
but are ecologically important, such as starfish, sponges and skates. 
Primarily, bycatch results from fishing practices and gear that are not 
selective. In addition to visible mortality, fish and other sea life 
are sometimes killed or injured when passing through or escaping 
fishing gear, and through ``ghost fishing'' from abandoned or lost 
gear.
    Environmental problems caused by bycatch include overfishing, 
increased scientific uncertainty regarding total fishing mortality, and 
potentially serious changes in the functioning of ecological 
communities. Economically, bycatch equates to lost future fishing 
opportunities as a result of mortality of commercially valuable fish.
    In the SFA, Congress required action to address bycatch problems 
for the first time. However, as I discussed in detail above, the 
councils and NMFS have uniformly failed to take sufficient action to 
either report or avoid bycatch. They have relied upon past actions to 
satisfy this legal obligation, recommended insufficient action, or have 
not bothered to address the issue at all.
    To address these concerns, the Magnuson-Stevens Act should be 
amended to:
    <bullet> Lmake avoiding bycatch in marine fisheries a priority;
    <bullet> Ltighten the definition of bycatch to require that bycatch 
be avoided; and
    <bullet> Lrequire fishery managers to take action to reduce bycatch 
under strict timelines.
Protect Essential Fish Habitat
    Essential fish habitats are those waters and substrates on which 
fish are dependent to reach maturity and reproduce. The SFA requires 
action to describe, identify, conserve, and enhance EFH. The law and 
regulations require councils ``to prevent, mitigate, or minimize'' 
identified adverse effects from fishing unless it is not practicable to 
do so. As I detailed above, most councils claim that, either: 1) 
existing measures are adequate to minimize the adverse effects of 
fishing on EFH under their jurisdiction; or 2) that they did not have 
enough information to take action. Unfortunately, NMFS accepted these 
excuses and approved these deficient management plans. The ``to the 
extent practicable'' language in the law's EFH requirement is clearly 
being used as a loophole to avoid action, as is the familiar ``lack of 
information'' refrain.
    The SFA requires NMFS to provide Federal agencies with 
recommendations on how to minimize, mitigate, or avoid adverse impacts 
from Federally permitted activities on EFH. Compliance with these 
recommendations is voluntary. This consultation requirement needs to be 
strengthened to more fully protect EFH.
    To address these concerns, the Magnuson-Stevens Act should be 
amended to:
    <bullet> Lrequire regional fishery management councils to prohibit 
certain fishing activities that may adversely affect EFH unless a 
council determines that the prohibition is not necessary to protect 
EFH;
    <bullet> Ladopt the precautionary approach to habitat protection by 
prohibiting the introduction of new fishing gear or the opening of 
closed areas unless EFH damage is assessed and minimized; and
    <bullet> Lenhance the EFH consultation requirement by providing 
that Federal agencies must ensure that their actions are not likely to 
adversely impact EFH.
Conserve Marine Ecosystems
    Fishery managers and scientists recognize the need to expand 
fishery management beyond traditional single-species planning to 
include ecosystem considerations. Commonly referred to as ecosystem-
based management, such an approach includes, but is not limited to, 
interactions between key predator and prey species within an ecosystem, 
as well as the habitat needs of living marine resources and other 
limiting factors in the environment. This concept supports the 
precautionary approach to fishery conservation, especially when the 
ecosystem effects of fishing are uncertain. The precautionary approach 
requires managers to act to avoid likely harm before causes and effects 
are clearly established.
    It is widely believed that some fishery declines and difficulties 
in restoring overfished populations are due, at least in part, to 
fishing caused disruptions of ecosystems. Under existing law, fishery 
managers do have limited authority to consider ecosystem interactions, 
including predator-prey relationships, in management plans. The 
principal reason ecosystem relationships are not being adequately 
considered is a lack of guidance regarding the information that is 
needed, clear direction regarding the principles and policies that 
should be applied, and most importantly, how such principles and 
policies should be integrated into fishery management decisions.
    To address these concerns, the Magnuson-Stevens Act should be 
amended to:
    <bullet> Lrequire councils to develop a Fishery Ecosystem Plan 
(FEP) for each major ecosystem within their jurisdiction;
    <bullet> Lrequire fishery management plans or amendments to be 
consistent with the appropriate FEP;
    <bullet> Lrequire consideration of ecosystem impacts, including 
predator-prey interactions when setting catch levels; and
    <bullet> Lappropriate sufficient new funds to assist the councils 
and NMFS in applying ecosystem principles to fisheries research and 
management under the Magnuson-Stevens Act.
Establish and Fund Mandatory Fishery Observer Programs
    Objective observation and data collection are vital to effectively 
manage marine fish and fisheries. Managers' ability to address the 
problems of overfishing, bycatch, and degradation of EFH can be limited 
by lack of accurate and reliable information on a fishing vessel's 
catch and bycatch. In many fisheries there is an incomplete 
understanding of the total catch, i.e., landed catch and discarded 
bycatch. Overfished stocks cannot be rebuilt if we do not understand 
and control all types of mortality. Minimal, but inadequate, observer 
coverage exists along the Atlantic Coast, the Gulf of Mexico, and the 
West Coast. Catch and Bycatch data is vitally important to meeting the 
objectives of the Magnuson-Stevens Act by promoting sustainable 
fishing.
    To address these concerns, legislative changes are needed to:
    <bullet> Lestablish a mandatory fishery observer program for all 
Federally managed fisheries to collect statistically reliable catch 
data; and
    <bullet> Lfund observer programs with a user fee based on value and 
applied to all fish landed and sold in the United States.
Reform Regional Fishery Management Councils
    Although regional fishery management councils are charged with 
managing the nation's marine fish for all Americans, representatives of 
fishing interests dominate the councils. Interests of the general 
public, as well as non-consumptive users of marine fish, such as 
divers, are not adequately represented on the councils.
    Marine fish are public resources and must be managed in the public 
trust. Decisions regarding their management should be made in the 
public interest, not simply the economic interest of the fishing 
industry. Accordingly, representatives of the public interest must sit 
on regional fishery management councils.
    To address these concerns, the Magnuson-Stevens Act should be 
amended to:
    <bullet> Lensure that councils are more broadly representative of 
the public interest as they make decisions regarding the conservation 
and management of public resources; and
    <bullet> Lrequire Governors to consult with conservation groups 
before nominating individuals to a council.
Conserve Atlantic Highly Migratory Species
    NMFS is responsible for conserving Atlantic highly migratory 
species like tunas, swordfish, marlins, sailfish, and coastal and 
pelagic sharks. All of these species, with the exception of sharks, are 
also managed under multilateral agreements through the International 
Commission for the Conservation of Atlantic Tunas (ICCAT).
    In 1990, the Magnuson-Stevens Act and Atlantic Tunas Convention Act 
(ATCA) were amended to preclude U.S. fishery managers from issuing 
regulations, which have the effect of ``decreasing a quota, allocation 
or fishing mortality level,'' recommended by ICCAT. Since then, NMFS 
has done little more than implement ICCAT quotas and allocate them 
among domestic user groups. Moreover, where no ICCAT recommendations 
exist, no precautionary measures have been taken.
    Although ICCAT sets quotas, measures to implement the quotas and 
minimize bycatch mortality, such as area closures and gear 
modifications, must be implemented through domestic regulations. NMFS, 
however, interprets the law to prevent the U.S. from unilaterally 
reducing bycatch if it would affect the ability to fill the U.S. quota.
    To address these concerns, the Magnuson-Stevens Act should be 
amended to:
    <bullet> Lgive the U.S. greater discretion and flexibility in the 
conservation and management of highly migratory species; and
    <bullet> Lrepeal language that prevents or hinders the U.S. from 
implementing management measures that are more conservative than those 
recommended under international agreements.
    Similarly, the ATCA should be amended to:
    <bullet> Lremove language limiting U.S. authority to conserve 
highly migratory species.
Individual Fishing Quotas
    Individual fishing quotas (IFQs) grant fisherman and fishing 
companies the privilege to catch specific amounts of fish. Congress has 
placed a moratorium on the submission, approval, or implementation of 
any plan that creates an IFQ program until October 1, 2002.
    The Network supports continuing the moratorium on IFQ programs 
unless and until Congress adopts legislation containing standards for 
the design and conduct of IFQ programs to ensure that these programs 
enhance the conservation and management of our nation's fisheries.
    Standards must be adopted that, among other things, clarify that 
IFQ programs:
    <bullet> Ldo not create a compensable property right;
    <bullet> Ldemonstrably provide additional and substantial 
conservation benefits to the fishery;
    <bullet> Lare reviewed periodically by an independent body to 
determine whether the programs are meeting their conservation goals; 
and
    <bullet> Lare of a set duration, not to exceed 5 years, subject to 
possible renewal if a program is meeting its conservation goals, 
provided that in any reallocation of quota shares upon a renewal, 
preference shall be given to those quota shareholders that are meeting 
or exceeding IFQ program requirements, including all conservation 
goals.
Keep Conservation in the Magnuson-Stevens Fishery Conservation and 
        Management Act
    Having detailed the Network's ideas for reauthorization of the 
Magnuson-Stevens Act, I would like to close by cautioning the 
Subcommittee against weakening the conservation provisions of the Act. 
Some in the fishing industry have argued that Congress should, among 
other things, amend the Act to:
    <bullet> Lplace greater emphasis on economics when developing 
rebuilding plans for overfished stocks;
    <bullet> Lrequire mixed stock fisheries be managed as a unit;
    <bullet> Lrestrict protection of EFH to small subsets of EFH;
    <bullet> Lestablish standards for observer programs which will 
impede councils from establishing such programs; and
    <bullet> Lcreate redundant and unnecessary scientific review 
requirements.
    The Network feels very strongly that Congress should reject these 
proposals because they would significantly weaken fish conservation. 
Placing greater emphasis on economics over resource protection and 
sustainability will return us to the pre-SFA days of boom and bust 
fishing. If we are to have healthy, sustainable fisheries, conservation 
of our fish resources must come first. The simple fact is that if there 
are no fish, there will be no fishermen.
    Nearly 5 years after passage of the SFA, we are just beginning to 
see some fish stocks begin to rebound. Georges Bank yellowtail flounder 
and haddock are two examples of stocks that are beginning to rebound 
after large closed areas were instituted in the mid-1990's. However, 
many other stocks have shown little improvement and some have continued 
to decline. The recent Department of Commerce Status of Stocks report 
clearly demonstrates this point. For the fourth year in a row, the 
number of stocks that are either overfished, experiencing overfishing, 
or both has increased. The number of fish stocks now in jeopardy jumped 
from 98 to 107 stocks, or 43 percent of the managed species whose 
status in known. Unfortunately, we know little about the status of most 
of the Federally managed fish stocks--78 percent of the managed species 
are classified as unknown. The fact that nearly half of the stocks of 
known status are overfished does not bode well for these unknown 
stocks. These dismal statistics argue for strengthening, not weakening, 
the conservation requirements of the Magnuson-Stevens Act.
    Thank you for providing the Marine Fish Conservation Network with 
an opportunity to present its views on reauthorization of the Magnuson-
Stevens Act. I would be happy to answer any questions you or other 
members of the Subcommittee may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Crockett.
    Welcome, Dr. Houde.

  STATEMENT OF DR. EDWARD D. HOUDE, PROFESSOR, UNIVERSITY OF 
     MARYLAND CENTER FOR ENVIRONMENTAL SCIENCE, CHESAPEAKE 
                     BIOLOGICAL LABORATORY

    Mr. Houde. Thank you, Mr. Chairman.
    Mr. Gilchrest. From the beautiful Chesapeake Bay.
    Mr. Houde. Thank you, Chairman Gilchrest and Members of the 
Subcommittee.
    I appreciate having the chance to make some comments on 
science issues and needs related to the SFA and reauthorization 
of it. My view of the SFA is that it has had some moderate 
success since 1996 that many stocks are, in fact, perhaps on 
the road to recovery and that the science that is being applied 
with respect to serving the SFA certainly has increased over 
the years. My first experience with the councils was back in 
1978, and I can remember at that time, people asked what is 
MSY? Ten years later, we asked why do we use MSY? And now, we 
are still asking how do we utilize it?
    But we now know that we have to set targets, and we have to 
set limits, and we have to set thresholds, and we understand 
what biological reference points are so that the science and 
the assessment models that are being applied certainly have 
improved, and I don't think there has been enough time since 
1996 to fully evaluate the effect of the SFA amendments, but I 
am moderately optimistic. There is evidence of recoveries in a 
number of fisheries, although there are lots of discouraging 
cases as well, particularly in the Northeast and West Coast 
groundfish fisheries, reefish fisheries.
    With respect to essential fish habitat, I have to echo some 
of the concerns of my friend Lee Crockett. The SFA emphasis on 
identifying and defining was good, but it didn't go far enough. 
There are no explicit actions that are mandated in the SFA. A 
big effort, nevertheless, ensued to categorize habitats and 
life-state specific concerns. Habitat areas of particular 
concern also were specifically identified, but reauthorization 
should consider more specific guidance with respect to 
application of EFH standards.
    Should there be a national standard on EFH? That is 
something which I think should be discussed and debated.
    Individual fishing quotas: the National Academy of Sciences 
undertook a study in 1999. I think that I have read much about 
the advantages and disadvantages of IFQs as you have, but the 
consensus among most of the economists and fishery scientists 
is that positive benefits can be derived from allocating shares 
of quota and privileges to harvests. The NAS study is guardedly 
positive on this, recognizing the disadvantages. Lifting 
moratoria, from my point of view, is desirable, and 
discretionary use of IFQs by councils probably should be 
allowed according to the NAS report. Some fisheries could 
benefit as a good way to control capacity in fisheries; it 
potentially has ecosystem benefits, as, of course, social and 
economic implications that need to be discussed.
    I had an opportunity to chair an NAS panel on marine 
protected areas. We concluded that for fisheries, marine 
protected areas are a tool but not a solution; they can be a 
part of broader fishery management that perhaps ought to be 
instituted. The Presidential executive order last May 
reinforces that idea of establishing networks and zones. Zones 
and networks within a broader coastal ocean management scheme 
that would benefit fisheries certainly seem possible. Benefits, 
nursery functions of selected habitats, habitat protection of 
key and critical habitats, bycatch reduction, protection of 
spawning stock biomass, all of these can play a role in 
restoring depleted fisheries, especially for sedentary species.
    We do need to know the dispersal patterns of fish to make 
MPAs effective, but some fish stocks, for example, West Coast 
rockfish, probably could benefit from the institution of marine 
protected areas. We know that the councils are considering MPAs 
now and, in fact, we have some examples, as on George's Bank, 
where they have been applied to advantage, although if one 
looks at the social and economic consequences of MPAs, those 
who think that the economic benefits will be immediate probably 
are wrong. We are talking about decadal effects on influencing 
the economy of fishermen at least in a positive way. We 
shouldn't expect to see an immediate effect.
    Fishery ecosystem plans--Lee Crockett next to me was an 
advocate of them--the NMFS panel, which was mandated by the 
reauthorization of SFA, met and strongly recommended fishery 
ecosystem plans be developed by each council. This would be an 
umbrella document within which the FMPs must sit, one that 
defined the ecosystem, described it, described the key 
resources and habitats, the important food webs, key predator-
prey relationships and the critical functions and processes in 
ecosystems. FMPs should fit into this overall FEP.
    This would require action in the SFA reauthorization 
process, perhaps Congressional action, and I think most people 
in the scientific community would recommend it.
    Summing up, there are lots of data needs, and the NAS data 
report specifically outlines them and assigns things that 
Congress and NMFS and the councils can do. There is a long list 
in my written testimony that you could refer to. There are 
manpower issues in science, quantitative fishery scientists are 
in short supply; independent review of fishery management plans 
is difficult to undertake because there are so few people with 
strong quantitative training. Council staffs perhaps need to be 
boosted with people with a strong quantitative training. We are 
in a Catch 22. Virtually all U.S. citizens who obtain a Ph.D. 
in quantitative fishery science are hired by the NMFS.
    This is good, but who is going to train the next generation 
of quantitative fishery scientists? In summary, I refer to 
Pamela Mace's superb 1997 paper on the state of marine 
fisheries globally. In her order of priorities, she ranks the 
science needs lower than social and economic needs in restoring 
fisheries to their important role in our economy. She says 
inadequate national policies, inadequate institutions and other 
mechanisms, inadequate data and statistics, inadequate or 
inappropriate management goals and inadequate science, all of 
these are issues that need to be addressed in an SFA 
reauthorization.
    I urge you to keep them in mind as you move forward in 
reauthorizing the Fishery Conservation and Management Act.
    [The prepared statement of Mr. Houde follows:]

Statement of Edward D. Houde, Professor, University of Maryland Center 
                       for Environmental Science

    Magnuson Act in its original and amended forms has been in effect 
for more than 25 years. Fisheries management under the Sustainable 
Fisheries Act must be undertaken using the best available scientific 
information. From the outset, it was recognized that knowledge of many 
fished stocks was incomplete. Basic knowledge of biology sometimes was 
lacking; understanding of population dynamics and estimates of 
abundance, mortality rates, and production potential often were 
completely lacking. In the 1970's there already was a sense that 
management dependent on defining a Maximum Sustainable Yield, which 
assumes that the productivity of a fished stock is a function only of 
the stock's biomass, was insufficient. Nevertheless, this easily 
calculated, objective criterion became the standard by which management 
measures were gauged. MSY still remains an important reference point in 
management of U.S. fish stocks in the Exclusive Economic Zone, although 
not usually the target that it once was. In the early days of the 
Magnuson Act, most members of Scientific and Statistical Committees 
that advised the Councils struggled to understand MSY and few on the 
Councils understood the concept. The SSCs and the Councils have grown 
in knowledge and sophistication about fisheries principles and concepts 
in the ensuing 20 years. We now understand the MSY concept, know that 
it is insufficient as a management standard and target reference point, 
but we also now recognize how complex fish population biology is, 
especially when effects of fishing are added to the mix of 
environmental variability that is common in marine ecosystems.
    The science and technology associated with stock assessments 
certainly has advanced since implementation of the Magnuson Act and has 
continued to improve since reauthorization in 1996. The evolution of 
stock assessment modeling has been particularly significant. A recent 
National Academy of Science report (NAS, 1998) noted that assessment 
methods are relatively reliable and robust when the data on abundances 
are reliable. The caveat is important. The conclusion in the 1998 
report was supported by a second NAS report (NAS, 2000a) on marine 
fisheries data collection that urged Congress, NMFS and the Regional 
Councils to standardize, upgrade and improve the methods to collect, 
manage and use data as an important step toward improving stock 
assessments and management based upon assessments. Stock assessments 
are far from perfect and are dogged by uncertainties that concern 
fishers and managers alike. The quality of assessment models, however, 
is not the major problem in reliably managing fish stocks under the 
SFA.
    The fraction of overfished stocks in the U.S. fisheries is similar 
to that reported globally (25-30 percent). A smaller fraction of these 
stocks is near collapse and requires draconian measures to stabilize 
them and restore them. Restoration may take decades for some stocks, 
even under the best restoration scenarios. NOAA/NMFS reports in recent 
years have indicated an increase in the number of identified overfished 
stocks, but those increases are mostly a consequence of better stock 
assessments that have now categorized stocks that were previously 
uncategorized (the majority of stocks) as overfished. There has been no 
dramatic shift in numbers of overfished stocks since 1996. There is 
reason to believe that management can be effective under the SFA and 
improve the status of many heavily exploited stocks.
    Specific guidelines for rebuilding of overfished stocks were 
provided in the amended SFA. In the most recent years, Councils have 
tried to follow these guidelines, but in most cases stock rebuilding is 
still underway and success cannot be judged yet. I am cautiously 
optimistic that the new paradigms of fisheries management that became 
prevalent in the 1990's on a global scale will be beneficial to U.S. 
fisheries and will stabilize overfished stocks, successfully rebuilding 
many of them.
    The new paradigms, which are recognized in the amended SFA hinge on 
the precautionary approach to resource management that has been adopted 
as a standard globally (FAO 1995). Is this paradigm worth more than the 
vast amount of press that it has generated? Does the approach guide 
management actions that are being implemented by the Regional Councils? 
My sense is that the ethic espoused in this approach, which advocates 
risk-averse targets as biological reference points relative to those 
recommended historically, is accepted in principle and is being applied 
in amendments to many FMPs. There has been a notable shift toward 
setting fishing mortality rates and target spawning stock biomasses at 
levels that provide opportunity for overfished stocks to recover. U.S. 
scientists have taken a lead in developing criteria for setting risk-
averse biological reference points to restore stocks that are 
overfished and to protect stocks at higher abundance levels (e.g. 
Restrepo and Powers 1999). I know of no dramatic recoveries in stocks 
since 1996 (there has not been enough time), but it is probable that 
reference points, targets, and limits on fishing mortality and spawning 
stock biomasses that have been set since implementation of the amended 
SFA will reverse stock declines in many fisheries.
    Inclusion of specific language in the present Magnuson-Stevens SFA 
reauthorization process that addresses selection of target biological 
reference points relative to the broader range of reference points that 
could be selected will be useful to the Councils. Many FMPs already are 
being revised with precautionary fishing mortality and spawning-stock 
biomass targets specified. In this context, it is interesting to note 
that the NAS report Sustaining Marine Fisheries specifically advised 
that the first step in moving toward ecosystem-based approaches to 
fisheries management was to respect the uncertainties in behavior of 
marine ecosystems and set conservative fishing targets in single-
species fisheries (NAS 1999a), thus relieving stress to the individual 
exploited stocks that often are key constituents of ecosystems.
    The SFA (1996) contains specific language on Essential Fish Habitat 
(EFH), directing Councils to identify such habitats in their respective 
FMPs and presumably to implement measures to protect such habitats to 
insure healthy fisheries. The definition of EFH as it now stands is so 
broad that it is questionably useful in the management process. Some 
additional thinking is necessary, to be followed by more specific 
language on EFH in a reauthorized SFA. I am not certain that a specific 
National Standard needs to be added to the SFA in the present 
reauthorization, but this possibility should be considered. The EFH 
concept has stimulated a flurry of scientific activity directed toward 
understanding habitat issues in the past few years that should be 
useful in developing criteria and standards for FMPs.
    On a global basis, social scientists and economists have recognized 
the need to control burgeoning effort and excess fishing capacity by 
restricting the open-access privilege to fish. Limiting entry and 
establishing individual fishing quotas (IFQs) have been debated 
vigorously (e.g. Hanna et al. 2000). A NAS study, requested in the SFA 
(1996) reauthorization was guardedly positive on the role of IFQs and 
recommended that they be allowed in specific fisheries at the 
discretion of the Regional Councils. The accumulated evidence from a 
scientific perspective supports the implementation of IFQ management 
under appropriate circumstances, recognizing the need to consider 
initial allocation of shares, the threat of monopolies developing, and 
the rules for transfer and duration of IFQ permits. Benefits of IFQs in 
addition to controls on effort (and fishing mortality) are probable. 
IFQ-based management is potentially more ecosystem friendly than 
unrestricted participation in some fisheries. This may be true, for 
example, with respect to fishing impacts on habitat and with respect to 
bycatch reduction. I believe that Congress should allow IFQs as a 
management approach in a reauthorized SFA. I am sensitive to the 
arguments against this approach, but the evidence is strong that IFQs 
can benefit some fisheries. The Councils should have the possibility to 
implement them in appropriate situations.
    The NAS undertook a study on the Community Development Quota 
Program in Alaska in response to a request of the 1996 Magnuson-Stevens 
reauthorization (NAS 1999b), concluding that this community-based 
experiment in managing and allocating fisheries resources is 
succeeding, bringing both social and economic benefits. In a broader 
context, consideration of other community-based management and shared 
management approaches that actively involve stakeholders seems 
justified and a means to promote equitability in fisheries. I am no 
expert on this approach, but the reauthorization process needs to 
address co-management and its potential, especially its relationship to 
and role that it can play with respect to traditional, more centralized 
authority vested in management by the Federal Government and the 
Regional Councils.
    There is a growing worry that fisheries management is too little 
concerned with marine ecosystems, their stability, variability, and the 
sustainability of high productivity that will assure sustainable and 
profitable fisheries. The amended SFA (1996) recognized this concern. 
Accordingly, Congress mandated that an Ecosystems Principles Advisory 
Panel be established to undertake an analysis of the extent to which 
ecosystem principles were being applied in fisheries and to recommend 
actions that should be undertaken by the Secretary of Commerce and 
Congress to expand application of ecosystem principles in fisheries 
management. The report of the Panel (NMFS, 1999) includes many specific 
recommendations and a major conceptual recommendation--the proposal 
that each Council develop a Fishery Ecosystem Plan(s) within their 
regions. A FEP is envisioned to be a document that serves as an 
umbrella under which individual FMPs would reside and to which they 
must adhere. If adopted, many individual FMPs would be more ecosystem-
sensitive. The function and structure of ecosystems would be at the 
center of concern with respect to management of the ecosystem's 
constituent fisheries. The recommendations of the Panel, listed below, 
should be debated and seriously considered for inclusion in a 
reauthorized SFA:
Develop a Fisheries Ecosystem Plan
    <bullet> LDelineate the geographic extent of the ecosystem(s) that 
occur(s) within Council authority, including characterization of the 
biological, chemical, and physical dynamics of those ecosystems, and 
zone the area for alternative uses.
    <bullet> LDevelop a conceptual model of the food web.
    <bullet> LDescribe the habitat needs of different life history 
stages for all plants and animals that represent the significant food 
web and how they are considered in conservation and management 
measures.
    <bullet> LCalculate total removals--including incidental 
mortality--and show how they relate to standing biomass, production, 
optimum yields, natural mortality, and trophic structure.
    <bullet> LAssess how uncertainty is characterized and what kind of 
buffers against uncertainty are included in conservation and management 
actions.
    <bullet> LDevelop indices of ecosystem health as targets for 
management.
    <bullet> LDescribe available long-term monitoring data and how they 
are used.
    <bullet> LAssess the ecological, human, and institutional elements 
of the ecosystem which most significantly affect fisheries, and are 
outside Council/Department of Commerce (DOC) authority. Included should 
be a strategy to address those influences in order to achieve both FMP 
and FEP objectives.
Measures to Implement FEPs
    <bullet> LEncourage the Councils to apply ecosystem principles, 
goals, and policies to ongoing activities.
    <bullet> LProvide training to Council members and staff.
    <bullet> LPrepare guidelines for FEPs.
    <bullet> LDevelop demonstration FEPs.
    <bullet> LProvide oversight to ensure development of and compliance 
with FEPs.
    <bullet> LEnact legislation requiring FEPs.
Research Required to Support Management
    <bullet> LDetermine the ecosystem effects of fishing.
    <bullet> LMonitor trends and dynamics in marine ecosystems 
(ECOWATCH).
    <bullet> LExplore ecosystem-based approaches to governance.
    The Ecosystems Panel recognized the potential benefits of Marine 
Protected Areas, some of which could be Marine Reserves that would 
prohibit fishing. Closed area management is not new in fisheries but 
has been used rather sparingly. The concept of closed areas, with 
various restrictions on fishing, was recognized in the 1996 
reauthorization (SFA, 1996) and has been on the planning tables of 
Regional Councils in recent years. Some areas have, in fact, been 
closed to many kinds of fishing effort (e.g. parts of Georges Bank). A 
detailed study of MPAs by the NAS (2001) broadly evaluated their 
potential, including their use as a tool in fisheries management. The 
NAS Committee concluded that MPAs did have a role in fisheries 
management. In the broadest sense, setting aside areas to protect 
spawning stock can serve as buffers against the uncertainties of 
accurate stock assessments, a kind of insurance. More specifically, the 
Committee recommended that MPAs for fisheries conservation should be 
designed as parts of broader networks of MPAs that are zoned for 
permitted activities, with the networks included in a broader plan of 
coastal ocean management that considers the full spectrum of human 
activities and need to protect ecosystem structure and function. The 
NAS Committee recognized and emphasized that stakeholders (fishers) 
must be included in every stage of MPA development, from discussion of 
concept through design, and continuing into the evaluation and 
monitoring phase after implementation. The Committee did not specify 
any particular size or numbers of MPAs that would be required to 
benefit fisheries management, believing that each region or case would 
have to be considered individually. If MPAs become a significant tool 
in fisheries management, they will represent a shift in emphasis from 
traditional management measures that seek to control catch levels and 
fishing effort (amounts or types) toward an emphasis on managing the 
spatial components of ecosystems for specific benefits to fisheries and 
fish stocks. Management that includes MPAs as a tool may have 
particular benefits in meeting EFH goals, in reducing damage to unique 
habitats from fishing, in reducing bycatch of young fish, in protecting 
endangered or threatened species, and in conserving biodiversity of 
marine ecosystems.
    MPAs cannot be viewed as a stand-alone solution to fishery 
management problems. In some instances it is probable that fisheries 
benefits and values will outweigh the environmental costs attributable 
to fishing and MPAs may not be recommended from either an economic or 
environmental viewpoint. Language in the pending reauthorization of the 
SFA should address the issues of costs and benefits of not only EFH 
considerations, but also of the broader issue of establishment of MPAs. 
The urgency to do this is underscored by the Executive Order issued by 
President Clinton in May 2000 directing Federal agencies to develop 
networks of MPAs in the coastal ocean.
    The issues of data availability, collection of data, and data 
management for stock assessment and management purposes represent key 
needs for improvement that should be addressed in the reauthorized SFA. 
The NAS Committee, in its report (NAS, 2000a) developed a comprehensive 
list of detailed recommendations specifically addressed to Congress, 
NMFS, or the Councils. Many of the same concerns also were expressed in 
the Heinz Center report (Hanna et al., 2000). I hope that the NAS 
recommendations will be considered during the SFA reauthorization 
process. It seems certain that implementing the recommendations will 
require new funding. I have consolidated and summarized some of the NAS 
recommendations:
    <bullet> LCongress and NMFS. Standardize and improve fisheries data 
collection and management methods and procedures nationwide. Develop a 
Fisheries Information System. Fund these efforts.
    <bullet> LCouncils. Councils should be more proactive in 
determining needs and requesting appropriate data and models to improve 
potential for success in management. This recommendation is applicable 
to both commercial and recreational fisheries.
    <bullet> LCongress. Make commercial fisheries data more accessible 
to agencies for stock assessment scientists by amending laws relevant 
to confidentiality.
    <bullet> LNMFS. Develop more cost-effective ways to collect and 
manage data, including data collected for recreational fisheries in the 
MRFSS surveys.
    <bullet> LNMFS. Develop new data collection and stock-assessment 
methods, including those that consider ecosystem functions and 
processes, habitats, and environmental variability.
    <bullet> LNMFS. Involve stakeholders (fishers) in the data 
identification and collection processes more than at present. Better 
cooperation with stakeholders will improve quality of data. Reports of 
data analysis and assessments should be made available to stakeholders 
on a regular basis.
    <bullet> LCongress and NMFS. Insure that NOAA has a strong and 
capable fleet of research and survey vessels for fisheries data 
collection and assessment.
    <bullet> LCongress and NMFS. Increase the level of observer 
coverage on fishing vessels to improve data collection and 
interpretation.
    <bullet> LCongress, NMFS and Councils. Institute better and more 
complete monitoring and evaluation of marine ecosystems and EFH. Build 
this information into stock assessments.
    <bullet> LNMFS and Councils. Scientific review of stock assessments 
by independent scientists is important. Add stock assessment experts to 
Council staffs.
    Many of the recommendations in the bulleted statements above will 
require significant increased funding and also additional staff and 
personnel trained in quantitative fisheries science, economics, and 
sociology. At present, NMFS cannot meet its demand for stock assessment 
specialists and has too few social scientists and economists on its 
staff to effectively provide management information and advice to the 
Councils. A NAS workshop (NAS 2000b) on manpower needs in NMFS explored 
the need for such experts and made recommendations to NMFS that may 
help recruit new talent. However, it is not certain that such needs can 
be met in the short term without significant stimulation of effort and 
funding by Congress. Furthermore, the needs for stock assessment 
experts and socioeconomic experts on Council staffs and in academia (to 
train the new wave of experts) is problematic, a kind of Catch-22 since 
virtually all experts in quantitative fisheries science at the Ph.D. 
level who are U.S. citizens now take positions in NMFS, leaving a 
minuscule pool of talent for Council staffs or for academic 
institutions to recruit into faculty ranks.
    The shortage of scientists with strong quantitative skills in 
fisheries also results in a reduced pool of independent reviewers of 
stock assessments and other technical elements of FMPs. Each Council is 
required to maintain a Scientific and Statistical Committee. Included 
on SSCs is a small cadre of quantitative scientists that is burdened 
repeatedly to review stock assessments by some Councils. However, the 
eight Councils do not use the SSCs in any uniform fashion. There is a 
need to increase the pool of experts, but also to move toward 
standardizing the process by which SSCs review technical components of 
FMPs and provide advice to the Councils.
    There are many science-related issues that should be addressed in 
the reauthorization process. The problems of fisheries science and 
management, and recommendations to solve them, were superbly documented 
by Pamela Mace in her keynote address at the 2nd World Fisheries 
Congress (Mace, 1997). Mace's essay is global in scope, but most of the 
issues she addresses are relevant to U.S. fisheries. Mace (1997) 
believes that overcapacity is the single largest problem in fisheries 
management on a global basis, and that control of excess effort is 
essential to have healthy fisheries. Also, she states, I contend that, 
to date, lack of national policies and institutional failures have been 
more limiting than science, management or data. Sound national and 
international policy and effective institutions are essential for 
providing the necessary environment to foster good science, management 
and data collection programmes. I agree with that statement. Mace 
(1997) lists the inadequacies of science and management that need to be 
addressed in developing overall fisheries management programs. The 
order of presentation represents the relative magnitude of the problem 
in her view:
    <bullet> LInadequate national policies and international standards.
    <bullet> LInadequate institutions and other mechanisms for 
involving stakeholders.
    <bullet> LInadequate data and statistics.
    <bullet> LInadequate or inappropriate management goals.
    <bullet> LInadequate science.
    As the SFA reauthorization process moves forward, it is appropriate 
that these inadequacies be kept in mind and addressed. The 
reauthorization process offers an opportunity to improve the SFA and 
marine fisheries performance. I am reasonably optimistic that an 
amended SFA can be a major element in the long-term prospects for 
revitalization of U.S. fisheries.
References Cited
    FAO. 1995. Precautionary approach to fisheries. Part 1: Guidelines 
on the precautionary approach to capture fisheries and species 
introductions. FAO Fisheries Technical Paper 350/1. 52 pp.
    Hanna, S., H. Blough, R. Allen, S. Iudicello, G. Matlock and B. 
McKay. 2000. Fishing grounds. Defining a new era for American fisheries 
management. The H. John Heinz III Center for Science, Economics and the 
Environment. Island Press, Washington, D.C.
    Mace, P. M. 1997. Developing and sustaining world fisheries 
resources: the state of the science and management. Pp. 1-20. In: 
Hancock, D. A., D. C. Smith and J. P. Beumer (eds.). Developing and 
sustaining world fisheries resources. 2nd World Fisheries Congress 
Proceedings. CSIRO Publishing, Collingwood, VIC, Australia.
    NAS. 1998. Improving fish stock assessments. National Academy of 
Sciences, National Research Council. National Academy Press, 
Washington, D.C.
    NAS. 1999a. Sustaining marine fisheries. National Academy of 
Sciences, National Research Council. National Academy Press, 
Washington, D.C.
    NAS 1999b. Sharing the fish. Toward a national policy on individual 
fishing quotas. National Academy of Sciences, National Research 
Council. National Academy Press, Washington, D.C.
    NAS. 1999c. The community development quota program in Alaska and 
lessons for the Western Pacific. National Academy of Sciences, National 
Research Council. National Academy Press, Washington, D.C.
    NAS. 2000a. Improving the collection, management, and use of marine 
fisheries data. National Academy of Sciences, National Research 
Council. National Academy Press, Washington, D.C.
    NAS. 2000b. Education and training needs for fishery sciences and 
management. Workshop Report. National Academy of Sciences, National 
Research Council. Ocean Studies Board.
    NAS. 2001. Marine protected areas: tools for sustaining ocean 
ecosystems. National Academy of Sciences, National Research Council. 
National Academy Press, Washington, D.C.
    NMFS. 1999. Ecosystem-based fishery management. Ecosystem 
Principles Advisory Panel. NOAA/NMFS. 54 pp.
    Restrepo, V. R. and J. E. Powers. 1999. Precautionary control rules 
in US fisheries management: specification and performance. ICES Journal 
of Marine Science 56:846-852.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Houde.
    I will yield first to the gentleman from New Jersey for any 
questions he may have, Mr. Saxton.
    Mr. Saxton. Mr. Chairman, I have two questions, both of 
which--none of which will be a surprise to anyone in the room. 
In the purposes of the Magnuson Act, purpose number one is to 
take immediate action to conserve and manage the fisheries 
resources found on the coasts of the United States, and it goes 
on from there, but that is kind of the introductory phrase in 
purpose number one. And then, when we get over to purpose 
number six, it says to encourage the development of the United 
States fishing industry of fisheries which are currently 
underutilized or not utilized by United States fishermen.
    Let me suggest that I think that there has been 
demonstrated a conflict between those two provisions in terms 
of purposes in this act, and I think that is demonstrated to 
the detriment of commercial fishermen; to the detriment of 
recreational fishermen and to the dismay of conservationists, 
and I don't ask this question to suggest that anyone is to 
blame for this. We wrote the law, and NMFS implements it, and 
Members of this Committee observe it, and members of the 
conservation community and the fishing community comment on it.
    But the fact of the matter is that the process involving 
those two provisions of this law provided for the development 
of utilization or utilization of various fisheries around the 
coastal United States in a very distinguishing pattern. We 
encouraged the development of the ground fish fishery in New 
England, and it collapsed. We encouraged the development of the 
shark fishery in the Atlantic, and today, the shark population 
is down to an estimated 80 percent of what it was at one time.
    We encouraged the development of the redfish fishery in the 
Gulf of Mexico, and it collapsed, and then, we applauded when 
it recovered after conservation measures were taken. I am not 
as familiar with the West Coast, but my understanding is the 
same thing happened with the sea urchin fishery, and of course, 
I am very familiar with the international problems involved in 
the salmon fishery on the West Coast, all of which involve 
activities by the Congress as well as regulators, the 
Department of Commerce in particular, on all of these 
fisheries.
    And so, I guess my question is wouldn't it be a worthy goal 
for us to try to find a different way to spell out the purposes 
of this bill in such a way that we would get to the point where 
the objectives of the Sustainable Fisheries Act are carried out 
more effectively by this law and help us create a more 
comfortable situation, a more economically feasible situation 
for the commercial fishery and all of the other discomfort that 
we create unwantingly for all of us who are involved either 
from the lawmaking, regulatory or participation directly in the 
fishery.
    Dr. Hogarth, would you like to comment particularly on 
these two provisions and the purposes?
    Dr. Hogarth. Well, I think part of the problem is in the 
way we manage fisheries. Over the years, I think we have 
reacted to situations rather than proacted. And if we have a 
problem in a fishery we are not managing as a group, we switch 
the fishery from one fishery to another. We don't tailor the 
capacity to sustainability. We look for a way to transfer the 
fleet as a whole. And I think we just need to do a better job 
of tailoring capacity to the sustainability of the fishery, and 
we need to be proactive and look at how we are managing the 
group as a whole rather than snapper grouper complex. We may 
manage one species and the fishery has 80 species in it. And 
what happens is that, in my opinion, is that you do tremendous 
damage to one fishery, and then, you have to find a way to 
switch over to another fishery.
    We have put people on underutilized species, and we have 
caused an increase in effort, and that is what we hear. And as 
a Government, you told me to go fish for sharks, and now, you 
are telling me that I can't. And so, you financed us to get 
into the business; now, I feel you ought to help finance us to 
get out of the business. So I think we have to look at what our 
real goal is in fishery management in the U.S., and what do we 
want it to be 5 years from now and 10 years from now. What type 
of fishery do the citizens of this country want? And then, we 
have to bite the bullet and do what is necessary both 
recreationally and commercially.
    Mr. Saxton. Mr. Crockett?
    Mr. Crockett. I think we agree with you that there are 
cross-purposes in the act and within the agency. The 
predecessor of the National Marine Fisheries Service (NMFS) was 
the Bureau of Commercial Fisheries, and for a long time, the 
purpose of the Magnuson Act was to promote U.S. fishing. It was 
to phase out foreign fishing and promote U.S. fishing. There 
were a number of programs, for example, loan guarantee programs 
and other sorts of subsidies, programs to identify 
underutilized species and promote them, designed to promote 
U.S. fishing.
    The SFA, for the first time, shifted that focus from one of 
promoting fishing to conserving fish. That has been a painful 
transition, and we think it needs to continue forwards. Perhaps 
changing the purpose of the law will help. The fact of the 
matter is that if you don't have fish, you don't have 
fishermen. So we think you need to put fish first; conserve 
fish so there are fish for fishermen to catch. It is as simple 
as that.
    Mr. Saxton. Thank you. I am sorry. I wish I could--I am 
going to have to leave at this vote, and I won't be able to 
return. So let me just get my second question on the record. I 
guess it is Section 97-453 of the act, Section 303(b) has a 
section entitled discretionary provisions which are 
essentially, the way I interpret it, tools that may be used to 
help to carry out a fishery management plan. One is to require 
permits, not to require permits but the council or the 
Secretary may require permits; may designate zones where and 
periods when fishing may be limited; three is to establish 
specific limitations where necessary; four is to permit limit 
condition or require the use of specified types and quantities 
of fishing gear. Five is to incorporate, consistent with the 
national standards and other provisions of this act and any 
other applicable law the relevant fishery conservation and 
management measures of the coastal United States nearest to the 
fishery and so on.
    Seems to me that that is a lengthy list, and I won't go on. 
It goes through 12 tools that can be used to help adequately 
manage a fishery. And yet, in respect to the highly migratory 
species fishery, the population levels continue to be down an 
estimated 70 percent for some species such as marlin; higher 
levels, still in the seventies, for species such as sailfish; 
up in the 80 percent for coastal sharks, and yet, NMFS has 
these tools to use, and it is hard for me to understand why 
NMFS has heretofore been hesitant, to be kind, to use these 
tools to provide for the necessary regulations to help bring 
these fisheries back.
    Now, I know there have been some steps taken. I am very 
familiar with the South Atlantic and the Gulf closures, but 
yet, most of the scientists if not all of the scientists that I 
have talked to do not believe that the measures that we have 
taken heretofore are sufficient to provide for the Americans' 
share of the rebuilding of these species. Can you give me some 
guidance?
    Dr. Hogarth. Congressman, one of the real problems with 
managing highly migratory species is that basically, the U.S. 
is such a small player in the management of all of the highly 
migratory stocks. You look at that industry, it has probably 
less than 5 percent of the impact on most of these species. We 
have to manage it through the international arena, particularly 
through the ICCAT, International Convention for the 
Conservation of Atlantic Tunas.
    Mr. Saxton. Excuse me; did you do the closures through the 
international arena?
    Dr. Hogarth. No, what I am saying is that whatever we do in 
this country makes a small dent in what happens overall.
    Mr. Saxton. That is right; the United States is 5 percent 
of the world's population, and my understanding is that we 
catch 5 percent of the fish.
    Dr. Hogarth. But when you have countries that are ignoring 
the quotas that are set through the international arena, they 
exceed their quota by 100 times sometimes. And what I am saying 
is the impact from foreign countries is much greater than the 
impact of the U.S. We could shut an entire fishery down and 
have little impact on some of these species, and that is the 
problem. Even though we have closures and size limits, and this 
year, we will have 250 marlin, for example, that we can kill 
totally, there are severe restrictions.
    But unless we can get international cooperation, we have a 
tough time.
    Mr. Saxton. I understand that we have a tough time, and I 
appreciate that, but the first provision in the purposes of the 
Magnuson Act is to conserve species.
    Dr. Hogarth. That is correct.
    Mr. Saxton. And yet, these species are down the percentages 
that I indicated unless you disagree with that, and yet, we 
don't seem to be taking any steps to alleviate those problems.
    Dr. Hogarth. Well, I think the question is we are trying 
to, but through the international arena is where we are not 
getting the cooperation. And we, as the U.S., yes, white marlin 
is 18 percent of its optimal yield. Blue marlin is about 29 
percent. We are extremely concerned about white marlin, you 
know, whether we can bring it back? And what we have got to do 
is get countries like Spain, Japan, Honduras and these other 
countries, Honduras that fish on these species to practice 
conservation as well as we are.
    We are trying to do that through compliance. We are trying 
to do that through embargoes, but that is a tough issue.
    Mr. Gilchrest. Dr. Hogarth, we are going to have to 
continue this when we come back from the vote.
    Dr. Hogarth. Okay.
    Mr. Gilchrest. Because we are down to about 4 minutes now. 
I am going to race Mr. Saxton over there and see who wins.
    [Laughter.]
    Mr. Gilchrest. And I apologize, because it is probable that 
we won't be back here for a half an hour because there are 
three votes. Is there anybody who can't wait until 3:30? Okay; 
we will have a half-hour recess.
    [Recess.]
    Mr. Gilchrest. Welcome back. I appreciate your patience. It 
was a little bit longer than we thought, but we will try to--I 
don't know how long this is going to go. I know that statement 
scares you a little bit, but let us say certainly no later than 
5.
    I would like to start with, I guess, Mr. LeBlanc and 
Mister, I think, Gilford. My train of thought has been 
interrupted, so I am going to try to get it back. We have 
discussed a number of things dealing with essential fish 
habitat, ecosystem management and things of that nature. A very 
small section of the Chesapeake Bay, although a beautiful 
estuary, tidal estuary, known as the Sassafras River a few 
years ago was potentially going to be developed with about 600 
houses on about 1,000 acres, and it was a fishing area for 
mostly catfish but a significant number of rockfish.
    An area similar to that some miles south was developed, and 
the fishing in that region pretty much disappeared. This area 
with 1,000 acres was put into a conservation easement and a 
number of other things were done to protect the shoreline. And 
there was a plan pretty much developed by the Department of 
Natural Resources for Maryland with the Department of 
Agriculture to create a better habitat for the fish and for the 
wildlife on the land.
    Well, to make a long story short, as a result of that 
conservation plan, with an understanding of what the ecosystem 
might be like or should be, there are a lot more catfish there, 
and rockfish are now spawning where they didn't spawn before--
in some of the tidal ponds adjacent to that estuary. So I 
mentioned that to somebody recently, and they said that 
anecdotal stories are good, but they don't tell the whole 
picture, upon which my reply was I have observed that little 
area there for more than 20 years. Part of the scientific 
method is observation, so the observation of that small area--
if you put everything together, it was about 1,500 acres--was 
that you can restore someplace to its natural habitat; have 
conservation; have management, and the end result is more fish.
    So I guess the question is--and this is a question posed 
because I would like your honest perspective on it so we can 
mix it with other opinions dealing with the essential fish 
habitat. What do you see as the problems with the way it is 
dealt with by NMFS, the way the provisions are put into the 
Magnuson Act, and how would you like to see them changed?
    Mr. LeBlanc?
    Mr. LeBlanc. Thank you, Mr. Chairman. I think that your 
example of this situation with the Sassafras River is a classic 
example of what NMFS has tried to address with their habitat 
areas of particular concern. You have got concrete evidence 
that this is a discrete unit of habitat that is sort of 
definable in space that makes an important contribution to 
fisheries productivity, and there are activities that threaten 
the viability of that habitat, and you can use the EFH 
provisions and the consultation process that the agency is 
required to go through to attempt to prevent the degradation of 
that kind of habitat, and I think with regard to the impacts of 
fishing activities that that is the appropriate scope is in 
those kinds of areas, habitat areas of particular concern.
    From a commercial seafood industry's perspective, the way 
the councils and the agency have defined essential fish habitat 
is so broad that essentially the entire exclusive economic zone 
has been defined in one way, shape or form as essential fish 
habitat, and that spreads out the effort to the point that you 
can't implement effective measures other than to shut down all 
fishing in the EEZ, which I don't believe is the intent of the 
act.
    We have not seen the councils move that kind of activity 
under the EFH provision, but the potential is certainly there, 
and of course, in the absence of taking that action, the threat 
of lawsuits for the failure to protect EFH as defined as the 
entire EEZ is a looming threat that greatly concerns us.
    Mr. Gilchrest. Dr. Hogarth, can you respond to Mr. 
LeBlanc's concerns?
    Dr. Hogarth. It is no doubt that the essential fish habitat 
is pretty extensive, but what you are dealing with is over 700 
species of fish that we are managing, and you are dealing with 
two to four life stages of each species. And so, you do have 
somewhat of an overlap when you look at species; if you put a 
mosaic, you have got quite a bit. But they have different 
ecological requirements, and so, essential fish habitat for 
croaker is somewhat different from, say, spot, but they both 
utilize it.
    If we look at it, the essential fish habitat for most 
species, is now probably about 50 to 70 percent of the habitat, 
but it is not all bottom. Some of it is water surface. But it 
is pretty extensive. Now, what we are trying to do is to refine 
that. We have an interim rule out now on essential fish 
habitat, and we have had many hearings in 270 days of public 
comment period, and have received lots of comments.
    And so, now, we are trying to work with the councils and 
refine it. That final rule will probably be out sometime in the 
next couple months, we hope, but we are trying to refine it and 
to then take a look at for example, what kind of activities 
affect the various types of bottom habitat. But essential fish 
habitat is really the essential areas, as it says, to support 
these fish populations. You have to protect spawning areas, and 
you may have a different area for the juveniles and different 
life stages.
    So when you have 700 species, two to four life stages and 
the different--
    Mr. Gilchrest. I see. It is pretty complex.
    Dr. Hogarth. It is pretty complex.
    Mr. Gilchrest. Dr. Gilford, you mention in your testimony 
that you would like to modify the definition of essential fish 
habitat. How would you like to modify it?
    Mr. Gilford. I don't think it is so much a question of 
modifying it as making it a little bit more definite. What is 
it we are trying to accomplish with the essential fish habitat? 
And what the councils--
    Mr. Gilchrest. Could I stop you there just for a second? 
And I am not going to be too long, Walter. I know you have some 
questions. Could you respond just to that part of the 
statement, Dr. Hogarth, what do you want to accomplish with 
essential fish habitat?
    Dr. Hogarth. We want to determine the areas that are, like 
I said, essential to the growth and reproduction of the marine 
species that we are trying to manage. I think that is what we 
are trying to protect. Some, we do know are more sensitive than 
others, such as coral reefs and some others that are more 
sensitive, so they are the habitat areas of particular concern 
that takes EFH a step further.
    Mr. Gilchrest. I see.
    I am sorry, Dr. Gilford. I didn't mean to interrupt you.
    Mr. Gilford. What the council chairs were concerned about 
was having a more definitive set of guidelines to help them 
designate, define and designate essential fish habitat, and 
that was basically the essence of the comment I was making. 
Certainly, we recognize there is a need for a habitat for 
spawning; that spawning grounds are necessary; that there is 
habitat for nursery areas; that there is habitat for the 
movement back and forth for migration, but when you are looking 
at such a tremendous area, without some more firm guidance as 
to what is anticipated and expected, it is difficult for the 
councils basically to respond.
    There is no question that the issues that have been raised 
before, I find it hard to believe that water is not an 
essential fish habitat; they don't do very well out of water.
    [Laughter.]
    Mr. Gilford. And so, you know, consequently, to run that 
kind of wide, broad opportunity to interpret, and what the 
councils were looking for was a tighter set of guidelines so 
that they could direct their efforts to accomplish what the 
legislation really intended to get at.
    Mr. Gilchrest. Thank you, Dr. Gilford.
    I yield to Mr. Jones for any questions he might have.
    Mr. Jones. Mr. Chairman, thank you, and I just have two or 
three, and I first of all want to thank you for your 
leadership. You have certainly been one of those in the 
Congress for the years that I have been here, which is 
beginning the seventh year; you have certainly been a leader on 
this issue, and I want to thank you personally and in front of 
this group today.
    Dr. Hogarth, tell me what year you were director in North 
Carolina. I was looking at your resume, and I know they were 
exciting times for you, and I just want to remember the year.
    [Laughter.]
    Dr. Hogarth. 1986 to 1994.
    Mr. Jones. Okay; I mention that because obviously, being 
from North Carolina, and I truly thought you did a great job. 
You were under a lot of political heat, and I think you handled 
it very well, and you did what you thought was right for the 
stock. So I want to compliment you at this time as I did the 
Chairman.
    What I would like to ask, you know my district well, and 
you know that commercial as well as recreational fishing is 
extremely important to the Third District of North Carolina. 
And it seems like every so often, like dealing with the striped 
bass, which I think is a great success story about how the 
stocks have come back, but I wonder, because questions are 
asked of me: when the stocks reach the quota that you have 
established to make sure that the stocks will be protected for 
years ahead, why the fishermen seem to always have to be 
challenging National Marine Fisheries as to when you are going 
to open it back up.
    For example, and please correct me if I am wrong, but I 
understand that striped bass can be fished in the state waters, 
but they cannot be fished in the Federal waters; is that 
correct?
    Dr. Hogarth. That is correct.
    Mr. Jones. Would you tell me why it is that way?
    Dr. Hogarth. Okay; first of all, thank you for your kind 
comments. North Carolina was an interesting place. Still is.
    [Laughter.]
    Dr. Hogarth. I enjoyed almost 9 years there.
    Probably the striped bass is a success story, and it was 
done not under the Magnuson, but it was done under the Atlantic 
Striped Bass Conservation Act, and basically, the lead for that 
was the Atlantic States Marine Fisheries Commission (ASMFC), 
and it has been the lead for recovery. When doing the recovery, 
we were asked to close the exclusive economy zone (EEZ) as part 
of the management, because there were different management 
schemes from state to state, and it was very difficult to 
enforce or to manage having the EEZ open.
    To be honest with you, as I have always tried to be honest, 
we did try to open the EEZ when I first came up here in 1994 or 
1995, and pretty much, we were told by Congress if you open it, 
we will close it. I think it has pretty much been left where it 
is right now, to be honest with you. And it is somewhat because 
there are a lot of the large fish, a lot of your bigger 
spawners offshore, and it is very difficult when the states are 
managing with different size limits from state to state, and 
different seasons. It is very difficult to enforce when you 
have got the EEZ open, where size limits are something 
different.
    One way to do that, I think, is to let the states manage it 
totally from a landing law and if the EEZ is open, they could 
have a landing law; we would not be involved. It is an issue 
that I think could be looked at. We are not opposed to how you 
manage striped bass. I mean, we will cooperate with the ASMFC 
and manage it.
    Mr. Jones. Would you suggest to this Committee that in the 
rewrite, they look for a legislative fix to this dilemma?
    Dr. Hogarth. Congressman, I hate to see Congress manage 
fisheries. I think we should do the job, and I think it is 
probably up to us to get with the ASMFC and put this on the 
agenda, and, if we need to have scoping meetings or public 
hearings, look at the issue up and down the coast to find out 
what is the will of the people. I really think we could do 
that. But if you want to legislate it, we will carry it out.
    Mr. Jones. No, I would rather not have more laws, but let 
me also--did you not recently, the National Marine Fisheries 
Service, reach some satisfactory conclusion to the issue 
dealing with summer flounder? I think there was a lawsuit filed 
over that issue.
    Dr. Hogarth. Yes, sir. Yesterday, we had a meeting with the 
plaintiffs in the lawsuit and with the Atlantic States Marine 
Fisheries Commission, and we now have reached agreement. The 
plaintiffs are dropping the lawsuit. We have a comparable 
regulation from the council to the ASMFC. We are setting up 
through the Heinz Center here in this area a facilitative 
process to look further at how to manage summer flounder, 
particularly when you have a joint plan with the ASMFC, which 
is the only commission that has regulatory authority through 
the Atlantic Coastal Act and then the councils.
    There are some differences of standards and guidelines that 
have to be met, but we are going to get together and bring the 
recreational, commercial and environmental groups to the ASMFC 
and the Federal people in a facilitated hearing as quickly as 
we can do it to look at the process to prevent this from 
happening again.
    Mr. Jones. You are a brave person.
    Dr. Hogarth. We can do it.
    Mr. Jones. Mr. Chairman, I know my time is up. I want to 
ask one more question.
    Dr. Hogarth, why do you feel that there has been such a 
proliferation of lawsuits since the Sustainable Fisheries Act 
passed? You know, I have been on several--I was on the Small 
Business Committee at one time up here and then on the 
Resources Committee the 7 years I have been here, and I realize 
the responsibilities that you and others at this panel have, 
but it seems like too many times--and I appreciate what you 
said just a moment ago about the resolution to the lawsuit 
dealing with the summer flounder, but it seems like too many 
times that the only way there is a resolution is because 
somebody has filed a lawsuit, and that costs a lot of money.
    And I am always concerned, whether it be an environmental 
group or a commercial fishing group; it does not matter whether 
they are liberal or conservative, whatever, that to get a 
resolution that I feel should be able to be worked out without 
a lawsuit between the agencies and the people or the agencies 
and the group. And when I think about the number of lawsuits, I 
think my staff has told me that approximately 110 current cases 
since the Sustainable Fisheries Act passed, and I just think 
that might indicate that maybe there is not that willingness 
when you can work out a satisfactory solution--sometimes, you 
cannot, because you have got to enforce the law as you see it.
    Dr. Hogarth. Congressman, I think the reason for the 
lawsuits is somewhat complex, but I think it is not just the 
Sustainable Fisheries Act. I think one of the biggest ones 
right now is the Endangered Species Act. What has happened now, 
I think there are people who would like to see things done or 
things protected to a large extent. There are others who think 
we have done too much, and I think what has happened in this 
process is it is very easy to get a judge to listen to these 
types of cases when you have not done enough to protect sea 
turtles, or the flip side if you do a biological opinion, and 
you say you have got to shut down the swordfish fishery; you 
have the commercial industry that, has a great impact, and so, 
you get lawsuits.
    I do not know how we stop that from the Endangered Species 
Act standpoint. Regulatory effects have caused some problems. 
The Magnuson-Stevens Act, I think, has about 34 lawsuits. 
Concerning the Marine Mammal Protection Act, there are some 
things in there that we get lawsuits on, such as the impact on 
right whales. Also, we have porpoises in Florida that people 
are feeding, and we have had children bitten, so you have to 
enforce that.
    So I think it is a sign of the times, but I do think we 
have to try to figure a way to negotiate when we get some of 
these lawsuits and see if we can settle them. It is tough. It 
costs us a lot of money as an agency. It costs a lot of time, 
and I am not sure that it is helping to rebuild fish population 
or even the endangered species.
    I am firmly convinced that we are making progress right now 
rebuilding fisheries, but we are getting tied up in knots with 
the Endangered Species Act, particularly with Pacific sea 
turtles and East Coast sea turtles. In the next two to 3 years, 
in my opinion, this is going to be a major issue, but when you 
get your largest fishery in the world shut down for stellar sea 
lions and the whole State of Hawaii shut down for sea turtles, 
it just brings about lawsuits. I don't know how you stop that.
    Mr. Jones. I don't either, and I guess that there are many 
of us in the Congress on both sides of the political fence that 
would like to see a rewrite of the Endangered Species Act and 
use more of sound science, so to speak, as it deals with some 
of the species that maybe at one time were endangered but now 
are not, and in my district and throughout the south, the 
piping plover has created a lot of interest and, in many cases, 
a lot of problems for the citizen, but Mr. Chairman, with that, 
I have got two or three other questions I would like to submit, 
and if they could--Dr. Gilford and Dr. Hogarth could answer, I 
would appreciate it at that time.
    Mr. Gilchrest. Do you want to ask some more questions?
    Mr. Jones. I have got to go to an MWR, Morale, Welfare and 
Recreation panel hearing.
    Mr. Gilchrest. Oh, do you want to ask your questions now, 
Walter, or do you want to submit them for the record?
    Mr. Jones. I am just going to submit them if that is okay.
    Mr. Gilchrest. That is fine, Walter.
    Mr. Jones. Thank you.
    Mr. Gilchrest. And I appreciate the gentleman from North 
Carolina coming, and we have piping plovers in Maryland also, 
and we are trying to protect those little critters as you are 
also. And we will submit those questions for the record, Mr. 
Jones, and try to get some answers back as quick as we can.
    I just have a few more questions. I would like to continue 
on the line of thinking of essential fish habitat and ask Dr. 
Houde if you would comment on your perspective of the need to 
establish some type of--whether it is a definition or a 
guideline--for essential fish habitat that would be useful for 
a council to implement. And do you see any connection between 
the concept of essential fish habitat and marine protected 
areas?
    Mr. Houde. Yes; thank you, Mr. Chairman. I go back to your 
earlier comment about the area that you are familiar with on 
the Chesapeake Bay, and you noted that taking the right 
measures to protect the shoreline and to protect the estuary 
from development resulted in higher fish productivity and 
better fishing. If we go into freshwater habitats, I think we 
find it even easier to define those particular areas that are 
critical for particular life activities of fishes.
    As we move out onto the continental shelf, where the SFA is 
applied in the economic zone, 3 to 200 miles, it becomes 
increasingly more difficult to define what areas are critical 
to species. Species have larger ranges. They can use more 
habitat. There are areas that are preferred over others, but 
these species can adapt, in many cases, to a wide range of 
habitats.
    Nevertheless, there are some areas, particularly hard 
bottom areas, coral reef areas, the kinds of areas that are 
required as nurseries, for instance, for young groundfish that 
can be identified. I think specific guidelines could be written 
into the SFA or documents that would support it that would 
define particular kinds of habitats for particular species 
groups that are related to important life activities like the 
spawning habitats that are required; nursery habitats that are 
required; that this probably could be done; probably would be 
desirable.
    As I have read the SFA, I don't think that there are any 
prescribed actions associated with the EFH right now, and that, 
to me, is where there has been a lack of attention. I think 
that some of the councils and the NMFS staff have put together 
some quite good comprehensive documents that define habitat for 
particular species or species groups or in a generic way in 
this, but they don't seem to lead to any actions. They don't 
have any prescriptions to do anything.
    I am sorry, sir?
    Mr. Gilchrest. No, go ahead.
    Mr. Houde. I was going to say something about MPAs. I think 
that marine protected areas, you know, can be set up for a 
variety of reasons. Some that we addressed in our study were 
related more to protecting marine biodiversity; to protecting 
unique features and habitats in the sea, but certainly, to 
promote fishing was one of the big reasons that one would want 
to establish MPAs, and there were a few aspects of setting up 
MPAs that would seem to be particularly effective to link them 
to essential fish habitat, and these are to identify those 
areas that are nursery areas for fish, areas where you could 
protect young fish and clearly show that you would protect fish 
when they are growing fast to give bigger yields and to promote 
and restore fisheries; that this would be one kind of linkage 
between essential fish habitat and setting up MPAs that should 
be, I think, very effective in many cases.
    Areas where you would want to protect spawning stock 
biomass for those fishes that are very much overfished; for 
sedentary fishes, those that tend to be long-lived like Pacific 
rockfishes, defining essential fish habitat and creating MPAs 
perhaps in networks, but in the case of rockfishes, there are 
some 60 or 80 species of them. No one protected area or small, 
defined habitat is going to protect them all. It would have to 
be a network that was constructed; could be effective.
    Mr. Gilchrest. Dr. Houde, if I could just interrupt for a 
second, and then, I want to come back to you: Dr. Gilford, you 
mentioned in your proposed reforms or changes for the councils 
to modify or to come up with some specific guidance for 
essential fish habitat. Do you think there is enough 
information? Does the Mid-Atlantic Council have access to the 
kind of information that could establish nursery areas, 
spawning stock biomass areas that are overfished in 
coordination with a marine protected area and understanding the 
concept of essential fish habitat? Does the council have access 
to that kind of information where you could then--the council 
itself could define, or maybe they have defined, what is 
essential fish habitat and then what might be a useful marine 
protected area?
    Mr. Gilford. The basic problem with the essential fish 
habitat from my point of view--I can't speak for all of the 
council chairmen, because I am sure they have different 
concerns--the major concern that the council chairmen had was 
some clear guidelines, some tighter guidelines as to what was 
to constitute essential fish habitat. From my perspective, the 
problem that I see with it is the interpretation of the data 
that is available to us.
    Let us take nursery areas. Do we identify each nursery area 
as essential fish habitat? And then, having done that, what is 
it we are going to do with that? Now, there is no question that 
that is an advantage to us. Our council has used information of 
that type in working with the Corps of Engineers in the 
Chesapeake Bay to prevent the permitting of a pier and dock 
that was going to be put right in an area which was an 
essential nursery area.
    Mr. Gilchrest. Where was that?
    Mr. Gilford. In the Chesapeake Bay, near the--I don't 
recall exactly which location it was, but it was in the 
Chesapeake Bay. The problem that we have is that you have data 
that is incomplete. How do you use it? How do you interpret it? 
Do you interpret it in a risk-averse fashion, or do you say we 
won't do anything with that until we have more information?
    So we were looking for guidelines to tell us to what extent 
we would pursue identifying and defining areas as being 
essential fish habitat. It is a question of trying to satisfy 
the intent of the legislation and to satisfy the interpretation 
that the National Marine Fisheries Service put on that 
legislation. It is not a problem of being concerned about 
essential fish habitat. That is almost, if you excuse the 
expression, a no-brainer. But yes, the essential fish habitat 
is just that: it is essential. The fish have to have certain 
requirements for growth, spawning, breeding, migration.
    The issue comes down to is every piece of aquatic habitat 
that is used for spawning and breeding and growing, maturing 
and feeding, going to be identified as essential fish habitat, 
and what are we going to do with that essential fish habitat, 
having identified it as such?
    Mr. Gilchrest. Well, Dr. Gilford, would you like to see the 
Congress set specific essential fish habitat guidelines in the 
reauthorization, or would you like to see us give direction to 
Dr. Hogarth to establish specific guidelines?
    Mr. Gilford. I think that my preference would be to see 
specific guidance given to the National Marine Fisheries 
Service to establish that, yes.
    Mr. Gilchrest. Mr. Crockett?
    Mr. Crockett. Thank you, Mr. Chairman. I think you know in 
a past life I worked for NMFS on an essential fish habitat. I 
helped draft the regulations. And one of the things that we 
found during that process was that there isn't a great deal of 
knowledge on the habitat requirements of many of these fish 
species. Dr. Hogarth mentioned how many there are and how many 
life stages there are. There also isn't a great deal of data, 
especially on the locations of the habitat when you get in 
Federal waters.
    And so, what we tried to do was provide councils with 
flexibility that recognized that there was lots of different 
species with different habitat requirements in different areas. 
We tried to provide guidance that was flexible enough to allow 
the identification for all of those species, given the fact 
that there isn't great data out there. And what the councils 
chose to do was to use it in a precautionary manner.
    I will give you an example. In Dr. Gilford's council, that 
council was provided information from the Northeast Fisheries 
Science Center that would have enabled them to identify only 50 
percent of the habitat for many of these managed species as 
essential habitat. They are fortunate in that they were in one 
of the locations in the country where there is a long data set 
from the Northeast Fisheries Science Center.
    That council had alternatives: 50 percent, 75 percent and 
90 percent, and it chose to identify 90 percent of the habitat 
as essential. I find it kind of interesting now that the 
council chairs are asking for further guidance when they had 
opportunities initially to identify much narrower areas as 
essential fish habitat. I will give you another example on the 
West Coast. That council was provided with a recommendation by 
the National Marine Fisheries Service that salmon EFH shouldn't 
extend past 60 kilometers offshore, which is about 37 miles. 
The council decided to identify salmon EFH all the way out to 
the boundaries of the EEZ.
    So again, another example where they chose to identify 
broader areas.
    Mr. Gilchrest. Are you saying the council had the option to 
identify a much more narrow scope--
    Mr. Crockett. Yes.
    Mr. Gilchrest. --of essential fish habitat.
    Mr. Crockett. And they chose to identify it in a broader 
manner, because as I understand their concerns, and my 
organization feels this is appropriate because habitat 
alterations are often irreversible. If you build a dock, or you 
build a breakwater, or you destroy a coral reef or something 
like that, it is going to be very difficult if not impossible 
to reverse that alteration.
    And so, we think it is appropriate to be cautious. In my 
view, what the councils did by identifying broader areas 
initially was that they were being precautionary. How do you 
decide which of all the spawning habitat you can sacrifice? I 
would attest that you cannot make that decision right now, so 
the appropriate move is to be precautionary; identify a larger 
area and then narrow it over time, as the data becomes 
available. That is what the NMFS guidelines allow for.
    Mr. Gilchrest. Dr. Gilford?
    Mr. Gilford. Well, there is no question we were encouraged 
to use a precautionary approach, and I don't have a problem 
with the precautionary approach within reason. I think that the 
thing that was a problem to us was we were virtually living--in 
submitting our material to the service for approval were 
virtually living in a situation where we will know it when we 
see it. No one had a feeling for really what was the 
appropriate, adequate, reasonable amount to do. And yes, people 
did go, and they were urged to interpret the data in a 
precautionary fashion.
    So consequently, you had a lot of habitat labeled as 
essential fish habitat which, in fact, may not be essential 
fish habitat. Admittedly, we had a great deal of help in our 
council through the service and through the lab in New Jersey 
to identify essential fish habitat based upon data that was 
available to us. But when it comes right down to it, you may 
have a tremendous amount of data out there, of habitat out 
there labeled essential fish habitat which, in fact, may not be 
that, and at some point in time, that may come back to help 
you.
    Mr. Gilchrest. I just have one more question, and then, I 
will yield to the gentleman from Guam.
    I'll have some other questions after the gentleman from 
Guam is done, but Dr. Hogarth, do you see the nature of the 
disagreement about essential fish habitat, and do you feel that 
there needs to be more--do you feel that the language in the 
SFA is sufficient, or do you see the need for more specific 
guidance on this issue to the councils?
    Dr. Hogarth. I think we see a need for more specific advice 
to the councils, and we are in the process of doing that. This 
has been a very controversial issue, and right now, with the 
new Administration, we do not have all of the people in place, 
and I think until we get NOAA people in place, I am not sure 
you will see additional guidance. It is a controversial issue, 
and I think it needs to be aired. I think the agency has 
discussed it, and we know that further guidance needs to be 
done.
    And I do think one thing: it was easy, when you said 
essential fish habitat, and it had no regulation attached with 
it. I think it was somewhat easier to designate expanded areas, 
so to speak. Now, we are initiating studies to look at the gear 
effects, for example, does a long line have effect on a various 
habitat? Does a trawler have effects?
    And we are trying to now look at specific effects of gear 
on various types of habitat. Once some of that work is done, I 
think you will be able to refine some of your essential fish 
habitat issues. So I think we are capable of doing it, and I 
think it is up to us to give further guidance to the councils 
and work with them.
    Mr. Gilchrest. Thank you, Dr. Hogarth.
    I yield now to Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman.
    I have a list of 15 questions, but I know it has been a 
long day, so I will just enter them for the record.
    Mr. Gilchrest. All right; is that it?
    Mr. Underwood. That is it.
    Mr. Gilchrest. You are easier than I am.
    I just have--well, I was going to sit back for a few 
minutes. Now, I wasn't able to ponder, Mr. Underwood.
    [Laughter.]
    Mr. Underwood. Well, let us ponder together.
    Mr. Gilchrest. All right; we will ponder together.
    Let's turn to marine protected areas, Dr. Houde. In a 
recent study that you were participating in with the National 
Research Council, the suggestion was made to protect 20 percent 
of the potential fishing areas; providing worthwhile reference 
point for future consideration and emphasizing the importance 
of greatly expanding the areas currently protected. Can you 
tell us how you arrived at protecting 20 percent as opposed to 
30 or 15? Is that a specific scientific calculation?
    Mr. Houde. You know, we discussed that 20 percent figure a 
lot. It is one that is seen in a lot of literature on marine 
protected areas as a number that has a bit of support in this 
scientific literature, perhaps more historically than at 
present. And for the record, our Committee did not recommend 
it. We talk about it in the text as being a number that is 
frequently mentioned, but we say that marine protected areas, 
that each area has to be considered on its own merits and needs 
and that some areas much smaller than 20 percent in some 
ecosystems would probably be effective; in some ecosystems, 
maybe more than 20 percent.
    The history of it is that it comes from a conference that 
was held about 1990 by some fishery scientists. At that time, 
we thought that if you could protect 20 percent of the so-
called virgin spawning stock biomass of a species that this 
would be protective of the future reproductive capacity of the 
stock, and the reasoning was that for those fish that don't 
move much as adults, that on average, by setting aside 20 
percent of the area that the fish lived in that you would 
protect 20 percent of the spawning stock biomass.
    That might be effective for some fish like coral reef 
fishes; those that are associated with hard bottom, but it 
might not be effective for others. Subsequently, we also know 
that the 20 percent protection figure for spawning stock 
biomass is not necessarily correct or right for many species. 
It could be more or less.
    Mr. Gilchrest. Could you identify species that the 20 
percent figure would be beneficial to, and then, identify those 
areas where the species that benefit from it--for instance, the 
areas that are their spawning areas that could be set aside? I 
guess can you identify where that 20 percent figure would apply 
in the coastal areas?
    Mr. Houde. I don't know that I could personally, but I 
think there are people who for particular fishes--again, I will 
cite the example of Pacific rockfishes--who could do this. I 
think that the 20 percent figure for Pacific rockfishes, if you 
were using the spawning stock biomass criteria might not be 
high enough. For some of your relatively short-lived fishes, 
things like the croakers and spot and things that Dr. Hogarth 
mentioned, protecting 20 percent of the spawning stock biomass 
probably certainly would be sufficient.
    For some crustacean fisheries like the shrimp that Mr. 
LeBlanc mentioned, protecting an even smaller part of the 
spawning stock biomass would be sufficient. So fish with short 
lives and high fecundities, you can conserve with relatively 
small areas to conserve spawning stock biomass. For those that 
are like cod and haddock that are in trouble, the 20 percent 
might in fact be low. We might want to think of 30 percent or 
40 percent if you were going to just use a protected area to 
manage this stock.
    But I don't think using protected areas alone is the way 
one would want to manage these stocks. You have to use all of 
the other tools that fishery scientists and managers have 
developed to control fishing effort and fishing mortality and 
to set the quotas and things that we normally do.
    Mr. Gilchrest. Dr. Hogarth, how many marine protected areas 
are there now?
    Dr. Hogarth. Congressman, that is one of the things we are 
trying to look at overall, because, you know, the sanctuary 
program has sanctuaries in some refuges that the Department of 
Interior has. As far as marine protected areas (MPAs), as far 
as the council process and NMFS, we have about 37 or so that 
have been designated for various purposes across the country, 
and these are, like I said, maybe to protect spawning or--
    Mr. Gilchrest. So each individual council establishes its 
own marine protected areas?
    Dr. Hogarth. Yes, sir. So far, we have used it for about 20 
or 25 years. It has been a process that we have used as one of 
the tools, a very effective tool.
    Mr. Gilchrest. Do they remain protected once designated, or 
does that designation change?
    Dr. Hogarth. Some of them have changed, and some of them 
are put in place for a specific time frame. They may not be all 
year or forever. They may be for a spawning season like the 
Gulf gag grouper was closed, the entire Gulf of Mexico was 
closed for 1 month to protect the spawnings of gag. We have 
time area closures. We have 228 acres in the Gulf that is set 
aside for the snapper grouper.
    Mr. Gilchrest. 228 acres?
    Dr. Hogarth. Square miles; I am sorry, 228 square miles.
    Mr. Gilchrest. I was going to say; that is not a real big--
228 square acres.
    Dr. Hogarth. That was set aside with a sunset clause of, I 
think, 5 years to take a look at how effective it is. We are 
doing work on the effectiveness of marine protected areas. We 
have even used some areas that have been set aside for military 
purposes to look at what has happened there and compare that to 
other areas that you have activity. Marine protected areas are 
not new, and it is a very effective tool, and we feel like it 
is one we need to have in the fishery management area.
    Mr. Gilchrest. Thank you.
    Do you have a question, Robert?
    I would like to ask a general question and get a relatively 
short answer from each witness if that is okay. The Magnuson 
Act deals with a myriad of things, and what I would like to do 
now is see if I can get some prioritization as to what, as you 
see it, some of the major problems are. And I guess we can 
start from Mr. LeBlanc and work our way from left to right: 
overfishing, overcapitalization, insufficient data, 
inappropriate management structures, ecosystem impacts of 
fishing. I will just read those one more time. Pick out two or 
three that you think are the major problems that need most 
attention: overfishing, overcapitalization, insufficient data, 
inappropriate management structures, ecosystem impacts of 
fishing. Which one of those areas would you like to see the 
Subcommittee spend more time on over the next five or 6 weeks?
    Mr. LeBlanc. Thank you, Mr. Chairman. That is always a 
challenging question when the list has got legitimate issues 
across the board that I think ultimately need to be addressed. 
I think from the list you just presented, one of the most 
important things I think we need to address is overfishing and 
rebuilding programs and our concepts of what constitutes an 
overfished fishery and what constitutes a legitimate rebuilding 
program.
    We are beginning to increase our understanding of the 
relationship between fisheries and ecosystems and environmental 
conditions, and in many cases, we are attempting to rebuild 
fisheries to levels that may not be achievable. There are 
rebuilding programs that have been implemented, for example, in 
the scup fishery in the Mid-Atlantic region. The rebuilding 
target is extremely high. There is 30-year relative abundancy 
data on scup, and over that 30-year average, the average 
relative abundance has been about three-quarters of a kilogram 
per tow on a relative abundance index, and the rebuilding 
program is 2.27 kilograms per tow. It is three times higher 
than the long-term average.
    Mr. Gilchrest. Now, when you say long-term average, what is 
the--
    Mr. LeBlanc. Thirty years. The data runs from 1969 to 1998, 
I believe. If you take the average relative abundance over that 
30-year span for scup, it is about 0.78, and there are 3 years 
right after the passage of the Fishery Conservation and 
Management Act, the years 1977, 1978 and 1979, the average of 
those 3 years is 2.27, three times higher than the long-term 
average, and we selected that as the rebuilding goal. It is 
unlikely that we could achieve those levels of abundance even 
if we ceased all fishing for scup.
    And so, we have to ask ourselves questions about what our 
rebuilding targets are; are they realistic, and are they based 
on good data and sound science, and even when they are, are we 
making the right decisions about those targets, and are we 
recognizing that as environmental conditions change, so does 
the possible and potential abundance of fisheries, and if our 
concepts of overfishing or rebuilding don't take that 
variability into account, we are going to impose rebuilding 
programs on fisheries that don't need them, and we will 
restrict unnecessarily fishing activities and won't end up 
getting the benefit of those restrictions.
    Mr. Gilchrest. Thank you.
    Dr. Gilford?
    Mr. Gilford. From my point of view, I have three major 
concerns. One is the insufficient data. Fisheries management is 
just so data-intensive, and we do not have good data. We have 
the best available but not what we need. We don't get the 
observer coverage we need. Secondly, the managing of recovering 
stocks is something that we need to improve. The problem is 
that as the stocks recover, according to the management plans, 
fishermen see more fish. When they see more fish, they can't 
understand why they can't catch them.
    When we get these stocks recovered, there are going to be 
more fish out there. The fishermen can simply not take all of 
them to the point where they don't see them anymore, and we are 
right back where we started. So we are going to have to find a 
way to manage not only the fish but the fishermen when we are 
getting into the category of a stock approaching recovery.
    Mr. Gilchrest. You say you not only have to manage the fish 
but the fishermen.
    Mr. Gilford. Certainly, yes, sir.
    Mr. Gilchrest. How do you--that is an interesting 
statement.
    Mr. Gilford. Well, just simply--
    Mr. Gilchrest. What can we do to help the councils manage 
the fishermen?
    Mr. Gilford. It is a matter of education from the 
standpoint of the councils, an expectation and realization of 
what is doable and what is not to have a sustainable fishery. 
When you simply cannot fish the fish down to where you don't 
see them anymore, you still have a sustainable fishery. And 
yet, when the stocks begin to recover, it is understandable 
that the people don't understand why they can't catch them 
because they can see them.
    And when you reach that certain stage in a recovery curve 
that there are a lot of fish out there, the fishermen catch 
them; they have to put them back. They are discarded. Some 
live; most die, and they see that as a waste and rightfully so. 
We need to find some way to handle that particular problem.
    And the last thing that I would say to you from the 
standpoint of a council member that is so frustrating is the 
system is so burdened down with paperwork, it is impossible to 
do anything in a hurry. It is just impossible for us to put 
through a management plan in any kind of reasonable period of 
time, given that you have got fish stocks out there that are 
growing a lot faster than we can move. So if there is anything 
you can do to reduce the paper load of work that has to be done 
in developing fisheries management plans and amending them, God 
bless you.
    Mr. Gilchrest. Yes, sir; that is a worthy goal.
    [Laughter.]
    Mr. Gilchrest. We will take it up as one of our priorities.
    Mr. Gilford. I wish you would.
    Mr. Gilchrest. Dr. Hogarth?
    Dr. Hogarth. It is a tough list. It is like the child at 
Christmas. It is hard to choose what you really want. I would 
say, though, insufficient data, and that, to me, covers a lot 
of territory. We need, in the National Marine Fisheries 
Service, to modernize the agency. When I talk about that, I am 
talking about stock assessments, research vessels to collect 
the data and cooperative research with the fishing industry. 
That is a great program that Congress has funded the last 
couple of years. We need to expand that and to learn how to 
calibrate the fishery industry data with the kind of data we 
collect, and it is a great problem.
    So I think the answer is insufficient data would be my 
number one. But I do think for the long term, we have got to 
match capacity for the sustainability of the fishery, and I 
think we are overcapitalized probably both in recreational and 
commercial. It is a tough issue and will be a tough issue to 
address, but I think until we address the capacity, we will 
continue to have the battles that we are facing, because it is 
very difficult to manage. And also, most plans have limited 
entry in them, but I think you have to, because as stocks 
improve, it is a tendency for more people to want to get in; 
more charter boats want to come in, or more commercial vessels 
want to come in, and we have to find a way to match the 
capacity of the two. I think if we could reach that point, we 
could stop a lot of the controversy that is going on.
    Mr. Gilchrest. Thank you, Dr. Hogarth.
    Mr. Crockett?
    Mr. Crockett. Thank you, Mr. Chairman.
    Probably I would pick two things as priorities for us: 
overfishing, I think we take a different viewpoint than Justin 
LeBlanc at NFI on this issue. The concerns that he is raising, 
I think, are relative to implementation of the act, not the act 
itself. Whether or not the targets are inappropriate, and I 
question if that is, in fact, true. But if they are, that is 
not a problem with the law. I think that is a problem with 
implementation.
    We see, in the overfishing area, a problem with the NMFS 
regulations, their national standard guidelines allow for 
overfishing of a weak stock in a mixed-stock fishery. And by 
that, I mean if you have a fishery that has 10 or 15 stocks, 
one or two of those stocks could be in serious trouble. For 
example, in the grouper fisheries in the South Atlantic and the 
Gulf, there are four grouper species that are candidate species 
for listing under the Endangered Species Act.
    They are sometimes caught in conjunction with these mixed-
stock fisheries. That is allowed under the national standard 
guidelines. We don't think that is appropriate, those stocks 
are not going to be rebuilt unless you do something about that.
    The other thing, and I will echo what several of the other 
witnesses have said on data: one of the solutions to the data 
problem is to implement observer programs for all fisheries. 
Contrary to what Mr. LeBlanc said, our proposal is not to have 
universal coverage on all fishing vessels. What we have said is 
enough observer coverage to provide statistically valid data. 
We would also recognize that it is not appropriate to have an 
observer on every vessel because of size and safety reasons, we 
would suggest that there be exemptions for that.
    We think it is absolutely essential that you get observers 
out on the water, checking what is caught: bycatch, discards, 
all that sort of data. You are not going to get a handle on 
bycatch without that information.
    Mr. Gilchrest. Thank you, Mr. Crockett.
    Dr. Houde?
    Mr. Houde. Yes; I think that many of the problems that we 
see today are a reflection of past history: insufficient 
science, ineffective management, ineffective management 
institutions that we have tried to, you know, reform and to 
improve on over the last few years. These have led to what I 
call the problems of too much effort, overcapacity, which has 
led to overfishing. And so, the major task that I see for 
management and the SFA in the future is to rebuild those stocks 
that are grossly overfished and that we have, you know, abused 
over the past 50 or 100 years. So that is the major problem.
    The second one is the one that everybody has mentioned: the 
need to improve getting data and better data. The NAS report on 
fisheries data says that we need to develop a national 
fisheries information system, and this would, I think, be a big 
step to improving that data compilation management problem that 
we now have. And I would say third, in the long term, we have 
got to begin to face the issues that are related to 
multispecies management, developing the models and modeling 
that are required to manage species in the way that--
understanding the way that they interact in the ecosystem and 
moving toward this broader kind of management that is ecosystem 
sensitive, using the ecosystem approaches of the NMFS panel 
that the SFA of 1996 mandated has recommended.
    Mr. Gilchrest. Dr. Houde, I know there is a principle in 
science known as the principle of uncertainty, that you take 
what you have with some tolerance, and you move forward with 
it. With multispecies management, with an ecosystem approach, 
do we have sufficient scientific understanding of the marine 
ecosystem in the ocean to begin implementing that concept as a 
part of our management? Is it down the road yet?
    Mr. Houde. I think it is down the road before we are going 
to use this tool as a primary way to manage fish stocks. We are 
going to have single species management for a long time. On the 
other hand, it is very valuable to have multispecies and 
ecosystems models to run to ask the kinds of what-if questions: 
what if we fished this species more than that species? What is 
likely to happen? It is to provide the kind of understanding 
that we now don't have about how whole ecosystems and 
communities of fish stocks are likely to respond, not 
necessarily to use it. Sometimes, the results we get from these 
models are very non-intuitive.
    Mr. Gilchrest. So there are multispecies management models 
now?
    Dr. Hogarth. Yes, there are.
    Mr. Gilchrest. Are they--who are they used by? Does NMFS 
have them? Do any of the councils have them?
    Dr. Hogarth. Yes, NMFS has some, and the councils have 
access to them. There certainly are some available in other 
parts of the world for the North Sea, the Barents Sea. In 
Australia, there are some available. And a lot of these are 
used in a conceptual kind of way in which the models are run; 
the what-if questions are asked; and this information is a part 
of the decision making process that goes into single species 
management.
    Mr. Gilchrest. That is interesting.
    Mr. Underwood?
    Mr. Underwood. Well, thank you again, Mr. Chairman. Just on 
the issue of data collection, which obviously undergirds much 
of our perspective on all of these issues, to what extent--I am 
interested in the response from the Fisheries Service and 
perhaps some of the council representatives: to what extent 
could we rely on academic sources, and to what extent should we 
rely only on in-house capacity to collect data?
    Dr. Hogarth. I think we use all sources. We presently do. 
We have tens of millions a year that goes out to academics to 
address issues. I think we have to use all sources: academic, 
the industry and us. I think it is a combination. I think you 
want to have the broad base, and you want to have the different 
types of views to come in.
    By the way, we are doing one ecosystem plan, and it is in 
Hawaii, in the coral reefs, but it is a very difficult one, 
where we are trying to do a coral reef ecosystem plan, and the 
council has spent a lot of money in development. It is under 
review right now, but it is quite an undertaking.
    Mr. Underwood. Dr. Gilford?
    Mr. Gilford. Yes, sir?
    Mr. Underwood. Respond to the issue of data collection and 
the use of various sources.
    Mr. Gilford. Well, I think Dr. Hogarth essentially pinned 
it down. I think we do have to depend on all sources. There is 
some data that is available to us if it is collectible, if 
there is money available to collect it and put it in a usable 
form just simply from the fisheries-dependent source. There is 
information that we need to collect from observer trips, things 
of that type.
    There is also some research that needs to be done that I 
think goes perhaps beyond what the service should be doing that 
should be more in the academic area or under the contract of 
some organizations that are specifically concerned with doing 
marine research. But I think we do have to use any source that 
is available to us. But hopefully, the service can be provided 
with sufficient resources to collect much of the very specific 
data that the councils need to do the management plans and the 
management measures, and I think that is what is important to 
us is we depend upon the service and, in our case, the 
Northeast Science Center, to provide us with the data and the 
stock assessment work that we need done, and that, I think, is 
quite essential to us.
    Mr. Underwood. Thank you.
    Would you like to respond to that, Mr. LeBlanc?
    Mr. LeBlanc. Thank you, Congressman, if I could. I think 
the agency has improved its willingness to use outside data, 
and I want to compliment Dr. Hogarth for that. He has certainly 
been more open-minded to the provision of academically-
generated and cooperative research generated data. That has not 
always been the case, and I think in particular on some of the 
East Coast fisheries, there was a lot of hesitancy historically 
by the agency to take information about the status of stocks 
generated by outside sources. I am thinking in particular of 
surf clam and ocean quahog and scallops on the East Coast where 
the agency had some hesitancy.
    They are certainly moving forward with their willingness to 
accept academic information and information generated through 
cooperative research, and I think it is imperative. I think we 
all agree that there are massive data insufficiencies and data 
gaps in our assessment of stocks, and the agency should be 
willing to take quality scientific data from anywhere it can 
get it, and again, I just want to say that I think they are 
moving forward and doing a better job of that, but that hasn't 
always been the case.
    Mr. Underwood. Well, I would surmise that what we are 
looking for is quality scientific data, peer-reviewed 
scientific data as well.
    Thank you.
    Mr. Gilchrest. I just have one more question to Dr. Gilford 
if you don't mind, sir. What I would like to do is look at a 
list you have of management issues and administrative matters. 
Management issues: you make six recommendations for the 
councils. In the administrative matters, you make eight 
recommendations and suggestions. What I would like to do, if it 
is all right with you, is to send a copy of this to each of the 
witnesses and ask them to respond to it. That would give us a 
little--I guess we could stay here--we probably should have 
started the hearing around 8 this morning--
    [Laughter.]
    Mr. Gilchrest. --and gone to 8 tonight. So I hope you all 
feel that your time here has been valuable, because it has been 
valuable to us. We are at the beginning stages of understanding 
a pretty comprehensive issue. I was asked a week or so ago ``do 
we want to completely reform the Magnuson-Stevens Act, or do we 
just want to tweak it?'' Well, everything is on the table right 
now. We may end up tweaking it a little bit; we may end up with 
some major changes, depending on what other Members of the 
House want to do or what the Senate is going to do.
    But we want to know all that there is to know about how it 
is working so that we do tweak it, and we will tweak it the 
right way, or if we do make major reforms, they will be 
positive reforms where we can develop a consensus. So if that 
is all right, Dr. Gilford, we will send it to the other 
witnesses.
    Mr. Gilford. The full written statement?
    Mr. Gilchrest. No, we don't need to--just actually, you 
have six recommendations for management issues of the councils, 
starting with--and we didn't get to the MSY question that I 
wanted to hear a discussion with a number of you, but the hour 
is getting late. And dealing with locality pay--
    Mr. Gilford. The only reason I am raising the question, 
Congressman, is that it may be more helpful to the people to 
see the full written statement so they have some understanding 
of what is behind--
    Mr. Gilchrest. All right.
    Mr. Gilford. --the specific summary statement.
    Mr. Gilchrest. We will do that, then, the full written 
statement.
    Mr. Gilford. Certainly.
    Mr. Gilchrest. But do any of the other witnesses want their 
full statements sent to any of the other witnesses?
    [Laughter.]
    Mr. Gilchrest. Dr. Hogarth, Dr. Gilford, Mr. LeBlanc, Mr. 
Crockett, Dr. Houde, we appreciate your time. Thank you very 
much.
    There is just one other thing. In case you have a question 
for us, you know, because you may be back a couple more times, 
don't hesitate to ask us questions. The hearing is adjourned.
    [Whereupon, at 4:56 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [Letter from Daniel T. Furlong, Executive Director, Mid-
Atlantic Fishery Management Council, submitted for the record 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    [Response to questions submitted for the record by Dr. 
Hogarth follows:]
                 NMFS RESPONSES TO FOLLOW-UP QUESTIONS
     april 4, 2001 hearing on magnuson-stevens act reauthorization
A. Questions Concerning Magnuson Act Reauthorization
General Questions.
    1. Many factors have been identified as potential problems in US 
fisheries: overfishing, overcapitalization, insufficient data, 
inappropriate management structures, ecosystem impacts of fishing. 
Which of these do you believe is the most pressing problem to be 
addressed?
    Response: NOAA Fisheries is concerned about all of these issues, 
and, while it is not easy to prioritize them, I believe that 
insufficient data and overcapacity are the most pressing problems.
    Reliable and up-to-date information from the biological and social 
sciences is critical to all of NOAA Fisheries' missions. Without 
adequate fisheries science data, we cannot carry out our most 
fundamental fisheries management tasks. Identifying essential fish 
habitat and preparing biological opinions under the Endangered Species 
Act are examples of other major actions that we increasingly carry out 
which require data from several physical sciences. We also need data 
from the social sciences to conduct mandatory regulatory assessments 
and conform with Magnuson-Stevens Act national standards and FMP 
requirements. NOAA Fisheries has spelled out in greater detail our 
needs with respect to data from the biological and social sciences in 
responses to other questions.
    I also believe that excess harvesting capacity in our Federally 
managed fisheries is a fundamental problem that we need to address in 
order to deal effectively with other needs. With this issue in mind, we 
set up a task force a few years ago to develop technical definitions 
and measures of capacity and overcapacity in the fish harvesting 
sector, and recently completed a qualitative report on harvesting 
capacity in more than 70 fisheries. This report concludes that 
overcapacity almost certainly exists in more than half of them. In the 
last few years, we have taken several actions to better address this 
problem. As examples, we have
    (1) continued to support limited access measures and now have them 
in practically all Federally managed fisheries;
    (2) worked with Congress and industry groups to administer a number 
of vessel and permit buyouts in various fisheries;
    (3) established a performance measure in our strategic plan that 
calls for a reduction of 20 percent in the number of overcapitalized 
fisheries by 2005; and
    (4) signed on to a 1999 United Nations Food and Agriculture 
Organization international plan of action on the management of fishing 
capacity.
    2. Can you give examples of previously overexploited Federally 
managed fisheries that have been successfully recovered over the past 
10 years? What species would you expect to add to the success list in 
5-10 years? Are there any commonalities that might enhance our chances 
of success with over exploited species? What have been the major 
barriers to success?
    Response: A number of overfished species are on the road to 
recovery due to rebuilding efforts and favorable environmental 
conditions. In the case of New England six years ago, the news about 
groundfish stocks was grim. Spawning stocks of cod were at dangerously 
depressed levels and recruitment was at a record low for the third 
year. Yellowtail flounder populations on Georges Bank were reduced to 
historical lows. Gulf of Maine haddock was declared commercially 
extinct. Management measures to rebuild the stocks included year-round 
closures and drastic reductions in days-at-sea.
    These management measures are starting to pay off, and we are 
beginning to see signs of a recovery. Recent stock assessments indicate 
there is some good news for many stocks--not necessarily that there are 
a lot more fish of harvestable size, but that the mortality caused by 
fishing is lower, or that the fish left in the water are getting 
larger. In a few cases, there actually has been recruitment success; 
for instance, there are large numbers of young fish coming into the 
haddock stock. The 1998 year class was the largest in the past 20 
years.
    The situation has also improved for Georges Bank cod, where the 
stock biomass has increased 43 percent above the record low 1995 
levels. Yellowtail flounder is improving, with growing populations and 
decreased fishing mortality for stocks off Georges Bank, Southern New 
England and Cape Cod. In addition, witch flounder is well on its way to 
recovery; we've seen good recruitment and a doubling of spawning stock 
biomass since 1995.
    Sea scallops have grown in size and number in areas closed to 
fishing to protect groundfish spawning. Benefits to scallop stocks from 
closing portions of Georges Bank have been significant and, in fact, 
scallop rebuilding is ahead of the schedule anticipated when the 
rebuilding program was designed. Two summers ago, scallopers were able 
to return to a closed area off of Georges Bank, as an initial step in a 
rotation management strategy. This opening put as much as $40 million 
into Southeast New England fishing communities, benefits directly 
attributable to conservation from the closures. The New England Council 
is developing an amendment to the Scallop FMP that would establish a 
rotation management strategy for the longer term and Framework 14 was 
recently approved to open some previously closed areas.
    In other regions, we believe that we are making progress in 
rebuilding overfished stocks. Examples are Gulf group King mackerel in 
the Southeast, and central Bering Sea Alaska pollock and Pacific ocean 
perch on the West Coast. We have also begun recently to deal more 
effectively with some of the highly migratory species in the Atlantic. 
In the last few years, for example, we have successfully negotiated 
international rebuilding plans for Atlantic bluefin tuna, Atlantic 
swordfish, and marlin species.
    The above fisheries/stocks all exhibit varying signs of recovery, 
and we expect some reasonable share of them to be fully recovered in 
the next 5 to 10 years. More generally, the species we would expect to 
add to the success list in the next several years include those that 
are capable of rebuilding within a short time frame, generally short-
lived species with good reproductive rates. Favorable environmental 
conditions as well as management measures in place that protect 
juveniles (e.g., HMS time-area closures and international cooperation 
to protect juvenile swordfish) and mature females (spiny dogfish 
fishery) are other factors that influence rebuilding time periods. 
Other species such as red snapper are slow-growing and have much longer 
life spans, and can be expected to rebuild slowly, even in the absence 
of fishing.
    In our latest annual report to Congress, Status of Fisheries of the 
United States, we report that, in the most recent year alone, the 
number of stocks experiencing overfishing declined from 77 to 72. In 
addition, we now have 75 rebuilding plans, of which 44 were approved 
after passage of the SFA in 1996. Of these 44 approved rebuilding 
plans, 27 have been implemented as of January 2001. The following 
fishery stocks are currently managed under rebuilding plans with 
recovery projected in 10 years or fewer: Atlantic sea scallop; Gulf of 
Maine cod; Georges Bank haddock; Southern New England yellowtail 
flounder; Silver hake; red hake; Atlantic halibut; monkfish; Dogfish; 
Summer flounder; Black sea bass; Vermilion snapper; Yellowtail snapper; 
Red drum; lingcod; and Bering Sea King and Tanner crab.
    3. What are the pros and cons of the ``overfishing'' and 
``essential fish habitat'' sections of the Sustainable Fisheries Act of 
1996? What are the administrative burdens and benefits to Council 
staff? Can the Councils meet the objectives they are charged with under 
these sections? Would it be useful to clarify the concept of essential 
fish habitat, and to provide a clearer mechanism for evaluating the 
costs and benefits?
    Response:
    (A) Overfishing
    The Sustainable Fisheries Act (SFA) set a new standard for 
overfishing by establishing the maximum sustainable yield (MSY) as an 
upper limit on optimum yield, and mandated rebuilding programs for 
overfished stocks to a level that is consistent with producing the MSY. 
This new standard sets the foundation for achieving sustainable fishery 
resources and realizing the many benefits from those resources for the 
good of the fishing industry dependent communities, and the general 
public.
    Achieving sustainable fisheries, however, will have impacts, 
particularly in the short run. For many overfished stocks, landings and 
effort levels have to be reduced to allow the stocks to rebuild. These 
adjustments will have obvious effects on participants in the fisheries 
and on dependent communities. Regulations can be designed to minimize 
those effects as much as possible, but significant impacts will still 
be imposed on the industry. In the long-term, the benefits of 
identifying and rebuilding overfished stocks are expected to far 
outweigh the short- term costs.
    The provisions of the SFA impose a greater requirement on the 
Councils and NMFS to develop more information on the status of stocks 
(stock assessments), the underlying causes of overfishing, the 
establishment of criteria or thresholds for determining when the stock 
size is too low or the fishing rate is too high, and for rebuilding 
programs. Obviously, this has greatly increased the workload for all 
parties in the system, and has placed a greater urgency that all 
information is available to decision-makers. Staff and other resources 
needed to develop management programs have become overburdened. We have 
worked with Congress to supplement our existing resources, and have 
developed plans and taken actions to meet these needs for better 
science and analyses that support management. While this strained the 
Councils and NMFS, significant benefits from the SFA are being realized 
as stocks rebuild, and jobs and revenues increase. With the help of 
Congress, we expect further successes and benefits in the future.
    (B) Essential Fish Habitat
    The essential fish habitat (EFH) provisions of the Sustainable 
Fisheries Act clarify the importance of habitat conservation for the 
successful management of sustainable fisheries. The EFH provisions 
clearly recognize that habitat must be protected throughout the life 
cycle of managed species, and that EFH may be affected adversely by 
both fishing and non-fishing activities. The EFH language strikes a 
workable balance, creating a process to provide important information 
to enhance decision making by fishery managers and other agencies, yet 
not imposing prescriptive measures that could be too restrictive.
    The principal challenge associated with EFH stems from limited 
scientific information regarding the habitat requirements of managed 
species, and the effects of various human activities on those habitats. 
The Sustainable Fisheries Act required NMFS and Council staff to 
compile existing habitat information in a very short time frame, and we 
amended all 40 existing fishery management plans to include EFH 
provisions. While EFH does impose additional administrative 
requirements on the Councils, all of the Councils are now considering 
EFH information in their management decisions, which allows them to 
make more informed decisions and address potential adverse effects to 
EFH.
    The EFH regulations provide guidance and flexibility for Councils 
to designate EFH based on existing information, to identify especially 
valuable or vulnerable portions of EFH as Habitat Areas of Particular 
Concern, and to comply with the requirement to minimize the effects of 
fishing on EFH to the extent practicable. If the Councils need further 
clarification to apply the EFH provisions of the Magnuson-Stevens Act, 
NMFS is, of course, willing to work with the Councils to develop 
appropriate guidance.
    Finally, I want to emphasize where we go from here. Based on the 
good direction from the National Research Council's and NOAA Fisheries' 
reports on the merits of an ecosystem approach to fisheries management, 
plus lessons learned from the Chesapeake Bay, Bering Sea and the 
Northeast, I have asked my staff to host a national workshop this fall 
to begin to develop technical guidelines for implementing ecosystem 
based fisheries management. Making this an open workshop, which allows 
the views of all of our constituents, will lead to a better product.
    4. Does the time required to promulgate Federal fishery regulations 
hinder effective management?
    Response: Yes, in many cases. The process can take a few years from 
the time a Council identifies a problem to publication of final 
implementing regulations. Collecting and analyzing biological, social 
and economic data, conducting public involvement, developing management 
alternatives, and reviewing documents for legal compliance are steps 
that cannot be eliminated. With the myriad of laws that we operate 
under, and the necessity for balancing regional needs with national 
priorities and policies, it is simply not possible to significantly 
shorten the process. However, we are looking at every possible way to 
streamline the process, including the greater use of programmatic 
environmental impact statements that annual measures can be tiered to, 
and the use of multi-year total allowable catch (TAC) setting.
Management Options:
    1. In your opinion, what is the primary benefit and the primary 
drawback of the existing system of Regional Fishery Management 
councils? What changes might lead to more successful management?
    Response: The Councils perform a very important role in preparing 
fishery management plans and plan amendments for fisheries and 
fisheries resources in Federal waters; making necessary in- season 
adjustments; holding public hearings and meetings and considering 
public input in taking final actions; and submitting recommendations to 
NOAA Fisheries for review, approval, and implementation. By convening 
local and regional stakeholders, the Councils bring necessary 
perspectives to Federal decision making. However, Council members, 
nominated by state governors and appointed by the Secretary, cannot 
always represent the views of all of the participants in the fishery. 
Some have advocated a more balanced representation on the Councils of 
non-users, such as environmental groups, and users of the fishery 
resources, including harvesters/processors, recreational, non-
consumptive operators and various gear types representatives.
    2. How might the Magnuson-Stevens Act be amended to address the 
problem of frequent industry opposition to strong conservation and 
management measures? Should fishermen be given more or less influence 
over the management measures adopted?
    Response: The Administration is currently developing a proposal to 
amend the Magnuson- Stevens Act and therefore does not have a current 
position on this or other questions related to amending the Act.
    3. Should the blanket moratorium on individual fishing quota 
programs (IFQs or ITQs) be lifted? If no, what is your main reason for 
opposing these programs under all circumstances? If yes, should there 
be nationwide standards for quota programs?
    Response: The Administration is currently examining the issue of 
IFQs and does not currently have a position on extending the moratorium 
in Section 303(d). That said, NMFS does not oppose IFQ programs under 
all circumstances. As the Congressionally mandated study of IFQs, 
Sharing the Fish, showed, NMFS believes that IFQs have been effective 
management tools, provided that certain safeguards or conditions are 
applied to their administration. Naturally, we are prepared to exchange 
views with Congress on the need for national standards for IFQ 
programs.
    4. Current management practices address species independently, 
attempting to achieve a maximum sustainable yield for each species. Is 
this realistic? Can all species be exploited at MSY levels 
simultaneously?
    Response: Our goal as set out in the Magnuson-Stevens Act is to 
manage at the MSY level whether the fishery management plan is single- 
or multispecies-focused or takes an ecosystem-based approach. While the 
goal is attainable for many species, we recognize the inherent 
difficulty in achieving this goal for all species simultaneously. The 
Act provides ample flexibility in meeting this goal.
    5. Moves toward more decentralized fisheries management in the 
Maine lobster fishery, and in other fisheries here and abroad, have 
shown some successes in terms of conservation and social and economic 
outcomes. Is more decentralization of management desirable in some of 
our fisheries? If so, should the Magnuson-Stevens Act be amended to 
encourage experiments with decentralized approaches to fisheries 
management?
    Response: The Administration is currently developing a proposal to 
amend the Magnuson- Stevens Act and therefore does not have a current 
position on this or other questions related to amending the Act.
    6. Are there changes needed to influence how Councils meet NEPA 
requirements in developing and amending fishery management plans?
    Response: The Administration is currently developing a proposal to 
amend the Magnuson- Stevens Act and therefore does not have a current 
position on this or other questions related to amending the Act. At the 
same time, it should be noted that the agency has initiated a project, 
with an initial grant from the NOAA Administrator's Fund, to review and 
improve the way NMFS and the Councils work together to comply with all 
applicable laws, including NEPA.
    7. Would it be better to assign a single council staff person to be 
responsible for the entire process of data collection, scientific 
assessment, and provision of management advice for each fishery?
    Response: It would not be possible to have a single council staff 
person to be responsible for the entire management process. For the 
most part, data collection and scientific assessment of the resources 
are conducted by the National Marine Fisheries Service (NMFS), and it 
would be inappropriate for council staff to direct NMFS programs. 
However, NMFS and Council staff work very closely on the specific needs 
for data and stock assessments, and activities, priorities, and timing 
of the work in this area are based on those joint discussions. In terms 
of the development of management plans or amendments, often a single 
council staff is assigned to coordinate all the necessary activities 
involved with developing management alternatives, analytical documents 
and descriptions of the stocks or fishery. In some cases, multi-
discipline plan development teams coordinate and prepare the necessary 
documentation, but these groups are often headed by council staff.
Enforcement and Compliance:
    1. The vast area of our EEZ, the hundreds of fishing ports and tens 
of thousands of fishing craft make monitoring, control, and 
surveillance extremely difficult. How might the Magnuson-Stevens Act be 
amended to encourage the use of alternative methods for strengthening 
compliance with regulations? Should non-governmental bodies be allowed 
to supplement existing enforcement resources?
    Response: The Administration is currently developing a proposal to 
amend the Magnuson- Stevens Act and therefore does not have a current 
position on this or other questions related to amending the Act.
    2. The US spends $600 million annually on fisheries management, 
mostly for enforcement of the Magnuson-Stevens Act. Other fishing 
nations, for example, Australia, Canada, and New Zealand, have 
implemented user charges to recover the costs of fishery management 
services. Should the Magnuson-Stevens Act be amended to require that 
some of the costs of management be recovered from users of our marine 
fisheries resources? If so, what principles should govern a cost-
recovery program for US fisheries?
    Response: The Administration is currently developing a proposal to 
amend the Magnuson- Stevens Act and therefore does not have a current 
position on this or other questions related to amending the Act.
Social Science and Fishing Community Concerns:
    1. How could we improve opportunities for collaboration in research 
and management between fishermen and regulators?
    Response: NOAA Fisheries is working to expand the opportunities in 
cooperative and collaborative research by sharing the successes reached 
in areas such as the Northeast and will continue its efforts to build 
upon these efforts in the future. There is a strong history of 
collaboration in several regions of the country, particularly in the 
Northeast where scientists and managers have been working for years to 
develop the mechanisms required and the close collaborative 
relationship with industry and other constituents to identify and fund 
cooperative research. On the West Coast, long standing efforts will 
continue to support commercial vessels for data collection and a new 
thrust is focused on developing a coast-wide grants program that will 
be available for constituent identified research, information sharing 
and gear improvement. Planning efforts are underway on both Coasts to 
develop game plans for the involvement of constituents in the design 
and implementation of research surveys.We are also working to improve 
the coordination of regional cooperative research programs. The 
communication of lessons learned, and the development of scientifically 
valid protocols are areas that we will be working to enhance. In 
addition, support is required across the country for the participation 
of NMFS scientists in the development of surveys for data collection on 
important species, as well as in the expansion, review, and refinement 
of programs in collaboration with stakeholders. We are working to 
secure the necessary resources to support these efforts.
    2. What is the significance of National Standard 8 on fishing 
communities? What, if anything, could be changed in the Magnuson-
Stevens Act or its implementation to better protect coastal fishing 
communities?
    Response: By creating a national standard which requires 
consideration of the impacts of proposed management measures on fishing 
communities, Congress has empowered Councils and NMFS to fully 
incorporate social and economic factors in fishery management 
decisions. Not all communities involved in marine fisheries qualify as 
fishing communities, but in identifying those that do, the fishery 
impact statement required by the Magnuson-Stevens Act is strengthened. 
For the communities that do qualify as fishing communities under the 
Act, consideration of community sustainability and any necessary 
economic mitigation measures serves to further improve the analyses and 
decision criteria for the Councils and NMFS. Therefore, we believe that 
the current provisions in the Magnuson-Stevens Act are sufficient for 
the consideration of, and mitigation of impacts, on dependent fishing 
communities.
    3. Some observers have noted that fishermen frequently oppose 
conservation and management measures because they have little assurance 
that current sacrifices will be rewarded in the future. How can the 
Magnuson-Stevens Act be amended to improve the prospects that 
fishermen's sacrifices will be perceived as worthwhile, and thus 
improve compliance with regulations?
    Response: The Administration is currently developing a proposal to 
amend the Magnuson- Stevens Act and therefore does not have a current 
position on this or other questions related to amending the Act.
Science and Data Needs:
    1. The current process for determining data collection and research 
priorities is driven primarily by line items in the budget and other 
centralized political decisions. Would this process and management 
outcomes, be improved if managers within each fishery were given 
greater authority and leeway to determine appropriate data collection 
and research programs?
    Response: Yes, the process and management outcomes could be 
improved if NMFS scientists and managers determined the data collection 
and research programs needed to manage the fisheries. The partnership 
between NOAA Fisheries managers and scientists is one of the strengths 
of the agency. Fishery managers and scientists work together to 
identify the key management issues for each fishery, but the science is 
carried out independently by the scientists. This process results in 
science that is focused on the management needs, yet carried out by 
scientists who are removed from the management decisions. NOAA 
Fisheries also works with constituents to include their input on 
management and information needs and collaborative research. Greater 
reliance on this planning process and determination of data and 
research needs would provide better information for conservation and 
use of our fishery resources.
    2. Are the data currently available for estimating fish stocks 
adequate to support the decisions that Federal fishery managers must 
take?
    Response: Although NMFS suffers from a shortage of staff to conduct 
assessments and related activities, the most important hurdle we face 
is an overall paucity of adequate data on which to base stock 
assessments. Neither NMFS alone, nor the agency in combination with 
other relevant Federal agencies, state agencies, universities and 
private foundations, has accomplished the basic objective of ``adequate 
baseline monitoring of all managed species.'' The foremost need, as 
emphasized in the National Research Council's report on ``Improving 
Fish Stock Assessments,'' is to obtain fishery-independent estimates of 
stock abundance using reliable research vessels as platforms. Other 
important data deficiencies include observer coverage in fisheries not 
subject to Marine Mammal Protection Act observer requirements to 
monitor bycatch and discards, and the quality and completeness of 
commercial and recreational catch and effort statistics. A secondary, 
but increasingly serious, hurdle is the demand being placed on NMFS 
scientists to produce more and better assessments on more species, at 
greater frequency, with fewer resources and, in many cases, eroding 
databases.
B. Questions for Dr. William Hogarth, Subcommittee on Fisheries 
        Conservation, Wildlife and Oceans, Magnuson Reauthorization 
        Hearing
    1. Dr. Hogarth, in your testimony you mention that all 40 existing 
fishery management plans have been amended to identify and describe 
essential fish habitat. Is it true that some of the Councils did this 
amending as an omnibus amendment to all of the plans under their 
jurisdiction? Why was it done in this manner? Was it a lack of 
information or were the statutory timetables too tight?
    Response: Each Council chose what it believed was the most 
efficient means of addressing the Sustainable Fisheries Act 
requirements. Most Councils completed single omnibus EFH amendments for 
all of their FMPs, while some Councils chose to do separate amendments 
for each FMP. Regardless of which approach was used, the net effect is 
that each FMP was amended to include EFH information that is specific 
to that FMP. In other words, handling EFH through an omnibus FMP 
amendment did not result in generic EFH designations for the species 
managed under those FMPs. The statutory deadline limited the Councils' 
ability to conduct extensive analyses of available data before 
identifying EFH, but omnibus FMP amendments were used for 
administrative efficiency, not as a surrogate for FMP-specific EFH 
designations.
    2. Dr. Hogarth, your statement says ``the future health of the 
nation's fisheries is anything but bleak...''. Some of the statements 
and press releases from interest groups have sounded much less 
optimistic. Can you expand on why the agency feels optimistic about the 
status of our fishery resources?
    Response: As I noted in my testimony, we have made substantial 
progress in establishing the foundation for improvements in our 
fisheries. We have 75 rebuilding plans in place and more will come on 
line this year. We have seen significant increases in many of our 
stocks. For example, the stock size for Northeast scallops and haddock 
have increased, and king mackerel in the Southeast has fully recovered. 
In the past year, 9 stocks were declared to be no longer overfished. In 
my testimony, I also noted that we have more work to do, particularly 
since 92 stocks remain overfished. Nevertheless, through a continuing 
partnership with the Councils and the industry, we expect our recent 
success to continue and expand as rebuilding programs achieve their 
goals. I would point out that even though rebuilding programs are in 
place it may take many years before an overfished stock can be rebuilt, 
particularly for the slow growing, late to mature species.
    3. In its April 2000 report to Congress, the General Accounting 
Office noted that although NMFS reported that it did not know the 
status of 75 percent of the species (and 30 percent of the stocks) that 
they manage, the 25 percent that it did know the status of represented 
about 90 percent of the total weight or volume of all species in U.S. 
waters. Is this an accurate statement? If this is true, then NMFS knows 
the status of 90 percent of the fisheries resources in the U.S. Why 
isn't this made clear in the annual Status of Fisheries Report?
    Response: It is true that we do know status of the majority of the 
most economically important stocks (defined as any stock with more than 
200,000 pounds landed). In fact, NMFS know the status of nearly two 
thirds of those stocks. Virtually all of the these major stocks are 
currently managed under an Federal fisheries management plan or under a 
management plan prepared by the fishery management commissions. The 
statement that we do not know the status of 75 percent of the stocks 
that we manage is incorrect because we do not actively manage most of 
those species whose status is unknown. Furthermore, it is not true that 
we know the status of 90 percent of the fisheries resources in the U.S. 
as indicated in the question. There are some 660 stocks whose status is 
either unknown or undefined. Most of these stocks are not managed, but 
they occur in the geographical jurisdiction of the Councils and must be 
included in the annual report to Congress. In addition, most of the 
unknown stocks have an exceedingly small biomass, and have little 
economic value at this time. Of course, all of these small stocks are 
part of the ecosystem and are important in that sense. However, they 
are often so dispersed or infrequently found that they do not justify 
the expenditure of finite monetary or personnel resources to assess 
their status at this time.
    4. In the rebuilding of overfished stocks, some have argued that 
unreasonable rebuilding targets have been set by either the agency or 
the councils. How are these rebuilding targets established? If the 
complaint is correct that unreasonable targets are being set, is this a 
problem with the Act or with the implementing guidance from the agency?
    Response: Rebuilding targets established in fishery management 
plans are reasonable and in line with the goals of the Magnuson-Stevens 
Act, particularly if we, as a Nation, continue to seek to rebuild 
stocks to relatively high level in order to realize the many benefits 
that the resources offer. Rebuilding targets are established in 
accordance with the national standards and other provisions of the 
Magnuson-Stevens Act, which allows adjustment in certain circumstances. 
Specific targets are developed for each species, based on each species 
biology and other such factors, including the need to minimize economic 
and social impacts on participants and dependent communities.
    5. Some Members of Congress have argued that the identification of 
EFH by the Councils was far too broad and too sweeping in its 
implementation. The agency is now urging Councils to identify Habitat 
Areas of Particular Concern (HAPS) which are more discrete areas. Isn't 
this what Congress actually wanted NMFS to do in the first place? Do we 
need to create a new designation to accomplish what was originally 
intended?
    Response: Over 700 species are managed under the Magnuson-Stevens 
Act, and the aggregate of the EFH designations for those species is 
indeed broad. In most cases the Councils identified EFH separately for 
several life stages of each species, since different species and life 
stages may have different ecological requirements. For individual 
species or life stages, EFH generally is a distinct subset (often 50 to 
70%) of the total available habitat within the species' range, and only 
includes a portion of the water column (e.g., only bottom habitats or 
only surface waters). However, when individual EFH designations for all 
life stages of all managed species are overlaid, the designations 
encompass most of the coastal waters and exclusive economic zone. NMFS 
is continuing to work with the Councils to revise and refine EFH 
designations as additional information becomes available.
    It is entirely appropriate to designate as EFH the areas that 
provide necessary environments for managed species to feed, reproduce, 
and seek shelter from predators. These areas constitute a sizeable 
portion of the managed species' geographic range. HAPS, on the other 
hand, are localized areas of extreme vulnerability or ecological 
importance. For instance, HAPC designation may be warranted for areas 
that play a vital role in the reproductive cycle of a managed species, 
or areas that contain a rare habitat type that may be sensitive to 
disturbance from fishing or other human activities. The designation of 
HAPS is a valuable way to acknowledge areas where we have especially 
detailed information on ecological function and habitat vulnerability 
that allows us to highlight priority areas for conservation and 
management. Healthy populations of fish require not only these 
relatively small habitats, but also other suitable areas that serve the 
necessary habitat functions to support larger numbers of fish. HAPS can 
highlight valuable and/or vulnerable habitats, but alone they do not 
comprise the areas necessary to support healthy stocks of fish.
    Given the definition of EFH in the Sustainable Fisheries Act, NMFS 
interpreted Congress' intent to encompass the habitats that are 
necessary for managed species throughout their full life cycle. 
However, NMFS recognized that focusing on smaller areas may be useful 
for management purposes, so our regulations encourage Councils to 
identify HAPS within EFH.
    6. Last Congress, this Subcommittee held a hearing on essential 
fish habitat issues. At that time, one of the concerns raised by the 
agency was that there was not adequate funding available to fund 
research into habitat issues. If funding is scarce, does it make sense 
to look first at the habitat needs of those commercially important 
species?
    Response: Limitations on available funding definitely constrain our 
ability to identify EFH more precisely and document the effects of 
various human activities on EFH. The Magnuson-Stevens Act addresses 
species that are valued by commercial and recreational fisheries, both 
of which are important to the economy and to fishing communities. In 
general, NMFS prioritizes its habitat research around pressing 
management needs, so our work studying habitat requirements of a 
species or understanding the effects of habitat disturbance often 
responds to the need to make more informed decisions on a particular 
issue to manage the fisheries effectively. Those management priorities 
often reflect socioeconomic concerns associated with the commercial or 
recreational sectors of the industry, but biological considerations 
(such as understanding habitat usage patterns to help minimize bycatch) 
also have a major influence on our research priorities.
    7. One area of concern that has been identified by a number of 
reviewers of Federal fisheries management is that the adequacy of 
scientific data on which management decisions are made. A second 
concern is that the regulated community does not have confidence in the 
scientific information generated by the agency. How can we get better 
data and get better buy-in by the regulated communities?
    Response: NMFS is taking a number of actions to improve the quality 
and quantity of fisheries science. Five essential elements to using the 
best available science for conservation and management measures are: 
(1) obtaining adequate quantities of data; (2) obtaining data of 
adequate quality; (3) proper interpretation of these data; (4) peer 
review of this process; and (5) placing greater emphasis on cooperative 
research.
    NOAA Fisheries is actively engaged in improving the science upon 
which the resource management decisions are based through the 
implementation of the Stock Assessment Improvement Plan (SAIP). The 
SAIP seeks to improve the comprehensiveness, timeliness, quality, and 
communication of NMFS stock assessments; mine existing databases to 
evaluate status determination criteria for species of ``unknown'' 
status; conduct adequate baseline monitoring for all Federally managed 
species; upgrade assessments for FMP core species; and develop next-
generation assessment models that explicitly incorporate ecosystem 
considerations.
    Specific activities include:
    <bullet> LDevelop new stock assessment methods - Expand the pool of 
senior level scientists doing cutting-edge methods development. Point 
of contacts in each Center will coordinate methods research, with a 
concurrent emphasis on augmenting university partnerships to develop 
future assessment scientists.
    <bullet> LNational Stock Assessment Toolbox - When completed, this 
standardized package of tested, peer-reviewed, and approved analytical 
tools and assessment models will allow better, more reliable and 
repeatable assessments to be made.
    <bullet> LNMFS-university partnerships and graduate stock 
assessment fellowships - Science Centers will collaborate with Sea 
Grant Universities to enhance stock assessment and population dynamics 
study programs and research capabilities. NMFS/OAR stock assessment 
fellowships will increase in number and in scope, and focus on new 
projects that address the agency's highest priorities. Another 
important element is modernization of NOAA's fleet of fisheries 
research vessels (FRVs).
    <bullet> LA contract has just been signed for the construction of 
the first of a series of state-of-the-art, acoustically quiet FRVs to 
conduct fisheries monitoring and research surveys.
    <bullet> LThe FRVs are an essential part of NOAA's plan to meet the 
rapidly growing demand for high quality at-sea data, and to maintain 
the integrity of existing data series.
    <bullet> LMeeting those demands also depends on significant growth 
in the number of days-at-sea aboard chartered academic and industry 
vessels.

    NMFS is also striving to apply more advanced technology in research 
surveys.

    <bullet> LNOAA Fisheries is exploring fisheries applications for 
advanced technologies that would improve the efficiency of and 
effectiveness of stock assessment surveys.
    <bullet> LAdvances in airborne and satellite remote sensing, hydro-
acoustic survey, and signal processing technologies hold great promise 
for fisheries applications by adding information not presently 
available and providing alternative sources of survey information for 
some species and their habitats.
    Regarding buy-in, a major priority of NMFS is to continue to 
improve the effectiveness of external partnerships with fishers, 
managers, scientists, conservationists, and other interested groups. 
These partnerships will increase the credibility of NMFS scientific 
efforts and build a balanced approach to gathering and analyzing data. 
As addressed in the NMFS Strategic Plan for Fisheries Research 1998, 
NMFS will continue to:
    <bullet> LPromote a cooperative network of partners in the 
coordination of fisheries research;
    <bullet> LDevelop the infrastructure for long-term, continuous 
working relationships with partners to address fishery research issues;
    <bullet> LSponsor symposia and conferences for partners to exchange 
information and identify major fisheries research initiatives.
    <bullet> LSolicit partners' views on fisheries research needs.
    8. We have seen a number of cooperative research survey initiatives 
that were cosponsored by industry in the last few years. How does the 
agency use the information from these cooperative surveys, in addition 
to their own survey information, to determine stock size and total 
allowable catch levels?
    Response: Last year, the Southeast Fisheries Science center 
received a grant from the National Fish and Wildlife Foundation (Shell 
Funds) for $100K to do research on Nassau Grouper. The SEFSC also works 
with State agencies, i.e., Florida Department of Environmental 
Protection for joint south Florida restoration projects. We accept the 
funds through reimbursable agreements.
    For the Alaska Fisheries Science Center, funding from environmental 
groups tends to be limited, but some work has been done through 
contributions by groups such as the ``Suzuki Foundation''. An example 
is the salmon stock assessment project for southeast Alaska conducted 
jointly by ADF&G, NMFS, and sponsored by the American Fisheries 
Society. The Alaska Fisheries Science Center has established MOUs with 
fishing industry associations to conduct cooperative research. The 
associations contracted for fishing vessels to serve as research 
vessels for our use in conducting resource surveys.
    9. Dr. Hogarth, since fisheries stock survey information is 
critical to better fisheries management, why has the Administration not 
included funding for new fishery research vessels in its budget?
    Response: The Administration has decided to defer funding for the 
second research vessel to fiscal year 2003. However, this program 
remains a high priority for NOAA and NMFS. The Fisheries Research 
Vessel 40 construction contract includes options for three additional 
vessels. A commitment at this time of next year's Fisheries Research 
Vessel budget is not possible. This coming summer and fall, NMFS will 
be working with the Office of Management and Budget, and the White 
House on Fisheries Research Vessels along with other out-year budgets 
as part of the Administration's growth scenario and mission 
requirements.
    10. The Act currently has been interpreted to prohibit the 
gathering of economic data from processors. Why was this restriction 
put in place and should this issue be re- examined? Are there ways of 
gathering this proprietary data and ensuring its confidentiality?
    Response: This restriction was put into place to address data 
confidentiality concerns by owners of fish operations and fish 
processing operations in 1990. Given the level of economic data on 
business practices, profits, and losses that was proposed to be 
collected, business owners became concerned that proprietary financial 
information would be made available to their competitors, some of whom 
were fishery management council members. As a result, the collection of 
economic data from processors and fish operations was precluded in 
sections 301, 303, 401, and 402.
    However, a re-examination of this issue is necessary for a number 
of reasons. First, the Executive branch of the government has issued an 
executive order that requires the determination of costs and benefits 
of proposed management regulations as well as the estimation of the 
impact of regulations on the national economy. The Congress has passed 
a number of laws that require regulatory agencies to take into account 
the costs and benefits or impacts of proposed regulations on the 
economy and specifically on small entities. Executive Order 12866 
requires that in ``Deciding whether and how to regulate, agencies 
should assess all costs and benefits of available regulatory 
alternatives'' to determine if the rule is a significant regulatory 
action. The Regulatory Flexibility Act requires agencies to estimate 
the impacts of proposed regulations to determine if small entities are 
disproportionately affected. The National Environmental Policy Act 
requires a report on any Federal action significantly affecting the 
quality of the human environment. The Unfunded Mandates Reform Act of 
1995, Congressional Review of Agency Rulemaking, and the Endangered 
Species Act require economic analysis to determine the economic impacts 
of regulations, compliance with E.O. 12866, and economic analysis of 
critical habitat designation, respectively. Most importantly for 
fisheries management, the Magnuson-Stevens Fishery Conservation and 
Management Act (MSFCMA) requires NMFS to increase benefits to the 
nation from fishing, to provide assessments and descriptions of the 
economic and social impacts of proposed action on participants in the 
fishery, and many of the national standards require or imply the need 
for economic analysis; e.g., cannot discriminate in allocating fishery 
resources between members of different states, determination of optimum 
yield, consider efficiency, minimize costs, and minimize adverse 
economic impacts on fishing communities. The prohibition on collecting 
economic data in Sections 301, 303, 401, and 402 makes compliance with 
the MSFCMA and other laws and executive orders difficult.
    Second, regulations promulgated for fisheries managed as common 
property, open access, or regulated open access resources can and often 
do have significant impacts on fish processors and dealers; many of 
whom are often fishers themselves. This is especially true for 
fisheries in transition from common property to rights based fisheries 
such as wreck fish, halibut/sable fish, surf clam, tuna, and pollock 
managed under the American Fisheries Act. The transition of the halibut 
fishery from a derby fishery as a regulated open access fishery to a A 
``year round'' fishery under IFQs providing products to the fresh fish 
market resulted in significant economic and financial impacts to fish 
processors that could not be quantified because of the prohibitions in 
the MSFCMA.
    Third, specialized surveys traditionally used by NMFS to collect 
economic data are expensive, usually have low response rates resulting 
in sampling biases, are conducted after regulations have been proposed 
to solve a problem in a fishery, are not comprehensive in covering all 
fishing activity of a fishing firm or fleet of fishing vessels and 
boats, and do not include the processing sector of a fishery. 
Continuous and in some cases mandatory data collection for fisheries 
would provide the necessary economic data needed to address the 
requirements of the national standards in the MSFCMA, the Regulatory 
Flexibility Act, Executive Order 12866, etc. with information collected 
over time before and after a regulation is imposed on a group of 
fishers and their associated processors. Combining this economic data 
collection program with the existing biological data collection 
infrastructure would result in a significant improvement in the quality 
of the data being collected at a fraction of the cost of collecting it 
as a randomly sampled, voluntary program for all Federally managed 
fisheries.
    Fourth, the economic information needed to comply with 
Congressional mandates and executive orders to determine costs and 
benefits and economic impacts of proposed or adopted fishery management 
regulations does not require detailed proprietary financial information 
from processors, dealers, or fishing operations. The limited, 
proprietary, financial information that is needed can be protected as 
confidential data by the strict practices and protocols presently used 
by NMFS. Precluding the disclosure of this information about individual 
fishing operation or fish processing operations to the general public 
can prevent competitors from accessing each others information.
    To re-examine this issue, the MSFCMA can be amended to require the 
collection and use of economic and socio-cultural data to monitor the 
economic status of the fisheries, to eliminate any existing MSFCMA 
restrictions on the collection of such data, and to eliminate or reduce 
the OMB obstacles to collecting such data that is necessary to meeting 
the Congressional mandates and Executive requirements provided that it 
is not disclosed to the public. The explicit inclusion of economic and 
socio-cultural data in the definition of ``best scientific 
information'' in National Standard 2 will improve the information 
available to fishery managers upon which they can base their decisions 
and set policies concerning the nations living marine resources. 
Removing language such as ``(other than economic information)'' in the 
MSFCMA will also strengthen the ability of the NMFS to collect data 
from processors and harvesters of fishery resources. The ability of 
NMFS to accurately predict the impact of proposed fishery management 
regulations would be improved while continuing to protect confidential 
data under existing provisions of the law. In addition, it would 
eliminate the appearance of a contradiction in the law requiring 
economic analysis without allowing the collection of the necessary 
data.
    11. The Magnuson Act requires Fishery Management Plans ``to 
minimize to the extent practicable adverse effects on such habitat 
cause by fishing...''. Since the Councils have identified almost the 
entire EEZ as EFH, this will mean that the agency must collect data on 
gear impacts for the entire EEZ. Should the Act be amended to apply the 
minimization requirement only to the HAPC areas?
    Response: The Administration is currently developing a proposal to 
amend the Magnuson- Stevens Act and therefore does not have a current 
position on this or other questions related to amending the Act.
    12. NMFS is currently facing 102 lawsuits and this number seems to 
have grown substantially since the passage of the 1996 amendments. Are 
there certain provisions within the 1996 amendments that are causing 
this increase in lawsuits and if so, what actions should Congress take 
to lessen this increase in lawsuits?
    Response: There is no particular provision in the 1996 amendments 
that is causing these lawsuits. Rather, the Sustainable Fisheries Act 
established new conservation standards for fisheries management, and 
imposed new requirements on the Councils and NMFS to meet those 
standards. In particular, Congress amended the Act to greatly 
strengthened the conservation standards by requiring that any 
overfished fishery must be rebuilt to levels consistent with producing 
the maximum sustainable yield in that fishery. Congress also added new 
national standards regarding bycatch, dependent communities, essential 
fish habitat, and safety at sea. The new provisions required 
adjustments in all fishery management plans, which necessitated the 
imposition of impacts on the industry to meet the new requirements. 
Although the Councils and NMFS make every effort to mitigate impacts, 
the industry sometimes reacts by bringing lawsuits to have the 
management programs, and their associated impacts, reduced by the 
courts. On the other hand, some lawsuits are brought by environmental 
interests who believe that our management programs are not sufficient 
to meet the conservation requirements of the Act. To a certain extent, 
these lawsuits are inevitable because fisheries management has become 
very controversial, and it is very difficult to please all interests in 
the development of a management program. The Councils and NMFS attempt 
to involve all interests, including the public, in the FMP development 
process in an effort to incorporate all views and avoid 
misunderstanding that can lead to lawsuits. In some instances, this is 
not sufficient to avoid a lawsuit.
    The Administration is currently developing a proposal to amend the 
Magnuson-Stevens Act, and therefore, does not have a current position 
on actions necessary to amend the Act.
    13. The Act currently has been interpreted to prohibit the 
gathering of economic data from processors. Why was this restriction 
put in place and should this issue be re- examined? Are there ways of 
gathering this proprietary data and ensuring its confidentiality?
    Response: The Administration is currently developing a proposal to 
amend the Magnuson- Stevens Act and therefore does not have a current 
position on this or other questions related to amending the Act.
    14. Several of the witnesses have noted that the use of MSY is 
problematic. Should Congress look at this term and, if so, what target 
should be used in terms of rebuilding plans?
    Response: The Administration is currently developing a proposal to 
amend the Magnuson- Stevens Act and therefore does not have a current 
position on this or other questions related to amending the Act. Having 
said that, NMFS is continuing to work with the concept of MSY, 
including the use of proxies in data-poor situations.
Magnuson-Stevens Act Hearing #1, Questions for the Committee Record
    1. We have been told by National Marine Fisheries service (NMFS) 
representatives in the past that striped bass is the single greatest 
fisheries management success story since passage of the Magnuson Act. 
If this is in fact the case, why does the entire Exclusive Economic 
Zone remain closed to fishing for this not-incredibly abundant species? 
Does science support the opening of this fishery? While Congress told 
NMFS in 1994 it would close the fishery if it were reopened, will NMFS 
revisit this issue?
    Response: Approximately six years ago, when NMFS proposed repeal of 
the moratorium on fishing for striped bass in the EEZ following the 
Atlantic States Marine Fisheries Commission's (ASMFC) declaration that 
the stock had ``fully recovered,'' there was, initially, nearly 
unanimous support from all member states of the ASMFC. However, strong 
opposition to the proposal from the recreational fishing sector soon 
developed and NMFS subsequently lost the support of the states, the 
ASMFC, and the USFWS, and our ``management partners'' under the 
Interstate Fisheries Management Plan. The recreational sector's 
concerns/arguments were largely threefold:
    1) The Atlantic Striped Bass Conservation Act (ASBCA) requires, 
among other things, that any regulations promulgated in the EEZ by the 
Secretary must ``ensure the effectiveness of State regulations on 
fishing for Atlantic striped bass within the coastal waters of a 
coastal state'' (Section 9 (a) (3)). The recreational fishing sector 
argued that NMFS's regulatory proposal for the EEZ did not meet this 
standard because it could not totally guarantee the prevention of 
striped bass harvested commercially in the EEZ from being landed in 
certain states (or other jurisdictions) that have few or no 
regulations, and/or lax enforcement, pertaining to striped bass.
    2) They objected to the potential scenario of ``non-resident'' 
commercial trawlers being allowed to fish for striped bass in the EEZ 
just seaward (>3 miles) of the jurisdiction of a state in which striped 
bass were prohibited from either being taken with that gear (e.g., MA), 
or prohibited from being taken commercially with any gear (e.g., NJ).
    3) They argued that the EEZ should remain a ``sanctuary'' for 
striped bass. Because of the strong opposition from the recreational 
sector noted above, and because there has been concern shared by all 
interests in recent years about excessive (i.e., over-target) fishing 
mortality on the stock (which now seems to have been allayed by more 
recent data), NMFS has been less than motivated to pursue removal of 
the EEZ moratorium. Nevertheless, NMFS has just recently been requested 
by the ASMFC to ``initiate a legal and policy analysis regarding 
removing the moratorium in the territorial sea (3-12 miles) and require 
fish that are harvested in Federal waters be landed in accordance with 
state landing regulations.'' Therefore, the issue is about to be 
revisited.
    2. We are having very serious problems with summer flounder in the 
Mid-Atlantic region. Why are we having such problems enforcing the 
quotas of these species and what can we do to remedy that problem?
    How can it be that we have the highest historical summer flounder 
abundance and yet the fishery remains categorically overfished and 
significantly below the target abundance level set for this resource?
    What are the agency's and council's plans to rectify this 
situation?
    Response: Summer flounder occurs along the Atlantic Coast mainly 
from Maine through North Carolina and is managed cooperatively by the 
Mid-Atlantic Fishery Management Council (Council), the Atlantic States 
Marine Fisheries Commission (ASMFC), the states from Maine through 
North Carolina, and NOAA Fisheries. The Federal fishery in the 
exclusive economic zone (EEZ) is managed under the Summer Flounder, 
Black Sea Bass and Scup Fishery Management Plan developed by the 
Council and implemented by NOAA Fisheries. The states implement 
management measures developed by the ASMFC under its Interstate Fishery 
Management Plan for Summer Flounder. State regulations apply to vessels 
fishing in state waters, with the exception of vessels issued the 
Federal permits necessary to fish in the EEZ. A condition of the 
Federal permit requires those vessels to comply with Federal management 
measures even when fishing in state waters. As a result, if the states 
and NOAA Fisheries implement differing regulations, the restrictions on 
vessels depend upon their permit status. This complicates enforcement 
greatly, and can result in two vessels fishing side by side and subject 
to different requirements.
    As defined in the FMP, the summer flounder stock is considered to 
be overfished because the biomass is not at the level required by the 
Magnuson-Stevens Act. Overfishing is also occurring, which means that 
the mortality caused by fishing (referred to as the fishing mortality 
rate) is too high. However, the current management program, which was 
established in 1993, has succeeded in rebuilding biomass and reducing 
the fishing mortality rate. The FMP rebuilding program established two 
important milestones. When the stock reaches the level of 53,222 mt, it 
will no longer be considered overfished, and when it reaches 106,444 mt 
it will be considered rebuilt. The total biomass in 1998 reached 38,600 
mt, a considerable improvement over the low point of 16,000 mt in 1989, 
and approaching the point where it would no longer be considered 
overfished.
    Since 1993, the MAFMC and ASMFC have met jointly to develop annual 
fishing measures that are then implemented by NOAA Fisheries and the 
states. This year, however, NOAA Fisheries issued a final rule for the 
summer flounder fishery that established total allowable landings (TAL) 
consistent with the biomass target specified in the settlement 
agreement with the Natural Resources Defense Council. The ASMFC 
originally did not set a TAL consistent with the biomass target 
specified in the settlement agreement, but with the fishing mortality 
target in its fishery management plan. As a result, the initial ASMFC 
TAL was approximately 12 percent higher than the Federal TAL. The ASMFC 
later decided it would revise its TAL to be consistent with the Federal 
measure. To help remedy this year's situation and longstanding problems 
in the fishery, stakeholders (including plaintiffs from both industry 
and environmental groups) in the summer flounder fishery met in May to 
discuss a number of issues including:
    <bullet> LDetermining better ways to manage the recreational 
fishery
    <bullet> LDeveloping complementary management objectives and 
methodologies for summer flounder
    <bullet> LEstablishing management measures that recognize the 
limitations of the data collections
    <bullet> LImproving biological information available for use in the 
stock assessments
    <bullet> LRe-evaluating approaches to management for a rebuilding 
and rebuilt stock
    <bullet> LDeveloping better communication and working relationships 
among NOAA Fisheries, Council, ASMFC and stakeholders
    The agency hopes that more stakeholder workshops can be held in the 
future to work on long- term approaches for this complex and often 
contentious fishery.
    3. I understand we are seeing a separation, if you will, of state 
and Federal fisheries management programs for the same species, such as 
summer flounder and monkfish, to name two. What are the ramifications 
of these inconsistencies?
    Response: Since 1993, the ASMFC and MAFMC have managed summer 
flounder cooperatively, and coordinated their management measures for 
many years. However, as was demonstrated this year by the differing TAL 
recommendations, there is no legal obligation for them to manage 
cooperatively. The two entities are not subject to the same legal 
requirements, and the ASMFC management process can enact management 
changes more quickly than the Magnuson-Stevens Act process. The 
ramifications range from trying to enforce a fishery where two vessels 
are fishing side by side under differing regulations to delays in 
setting the annual specifications because of differing goals and 
realities of the ASMFC, MAFMC and NOAA Fisheries, to costly lawsuits 
from all sides. As in all fisheries where the States and Federal 
Government share responsibility for management, inconsistencies in the 
various statutes and in fisheries management philosophies have to 
worked out over time.
    4. I am hearing very positive reports on the agency's efforts with 
respect to cooperative research in the mid-Atlantic and Northeast 
regions. I believe all parties benefit from this type of joint science-
based effort. What is your opinion of cooperative research and can we 
expect your support for more of this across all the regions?
    Response: Recent recommendations from ``An Independent Assessment 
of the Resource Requirements for the National Marine Fisheries 
Service'' (the Ray Kammer Report) and the Marine Fisheries Advisory 
Committee (MAFAC) Report ``A Perspective on the National Marine 
Fisheries Service: Issues and Recommendations'' have highlighted the 
need for improved communication with and involvement of NMFS 
stakeholders in the operations of NOAA Fisheries. To address the need 
for more constituent involvement and to build improved working 
relations with stakeholders, NOAA Fisheries will continue to develop 
and expand cooperative and collaborative research programs with 
constituents in order to improve data collection and analysis, fishing 
methods and gear technology.
    The Northeast Region's programs on monkfish and Illex Squid are 
examples of the type of collaboration NOAA Fisheries is working to 
expand in other regions. Scoping meetings with industry and other 
constituent groups are being planned in the Southeast, Southwest and 
Northwest Regions. Program support for NOAA Fisheries scientists to 
participate in the planning and execution of research surveys is being 
carved out of current base funding and additional support is being 
sought in the out years. NOAA Fisheries is strongly committed to 
improving and expanding communication with its stakeholders and the 
cooperative and collaboration research approach only strengthens our 
success in this area. It remains a top priority as we work toward 
better understanding of our marine resources and their effective 
management.
    5. It appears the implementation of the essential fish habitat 
provision of the Sustainable Fisheries Act has resulted in some 
unintended consequences such as overly broad essential habitat 
designations and even litigation. I am concerned that as it is 
currently being interpreted, essential fish habitat protection seems to 
be totally disconnected from the health of the fish stock using the 
habitat. Considering the overarching goal of the Magnuson-Stevens Act 
for rebuilding and maintaining fish stocks, why shouldn't habitat 
protection be linked to the actual health of our fish stocks?
    Response: The EFH regulations do make connections between habitat 
protection and the status of the stocks. The regulations state that if 
a species is overfished, and habitat loss or degradation may be 
contributing to the species being identified as overfished, all 
habitats currently used by the species should be considered essential 
in addition to certain historic habitats that are necessary to support 
rebuilding the fishery and for which restoration is technologically and 
economically feasible. Once the fishery is no longer overfished, the 
regulations state that the EFH designation should be reviewed and 
amended, if appropriate. The regulations also note that where a stock 
is considered to be healthy, EFH for the species should be a subset of 
all existing habitat for the species.
                                 ______
                                 
    [Dr. Hogarth's response to questions from the Honorable Robert 
Underwood follows:]

        NMFS RESPONSES TO MAGNUSON-STEVENS ACT WRITTEN QUESTIONS

Questions from Mr. Underwood
    1. There are more than 100 stocks that are considered to be 
overfished, yet rebuilding plans have been developed for only about 75 
of them. Of the remaining 25, how many have been categorized as 
overfished for more than a year? If there are any, why has NMFS not 
stepped in, such as in the case of Atlantic tilefish, and developed its 
own rebuilding plans as the law requires?
    The January 2001 Report to Congress on the Status of Fisheries of 
the United States finds that 92 stocks are considered to be overfished, 
and that there are 75 rebuilding programs. Of the remaining 17 stocks, 
four were declared to be overfished prior to 2000: tilefish, ocean 
pout, North Atlantic albacore and scup. The rebuilding program for 
tilefish is currently under Secretarial review. The rebuilding program 
for ocean pout is being developed in amendment 13 to the Multispecies 
FMP. North Atlantic albacore was declared to be overfished in 1999 but 
rebuilding programs must be developed with the International Commission 
for the Conservation of Atlantic Tunas (ICCAT). NOAA Fisheries was able 
to obtain agreement on an international quota that would aid rebuilding 
but that quota expired after one year. We continue to work to achieve a 
long-term rebuilding program for this stock. Finally, a rebuilding 
program for scup was disapproved, and the Council has not submitted a 
revised program yet. NOAA Fisheries works through the Councils and the 
industry whenever possible to develop rebuilding plans or other 
management actions. The Councils have been quite responsive in working 
on rebuilding programs, and NOAA Fisheries has not deemed it necessary 
to interfere with that process. In addition, although these stocks do 
not have formal rebuilding programs, management measures are in place 
to conserve the resource and serve to rebuild the stocks.
    We would also point out that rebuilding plans have recently been 
approved for two of the 17 stocks mentioned above that do not have 
rebuilding plans. These are St. Matthew's Island blue king crab and 
Bering Sea snow crab. Therefore, there are now just 15 stocks that do 
not have approved rebuilding plans. Finally, it should be noted that 
two other stocks, Atlantic sturgeon and Atlantic croaker, are managed 
by the Atlantic States Marine Fisheries Commission, and do not fall 
under the responsibility of the Councils.
    2. Do we have any idea how many and what kinds of seabirds are 
killed annually by commercial fishing activities? While the Magnuson-
Stevens Act does not mandate the reduction of seabird bycatch, doesn't 
the US still have a responsibility to address this problem under the 
FAO Plan of Action to Reduce Seabird Mortality and the ESA? When do you 
plan to implement your National Plan of Action to deal with this 
problem and meet our obligations?
    While NMFS does not have comprehensive data on seabird mortality in 
all federally managed fisheries, the agency has made considerable 
efforts in recent years to improve its knowledge of seabird bycatch. 
However, we have some data on seabird mortality in federally managed 
fisheries in both the Atlantic and Pacific. The information is most 
complete for Pacific longline fisheries, in particular the longline 
fisheries in Alaska and around the Hawaiian Islands. In the Alaska 
longline fisheries, we have estimates for the 1993-1999 period for the 
Bering Sea and Aleutian Islands (approximately 14,500 birds annually) 
and for the Gulf of Alaska (approximately 2,300 birds annually), and 
both figures include species breakouts among fulmars, gulls, 
shearwaters, and albatrosses. Reasonably reliable mortality data is 
also available for two albatross species incidentally caught in the 
Hawaiian longline fisheries. Available 1998 data give the following 
annual estimated numbers of albatross species taken in the Hawaii-based 
pelagic longline fisheries: black-footed albatross (1,963), and 
Laysan's albatross (1,479).
    NMFS agrees that the FAO International Plan of Action for the 
Reduction of Incidental Catch of Seabirds in Longline Fisheries (IPOA 
on seabirds) has generated a responsibility for the United States to 
address this problem. While the FAO agreement is voluntary and creates 
no binding obligations, the United States actively promoted this 
instrument and accepts responsibility to implement its provisions. 
Finally, seabird mortality in fishing operations may, depending on the 
circumstances and species involved, trigger mandatory responsibilities 
under the ESA and other laws.
    In conformity with the FAO IPOA on seabirds, NMFS and U.S. Fish and 
Wildlife Service (FWS) jointly developed a national plan of action 
(NPOA/seabirds), and NMFS formally submitted this document to FAO at 
the last biennial meeting of the Committee on Fisheries in February 
2001. NMFS and FWS believe that the United States can ultimately 
achieve significant reductions in seabird mortality in longline 
fisheries in federally managed waters through a policy that combines: 
(1) the U.S. national plan of action that implements the FAO IPOA on 
seabirds; (2) adherence to the FAO Code of Conduct for Responsible 
Fisheries; (3) specific provisions of certain FMPs and FMP amendments; 
and (4) the guidelines proposed in a June 1998 NMFS document, Managing 
the Nation's Bycatch. Clearly, this is a partnership effort among NMFS, 
FWS, the Councils, the owners and operators of longline fishing 
vessels, and conservation organizations.
    Implementation of the U.S. national plan of action will be carried 
out mainly on a regional FMP-by-FMP basis. In some federally managed 
fisheries, such as the longline fisheries for groundfish in Alaska and 
pelagic species around the Hawaiian Islands, we have sufficient 
information to effectively move forward with plan implementation. In 
other federally managed longline fisheries, however, assessments of 
seabird bycatch still need to be conducted before specific measures can 
be developed.
    The initial process for NPOA/seabirds implementation will occur 
over the course of the next four years. Assessments of all U.S. 
longline fisheries will be completed within two years. In those 
fisheries where a seabird bycatch problem is found to exist, a 
mitigation program will be developed within three years and implemented 
within four years. In all longline fisheries where an initial 
determination is made that no seabird bycatch problem exists, a re-
assessment will be conducted within four years of such a determination. 
Finally, it must be noted that NMFS will have to determine what 
resources, including staff and specific funding levels, can be assigned 
to implement the NPOA/seabirds in light of all our other commitments.
    The status of implementation of the NPOA/seabirds varies among 
Council jurisdictional areas and longline fisheries. Some Councils need 
to start or complete seabird bycatch assessments for the longline 
fisheries within their jurisdictional area, and each fishery may 
require individually tailored seabird management measures. The NPOA/
seabirds provides the Councils with flexibility to develop effective 
seabird mitigation measures for individual longline fisheries. In U.S. 
longline fisheries where seabird bycatch problems are already known to 
exist, including Alaska demersal groundfish and Hawaii pelagic longline 
fisheries, regulations are already in place or under development to 
mitigate seabird bycatch. The North Pacific and Western Pacific Fishery 
Management Councils are well positioned to develop seabird bycatch 
reduction programs needed to implement the NPOA/seabirds because they 
have already conducted seabird bycatch assessments and developed 
regulations to implement seabird bycatch reduction measures.
    3. Why is NMFS only preparing Environmental Impact Statements on 
most FMPs and their Essential Fish Habitat requirements and not on all 
of them? How are the specific FMPs chosen over others?
    In addressing the new requirements of section 303(a)(7) of the 
Magnuson-Stevens Act, the Councils generally prepared Environmental 
Assessments on the FMP amendments that described and identified 
essential fish habitat, addressed adverse effects on such habitat 
caused by fishing, and identified other actions to encourage 
conservation of such habitat.
    On September 14, 2000, the U.S. District Court for the District of 
Columbia issued a decision in a lawsuit filed by seven environmental 
organizations and two fishermen's associations. The suit challenged 
whether NMFS and the Councils had adequately evaluated and minimized 
the effects of fishing on EFH as required by the Magnuson-Stevens Act 
and NEPA. The court upheld NMFS' actions under the Magnuson-Stevens 
Act, but ordered NMFS to conduct new and more thorough NEPA analyses to 
evaluate a wider range of alternatives. A total of 22 FMPs prepared by 
the New England, Caribbean, Gulf of Mexico, Pacific, and North Pacific 
Councils are affected by the court order. In carrying out the Court 
order, NMFS has decided that EISs should be developed for the EFH 
amendments that were the subject of the lawsuit.
    Negotiations with the plaintiffs in the above lawsuit began in 
September 2000, and a settlement is expected soon. EISs will have to be 
completed within 24 months after the date of the lawsuit's settlement, 
or in mid-2003.
    The Mid-Atlantic Council plans to prepare EISs for the EFH 
provisions of four of its FMPs when it resubmits sections that were 
disapproved by NMFS when they were submitted for Secretarial review in 
1999.
    4. It appears the Councils have developed few, if any, measures to 
minimize the damage to habitat that is caused by different types of 
fishing gear as required by the SFA. What information is needed to 
ensure better compliance with this requirement? Why are these plans 
being approved?
    The Councils and the agency have made considerable efforts to 
mitigate the adverse effects of fishing activities on EFH. Most of the 
FMP regulations in place that in any way restrict fishing activities 
also have some collateral benefits for EFH. For example, the North 
Pacific Council established areas closed to groundfish trawling and 
scallop dredging in the Bering Sea and Gulf of Alaska to reduce 
potential adverse effects to crab habitat. The New England Council 
established year round closures to all bottom-tending mobile fishing 
gear within areas of Georges Bank and banned the use of 
``streetsweeper'' trawl gear (a modification to trawls that covers the 
footrope with bristles similar to a streetsweeper) because of its 
increased contact with bottom habitat. To reduce damage to coral reef 
and live bottom communities, the South Atlantic Council prohibits the 
use of pots in the snapper/grouper fishery, and the Western Pacific 
Council prohibits the use of bottom trawls, bottom-set nets, explosives 
and poisons.
    NMFS and the Councils need more information on the habitat effects 
of certain gear types to help us understand how fishing activities 
influence habitat functions for managed species, which will enable us 
to determine whether additional measures are warranted. We are 
conducting some of that research now, and the President's budget 
includes a request for funding to expand those efforts.
    NMFS approved EFH FMP amendments that did not contain new 
protective measures because the agency determined that the FMP met the 
requirement to minimize to the extent practicable the adverse effects 
of fishing on EFH. The Court ruling mentioned above in our response to 
question 3 upheld those approvals under the Magnuson-Stevens Act. 
However, as explained above, the EISs being prepared in accordance with 
the Court order will evaluate a wider range of alternatives for 
minimizing the effects of fishing on EFH.
    5. Can you please clarify what you meant in your testimony about a 
lack of flexibility in overfishing definitions and measures? How do you 
make a definition flexible and yet make it standard to all fisheries? 
Isn't Maximum Sustainable Yield (MSY), the standard used to define 
overfishing, generally a range and not a precise number? If so, then 
why is there not flexibility?
    In our written testimony on Magnuson-Stevens Act reauthorization 
before the House Subcommittee on April 4, we explained that ``(s)ome 
are concerned about a perceived lack of flexibility in developing these 
definitions (of overfishing) and associated management measures.'' 
However, the same testimony stated that ``(s)ince issuing national 
standard guidelines in May, 1998, NOAA Fisheries scientists have been 
helping the Councils find the needed flexibility to create overfishing 
definitions within the scope of the law and our guidelines.'' 
Essentially, our view is that there is ample flexibility in the current 
guidelines relating to overfishing determinations, and no need for 
exact uniformity among fisheries with very different characteristics.
    The National Standard 1 guidelines, and the more detailed technical 
Guidance on this issue, were developed to provide flexibility within 
the boundaries set down by the Magnuson-Stevens Act. A great many 
acceptable variations on harvest control rules have been devised and 
implemented since 1996.
    MSY is indeed a range. When MSY-based reference points cannot be 
calculated or are deemed too unreliable, proxies (simpler reference 
points that are believed to give similar answers to MSY-based reference 
points) can be used instead. Such proxies may not require information 
on stock-recruitment relationships or MSY-related reference points. For 
example, ratios of catch per unit of effort (CPUE) from research 
vessels or commercial or recreational vessels can be used as a 
substitute for Biomass/Maximum Sustainable Yield estimates, and the 
status of the fishery relative to this reference point. As a last 
resort, estimated commercial or recreational catches combined with 
anecdotal information on catch rates can be used as a proxy for MSY.
    6. In his testimony, Mr. Crockett spoke extensively about the NMFS 
``mixed stock exception'' to the prohibition on overfishing and the 
fact that these species only receive protection when they are 
threatened with extinction under the ESA. While many have questioned 
the legal authority for this exception and the logic of waiting until a 
species is approaching extinction before protecting it, if this is the 
policy, then why is your agency not addressing the overfishing of 
grouper species on the ESA candidate list that are being harvested in 
the Gulf?
    It is not NMFS' policy to postpone protective measures for 
overfished stocks in multispecies fisheries until those stocks are 
threatened with extinction. According to the National Standard 
Guidelines, overfishing may be tolerated only in certain limited 
circumstances. Such exceptional overfishing may continue only after 
three tests are applied:
    <bullet> Lthe FMP establishing the exception must demonstrate that 
it will generate long-term net benefits to the Nation;
    <bullet> Lother mitigating measures have been considered and 
rejected; and
    <bullet> Lthe resulting rate of fishing mortality will not place 
the species in danger of requiring protection under the ESA.
    The question also addresses actions to address overfishing of 
grouper species in the Gulf of Mexico that have been placed on the ESA 
candidate list. The NMFS candidate species list highlights species for 
which NMFS has concerns but does not have the information needed to 
determine whether ESA listing is warranted. By placing a species on 
this list, NMFS hopes that more research and conservation efforts will 
be directed at this species. The NMFS candidate species list does not, 
however, have regulatory implications.
    NMFS added Nassau grouper and jewfish (recently renamed goliath 
grouper) to its candidate species list in 1991. We have funded research 
over the years on Nassau grouper and goliath grouper, and are in the 
process of compiling available information to complete an ESA status 
review. Once the status review is complete, the NMFS Southeast Region 
will make a recommendation on whether either of these species needs to 
be listed as threatened or endangered under the ESA, after taking into 
account ongoing conservation efforts for these species.
    All harvests of goliath grouper have been prohibited in the Gulf of 
Mexico and South Atlantic federal waters since 1990 (and in the 
Caribbean since 1993). Harvests of Nassau grouper were banned in 1990 
by the Caribbean Fishery Management Council in the FMP for the Reef 
Fish Fishery of Puerto Rico and the U.S. Virgin Islands; in 1992 by the 
South Atlantic Fishery Management Council in the FMP for the Snapper-
Grouper Fishery of the South Atlantic Region; and, most recently, in 
1997 by the Gulf of Mexico Fishery Management Council in the FMP for 
Reef Fish Resources of the Gulf of Mexico. Therefore, there is no 
targeted fishery for these two species.
    Warsaw grouper and speckled hind were added to the NMFS candidate 
species list in 1997. The Gulf Reef Fish FMP limits recreational 
fishing for groupers to five groupers per vessel per day, and only one 
of these five can be a speckled hind and one can be a warsaw grouper. 
The commercial fishery for the deep-water grouper complex, which 
includes both of these species, is limited to 1.6 million lbs. (round 
weight) per year.
    In addition, the NMFS Southeast Region is planning to make a motion 
for a rebuilding program under the Magnuson-Stevens Act for groupers at 
the Gulf of Mexico Fishery Management Council. This program would 
provide for rebuilding of Nassau grouper in 20-30 years, and goliath 
grouper in 30-35 years. These long rebuilding periods are necessary 
because these species do not become sexually mature until as much as 8 
to 9 years.
    In summary, NMFS is making progress in protecting and rebuilding 
these grouper stocks under the Magnuson-Stevens Act. As Mr. Crockett 
states, it is not logical to wait until a species is approaching 
extinction before protecting it. NMFS has implemented protective 
measures for these species.
    7. How difficult has it been for the Councils to meet the deadlines 
required to comply with the new requirements imposed by the SFA? What 
tools do the Councils need to better comply with the new requirements?
    This is a difficult question to answer because the situation varies 
from Council to Council and from fishery to fishery. NMFS believes that 
the Councils have in fact been largely successful in meeting the large 
majority of SFA-mandated deadlines. At the same time, it is also true 
that the Councils have had difficulties meeting some of the deadlines 
in the 1996 SFA amendments to the MSA. As a general comment, the major 
reasons for these delays are, first, the unavailability of sufficient 
biological and socio-economic data, and, second, the absence in some 
cases of sufficient human resources to complete all the documents by 
the required deadlines. NMFS would like to take this opportunity to 
point out that the President's Budget proposes increases in certain 
budget lines that should make these tasks easier in the future.
    8. Would closer cooperation between the Councils and NMFS during 
FMP development speed the approval process and ensure regulations 
promulgated by NMFS to implement the new FMP or amendment? Might this 
also create a reduction in the delay time between when an amendment is 
given to NMFS for evaluation and when the final publishing of it takes 
place?
    NMFS supports good working relations and close cooperation between 
the agency and the Councils in FMP development and the approval 
process. NMFS staff attend many Council meetings, participate on 
numerous Council plan teams, and prepare many of the analyses of plan 
regulations. The agency also regularly meets with Council Chairs and 
Executive Directors to review, among other things, the working 
relationship between NMFS and the Councils.
    At the same time, the FMP development and approval process can be 
somewhat slow. NMFS acknowledges that delays could be reduced, and 
decisionmaking improved, by spending more time on analysis of the 
effects of various alternatives earlier in the FMP process, before the 
Council votes on an FMP or amendment.
    Toward those ends, as we stated in our April 4, 2001 testimony, 
NMFS continues to support a re-coupling of, first, the FMP and plan 
amendment review process and, second, the review and approval of 
implementing regulations. The two processes were inadvertently de-
coupled in the 1996 SFA amendments to the Magnuson-Stevens Act, with 
the result that NMFS could possibly have to approve an FMP or plan 
amendment before and without the benefit of considering public comments 
on the implementing regulations. Effectively, NMFS supports a return to 
the procedures in place before 1996.
    We also support reinstating the initial Secretarial review. If this 
authority is restored, the Secretary can then return an unacceptable 
plan immediately to the Council, who in turn can make the changes 
necessary to have the plan approved in a timely fashion.
    With these and perhaps other changes, we hope we can maintain and 
strengthen our good relations with the Councils, and reduce the delays 
in FMP and plan amendment approval.
    9. Other than the North Pacific Council which had a specific 
mandate in the SFA to reduce bycatch in the fisheries it manages, have 
any of the Councils adopted NEW measures intended to reduce bycatch or 
the mortality of bycatch as they were required to do by the SFA? If 
not, why not?
    The 1996 SFA amendments to the Magnuson-Stevens Act mandate 
reductions of bycatch in all federally managed fisheries through 
National Standard 9. Bycatch mitigation is a national policy, under the 
Magnuson-Stevens Act and other statutes that protect species caught 
incidentally in marine fisheries. Largely for that reason, the agency 
launched a review of this issue in early 1996, just before the SFA 
amendments to the Magnuson-Stevens Act were passed by Congress, and 
issued its findings in June 1998 in a report: Managing the Nation's 
Bycatch. NMFS intended this report to serve as a national plan, which 
would provide guidance to the Councils on how to deal with this 
complicated issue. A number of other federally managed fisheries 
besides those in the North Pacific have adopted measures to reduce the 
incidental catch of seabirds, sea turtles, and a number of fish 
species.
    10. If the Councils are lacking data on bycatch, why have they not 
adopted the ``standardized reporting methodologies to assess the amount 
and type of bycatch occurring'' in these fisheries, to provide them 
with the data they need to reduce bycatch? Obviously, existing 
methodologies must be inadequate, or the data would be available.
    Obtaining reliable and useful data on bycatch in federally managed 
fisheries is often a difficult task; the practical obstacles vary 
significantly from fishery to fishery. As a result, the Councils have 
had to deal with this issue on a case-by-case basis.
    In some fisheries, data on bycatch amounts and rates remains 
inadequate, in spite of the Councils' and NMFS' efforts to improve this 
information. Different fisheries use different methodologies, depending 
on fleet size and composition. Observer coverage is not uniform in all 
federally managed fisheries, and could be improved in most of them. We 
do not interpret the Act as requiring the same methodologies in all 
fisheries, but rather as requiring reports that produce standardized 
data within a fishery.
    Again, the President's Budget proposes increases for observer 
coverage and assessments which, if enacted, should improve the amount 
and quality of bycatch data.
    11. For those fisheries for which bycatch has been reported to have 
been reduced, is it the case that fishermen are actually minimizing the 
amount of bycatch species that they catch, and reducing the mortality 
of those they do catch, or are they simply retaining the same levels of 
bycatch and implementing some sort of full utilization system, such as 
turning it into fish meal?
    The answer to this question is complex, and depends on the fishery 
and its specific circumstances. In the Alaska groundfish fishery, as 
one example, there are regulations mandating full utilization, pursuant 
to a report mandated by the 1996 SFA amendments in section 313(i). In 
other fisheries, for example in the Gulf of Mexico, reductions in 
bycatch have been achieved through the mandatory use of more selective 
fishing gear, i.e., Turtle Excluder Devices and Bycatch Reduction 
Devices. In still other fisheries, bycatch has been contributed to 
charitable organizations, also pursuant to a SFA-mandated study.
    It should be noted that the definition of ``bycatch'' in section 
3(2) does not address how fish are utilized. Processing it into fish 
meal excludes a fish from being categorized as ``bycatch'' under the 
Act.
    12. The latest report to Congress on ``Status of Fisheries of the 
United States'' indicates that there are more than 650 stocks for which 
the biomass is unknown or undefined, making it impossible to determine 
if they are overfished. Should we, as stewards of the resource, be 
concerned about this?
    NMFS is concerned about the status of our scientific knowledge of 
fisheries resources under federal jurisdiction, and, for that reason, 
is striving to improve and update our understanding of the state of 
these stocks. That said, it is also true that the large majority of the 
``unknown'' 650 stocks are relatively minor stocks, with minimal 
landings. In fact, in the latest report to Congress on the status of 
fisheries, the agency explicitly distinguished major and minor stocks. 
``Minor'' stocks are those with landings below 200,000 pounds (about 
100 metric tons). It is noteworthy that, in the report to Congress for 
2000, these ``minor'' stocks accounted for 83 percent of the stocks 
whose status was either unknown or undefined.
    There is no intent by the agency to minimize the importance of the 
unknown stocks to their ecosystems; we simply wanted to place the 
information in the Congressional report in a more meaningful 
perspective. Alternatively, it should be noted that NMFS has 
considerable information on most of the stocks classified as ``major.'' 
Given limited funding, NMFS must prioritize the use of its resources 
and, in so doing, has focused on the more commercially and 
recreationally important stocks. Looking ahead, as the agency and the 
Councils move toward ecosystem-based management plans, we will place 
progressively more emphasis on research on these ``minor'' stocks.
    13. The Magnuson-Stevens Act, as does most laws, requires that 
management decisions be made using the best scientific information 
available. Yet, the fishing industry has frequently expressed 
frustration that this means that many fisheries are managed with data 
that is outdated or inadequate, triggering restrictions that they 
believe may be unnecessary. At the same time, some in the environmental 
community believe that inadequate data results in too little protection 
for many fish stocks. What can be done to improve the fisheries data we 
use to make management decisions? More importantly, what can be done to 
restore confidence in these biological assessments?
    NMFS is taking a number of actions to improve the quality and 
quantity of fisheries science.
    In addition, the President's Budget requests $13.3 million over 
fiscal year 2001 enacted levels for stock assessments. Four essential 
elements to using the best available science for conservation and 
management measures are (1) obtaining adequate quantities of data; (2) 
obtaining data of adequate quality; (3) proper interpretation of these 
data; (4) peer review of this process; and (5) placing greater emphasis 
on cooperative research.
    NOAA Fisheries is actively engaged in improving the science upon 
which resource management decisions are based through implementation of 
the Stock Assessment Improvement Plan (SAIP).
    The SAIP seeks to improve the comprehensiveness, timeliness, 
quality, and communication of NMFS stock assessments; mine existing 
databases to evaluate status determination criteria for species of 
``unknown'' status; conduct adequate baseline monitoring for all 
federally managed species; upgrade assessments for FMP core species; 
and develop next-generation assessment models that explicitly 
incorporate ecosystem considerations.
    Specific activities include:
    <bullet> LNew Stock Assessment Methods - Expand the pool of senior 
level scientists doing cutting-edge methods development. Point of 
contacts in each Center will coordinate methods research, with a 
concurrent emphasis on augmenting university partnerships to develop 
future assessment scientists.
    <bullet> LNational Stock Assessment Toolbox - When completed, this 
standardized package of tested, peer-reviewed and approved analytical 
tools and assessment models will allow better, more reliable, and 
repeatable assessments to be made.
    <bullet> LNMFS-University Partnerships and Graduate Stock 
Assessment Fellowships - Science Centers will collaborate with Sea 
Grant universities to enhance stock assessment and population dynamics 
study programs and research capabilities. NMFS/OAR stock assessment 
fellowships will increase in number and scope, and focus on new 
projects that address the agency's highest priorities.
    Another important element is modernization of NOAA's fleet of 
fisheries research vessels.
    <bullet> LA contract has just been signed for the construction of a 
state-of-the-art, acoustically quiet FRV to conduct fisheries 
monitoring and research surveys.
    <bullet> LThe FRV is an essential part of NOAA's plan to meet the 
rapidly growing demand for high-quality at-sea data, and to maintain 
the integrity of existing data series.
    <bullet> LMeeting those demands also depends on significant growth 
in the number of days at sea aboard chartered academic and industry 
vessels.
    NMFS is also striving to apply more advanced technology in research 
surveys.
    <bullet> LNOAA Fisheries is exploring fisheries applications for 
advanced technologies that would improve the efficiency and 
effectiveness of stock assessment surveys.
    <bullet> LAdvances in airborne and satellite remote sensing, 
hydroacoustic survey, and signal processing technologies hold great 
promise for fisheries applications by adding information presently not 
available and providing alternative sources of survey information for 
some species and their habitats.
                                 ______
                                 
    [Response to questions submitted for the record by Mr. 
Gilford follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



  Answers to Questions From Subcommittee on Fisheries, Conservation, 
 Wildlife and Oceans, Magnuson Reauthorization Hearing to Dr. James H. 
                                Gilford

    I have been asked to respond to the following questions resulting 
from my appearance before the Subcommittee on Thursday, April 5, 2001. 
The testimony I submitted at that time was presented on behalf of the 
eight Fishery Management Council Chairmen and represents the consensus 
of the Council Chairmen which was developed at the 1999 and 2000 annual 
Council Chairmen's meetings. In the following, I offer my personal 
response to the Subcommittee's questions. Please understand that it 
does not represent the position of the other Council Chairmen or the 
Mid-Atlantic Fishery Management Council of which I am a member. I have 
taken the liberty of sharing the questions with the other Council 
Chairmen so at their annual meeting later this month they may, if they 
so choose, offer a response to the Subcommittee's questions.

    In the rebuilding of overfished stocks, some have argued that 
unreasonable rebuilding targets have been set by either the Agency or 
the Councils. How are these rebuilding targets established? If the 
complaint is correct that unreasonable targets are being set, is this a 
problem with the Act or with the implementing guidance from the agency?
    Rebuilding targets are based on the population dynamics of each 
species of concern. Councils are required to use the best scientific 
information available in developing conservation and management 
measures. Rebuilding targets based on the best available scientific 
information are not unreasonable management goals. Some problems with 
specific targets may occur in instances involving multispecies 
interactions or in situations in which there is less scientific 
information available on the population dynamics of a species but the 
Sustainable Fisheries Act (SFA) addresses those possibilities.

    In its April 2000 report to Congress, the General Accounting Office 
noted that although NMFS reported that it did not know the status of 75 
percent of the species (and 30 percent of the stocks) that they manage, 
the 25 percent that it did know the status of represented about 90 
percent of the total weight or volume of all species in U.S. waters. Do 
you feel this is an accurate statement? Could you comment further on 
this?
    I do not know if the statement is accurate or not, but I suspect 
that, without some qualification, it is not accurate. If the statement 
really is intended to apply to all species-in U.S. waters, how is it 
possible to know that 25 percent of the species in U.S. waters 
represent 90 percent of the total weight of all species since the 
status of the other 75 percent is unknown? If the statement is 
referring to landings by species, it probably is accurate.

    Some members of Congress have argued that the identification of EFH 
by the Councils was far too broad and too sweeping in its 
implementation. The Agency is now urging Councils to identify Habitat 
Areas of Particular Concern (HAPC) which are more discrete areas. Isn't 
that what Congress actually wanted NMFS to do in the ,first place? Do 
we need to create a new designation to accomplish what was originally 
intended?
    The initial EFH guidance received by the Councils from NMFS did 
suggest a broad rather than a discrete designation of EFH as intended 
by Congress. In my opinion, the agency has failed to provide consistent 
and rationale guidance to the Councils on EFH implementation. A new 
designation probably is not necessary since the use of HAPC 
designations now allows the Councils to identify discrete areas of EFH 
which are more in line with the intent of Congress. However, NMFS 
should immediately publish the EFH guidelines in final form.

    Last Congress, this Subcommittee held a hearing on Essential Fish 
Habitat issues. At that time, one of the concerns raised by the Agency 
was that there was not adequate funding available to fund research into 
habitat issues. If funding is scarce, does it make sense to look first 
at the habitat needs of those commercially important species?
    Yes, but it makes even better sense to look first at the habitat 
needs of species which are economically important to both commercial 
and recreational fishermen.

    One area of concern that has been identified by a number of 
reviewers of Federal fisheries management is that of the adequacy of 
scientific data on which management decisions are made. A second 
concern is that the regulated community does not have confidence in the 
scientific information generated by the Agency. How can we get better 
data and get buy-in by the regulated communities?
    There are a number of ways to get better data, such as mandatory 
reporting of relevant data by commercial fishermen, dealers and party/
charter operators, for example. Significant increases in funding for 
observer coverage specific to commercial fisheries and for increasing 
the collection of fishery dependent and independent data also would 
help significantly in that regard. Cooperative programs in which 
industry is a partner in the collection of fisheries data are a help in 
achieving acceptance of those data by the regulated community. To be of 
value, these programs must be designed and implemented in such a way 
that they meet the basic requirements for scientific validity. In the 
recreational sector, additional funding for the Marine Recreational 
Fishery Statistics Survey (MRFSS) coupled with more public education 
and outreach is needed to build public confidence in the MRFSS data.

    We have seen a number of cooperative research survey initiatives 
that were cosponsored by industry in the last few years. How does the 
Agency use the information from these cooperative surveys, in addition 
to their own survey information, to determine stocks size and total 
allowable catch levels?
    In the specific instance with which I- am familiar (clam industry/
NMFS surfclam and ocean quahog survey), information collected was 
incorporated into the assessment of stock status and into management 
decisions for the fishery. That project was planned and implemented 
cooperatively by scientists and fishermen to produce scientifically 
sound and useful data for stock assessment and management decisions. 
Industry funded their portion of the research also.

    Are there other sources of funds that should be considered to 
gather better data? Have any of the environmental groups funded this 
type of research?
    Yes. Quota set-asides which are provided for in the Sustainable 
Fisheries Act is a source of funding support for collecting fisheries 
specific data. If the prohibition on collecting fees beyond 
administrative costs is removed from the Act, permits and user fees are 
another potential source of funds for species specific data collection. 
There may be, but I am not aware of any instance in which an 
environmental group has funded the collection of fisheries management 
data on marine fish.

    The Magnuson Act requires Fishery Management Plans to ``minimize'' 
to the extent practicable adverse effects on such habitat caused by 
fishing...'' Since the Councils have identified the entire EEZ as EFH, 
this will mean that the Agency must collect data on gear impacts for 
the entire EEZ (approximately 3.4 million square miles). Should the Act 
be amended to apply the minimization requirement only to the HAPC 
areas?
    Yes, the minimization requirement should be applied only to the 
HAPCs. It makes more sense given the importance of the HAPCs and it's 
more realistic given the relative size of the areas involved, the 
limited information currently available on gear impacts and the 
magnitude of the staffing effort required.

    The Act currently has been interpreted to prohibit the gathering of 
economic data from processors. Why was this restriction put in place 
and should this issue be re-examined? Are there ways of gathering this 
proprietary data and ensuring confidentiality?
    There is some confusion about the prohibition on collecting 
economic data from processors and the issue should be re-examined. 
Economic information is essential in the preparation of fisheries 
management plans and amendments as required by the SFA. The Act gives 
the Councils discretionary authority to require fish processors who 
first receive fish subject to a fishery management plan to submit data 
which are necessary for the conservation and management of the fishery 
(other than economic data). [303 (b)(7)]. The Act also allows the 
Councils to request the Secretary to implement an information 
collection program for the collection of information about a fishery 
other than information that would disclose proprietary or confidential 
commercial or financial information regarding fishing operations or 
fish processing operations. [402 (a)]. The wording of the discretionary 
authority [303(b)(7)] is in conflict with the requirements for 
preparing fisheries management plans and is in conflict with section 
402(a). Yes, there are ways of gathering economic data and ensuring 
confidentiality. An effective process I am familiar with, as an 
example, was implemented under the Toxic Substances Control Act.

    You recommend lifting the moratorium on the implementation of IFQ 
management systems; however, you are silent on the need for statutory 
guidelines or criteria. Can you expand on your interest in using this 
type of management system and the need for guidance in the statute?
    I believe IFQ and ITQ management systems can be useful and 
effective management tools for some fisheries under certain conditions 
but not necessarily in a one-size-fits-all mode. I believe the Councils 
should have IFQ and ITQ systems available as management options. 
Statutory guidelines should include provisions for fees and for 
auctioning of harvest rights and limitations on the accumulation of 
harvest rights.

    You recommend that the Councils be authorized to charge fees for 
observer programs. Have any Councils developed observer programs that 
are hindered by the lack of this authority? Would the Councils object 
to being required to submit specific requests to Congress to gain this?
    The Council of which I am a member has not developed an observer 
program. Instead, the Council is dependent on the NMFS to provide 
observer data but, unfortunately, the Agency's program is limited by 
funding which is dedicated to providing observers for marine mammals 
and protected species coverage rather than observer programs for 
specific finfish/shellfish fisheries. The North Pacific Council has an 
observer program funded by industry participants through an amendment 
to the Act. The same provision should also be available to other 
Councils. Submitting specific requests to Congress would be less 
desirable than having authority established in the Act allowing the 
Councils to charge fees for observer programs.

    Several of the witnesses have noted that the use of MSY is 
problematic. Should Congress look at this term and, if so, what target 
should (Congress look at) in terms of rebuilding plans?
    Congress should re-examine the requirement to use MSY for all 
species. In those instance for which there is sufficient information, 
the biomass which produces MSY should be considered as the target for 
rebuilding. However, information needed to establish a reliable MSY is 
not always available. In addition, MSY for a species may change as a 
result of changes in such things as fishing practices, available 
habitat or habitat carrying capacity. Over-estimating MSY can result in 
rebuilding schedules more restrictive than necessary to fishing 
communities.
           Questions Concerning Magnuson Act Reauthorization
    Many factors have been identified as potential problems in US 
fisheries: overfishing, overcapitalization, insufficient data, 
inappropriate management structures, ecosystem impacts of fishing. 
Which of these do you believe is the most pressing problem to be 
addressed?
    Overcapitalization because of its direct cause and effect 
relationship to overfishing; insufficient data is the second most 
pressing problem.

    Can you give examples of previously overexploited federally managed 
species that have successfully recovered over the past 10 years? What 
species would you expect to add to the success list in 5-10 years? Are 
there any commonalities that might enhance our chances of success with 
other overexploited species? What have been the major barriers to 
success?
    Surfclam is an example of a previously overexploited federally 
managed species which has successfully recovered in the past 10 years 
and summer flounder is very nearly recovered. All of the other species 
managed by the Mid-Atlantic Fishery Management Council are expected 
realistically to be recovered within the next 10 years or sooner. The 
application of hard quotas, limits on participation, and keeping 
management plans in place long enough for them to work are 
commonalities which will enhance the chance of success in achieving 
recovery of other overexploited species. Major barriers to success are: 
the lack of sufficient fisheries data including adequate sea sampling 
data, Congressional constraints on available management tools, law 
suits and court mandated changes affecting the way specific species are 
managed. Another barrier is the lack of a mandate requiring that a 
species which is managed by the Atlantic States Marine Fisheries 
Commission in state waters and by the Mid-Atlantic, South Atlantic, or 
New England Fishery Management Councils in the EEZ be managed as one 
stock under one management plan.

    What are the pros and cons of the ``overfishing'' and ``essential 
fish habitat'' sections of the Sustainable Fisheries Act of 1996? What 
are the administrative burdens and benefits to Council staff? Can the 
Council meet the objectives they are charged with under these sections? 
Would it be useful to clarify the concept of essential fish habitat and 
to provide a clearer mechanism for evaluating costs and benefits?
    The overfishing section provides guidelines for establishing 
standards or goals which allow for stocks to rebuild and those are 
appropriate and constructive contributions to the management process. 
The recognition of the importance of habitat to sustainable fisheries 
in the EFH section is likewise an appropriate and constructive 
contribution. However, I believe the same section also allowed for the 
development of guidelines for designating EFH that, at least initially, 
exceeded the intent of Congress. Those guidelines have undergone 
several revisions and still have not been published in final form. 
Guidance to Council staff has changed frequently which has created an 
unnecessary burden on staff resources. Yes, it would be useful to 
clarify the concept of EFH and to have a clearer mechanism for 
evaluating costs and benefits.

    Does the time required to promulgate federal fishery regulations 
hinder effective management?
    The lengthy technical and legal reviews often hinder timely 
implementation of management measures and recommendations.
                           Management Options
    In your opinion, what is the primary benefit and the primary 
drawback of the existing system of Regional Fishery Management 
Councils? What changes might lead to more successful management?
    Opportunity for direct involvement in the management process by 
affected user groups and fishing communities is the primary benefit of 
regional management. The drawback is that the action of one Council may 
conflict with or otherwise affect the operation of another Council 
based, for example, on regional adherence to national standards. 
Providing new funding to the Councils commensurate with the additional 
staff effort and resources needed to meet the new requirements mandated 
by the SFA would enhance management efforts.

    How might the Magnuson-Stevens Act be amended to address the 
problem of frequent industry opposition to strong conservation and 
management measures? Should fishermen be given more or less influence 
over the management measures adopted?
    I don't believe the Act should be amended simply because of 
frequent industry opposition to strong conservation and management 
measures. Industry opposition should and can be addressed under 
existing provisions, and management measures can be modified if a 
change is appropriate and consistent with management goals. Fishermen 
should be involved in an advisory capacity in identifying possible 
management options and in meeting rebuilding requirements and 
alternative approaches to management. I believe that fishermen already 
have a reasonable and sufficient opportunity through membership on 
Councils, on advisory committees and through the public participation 
process to influence management measures.

    Should the blanket moratorium on individual fishing quota programs 
(IFQs or ITQs) be lifted? If no, what is your main reason for opposing 
those programs under all circumstances? If yes, should there be 
nationwide standards for quota programs?
    The blanket moratorium on IFQs and ITQs should be lifted and the 
Councils should have those measures available as possible management 
options. IFQs and ITQs provide fishery managers an option for assuring 
stakeholders long term benefits of rebuilding programs. There should be 
minimal national standards on transferability and the ability to charge 
fees but Councils should have the flexibility to develop IFQ or ITQ 
programs which recognize the unique characteristics of specific 
fisheries.

    Current management practices address species independently, 
attempting to achieve maximum sustainable yield for each species. Is 
this realistic? Can all species be exploited at maximum sustainable 
yield levels simultaneously?
    It probably is neither feasible nor realistic to attempt to attain 
MSY for all species or all species in a fishery complex simultaneously. 
The management objective should be to achieve optimum yield (OY) for 
each managed species; OY accounts for all relevant economic, social and 
ecological factors.

    Moves toward more decentralized fisheries management in the Maine 
lobster fishery, and in other fisheries here and abroad have shown some 
success in terms of conservation and social and economic outcomes. Is 
more decentralization of management desirable in some of our fisheries? 
If so, should the Magnuson-Stevens Act be amended to encourage 
experiments with decentralized approaches to fisheries management?
    Management decisions should remain at the Council level. The 
development of fishery cooperatives might be encouraged to provide a 
means for allocating the allowable landings to affected user groups. 
However, the act should not be amended to encourage decentralization of 
fisheries management.

    Are there changes needed to influence how Councils meet NEPA 
requirements in developing and amending fishery management plans?
    The Councils should not have to address NEPA requirements in the 
development of fishery management plans or in amending plans since 
Magnuson-Stevens already requires that social, economic and ecological 
issues be addressed.

    Would it be better to assign a single council staff person to be 
responsible for the entire process of data collection, scientific 
assessment, and provisions of management advice for each fishery?
    No. Assigning responsibility for the entire process is not a 
feasible option.
                  Enforcement and Compliance Concerns
    The vast area of our EEZ, the hundreds of fishing ports and tens of 
thousands of fishing craft make monitoring, control and surveillance 
extremely difficult. How might the Magnuson-Stevens Act be amended to 
encourage the use of alternative methods for strengthening compliance 
with regulations? Should non-governmental bodies be allowed to 
supplement existing enforcement resources?
    Some approaches to consider are: encourage more use of vessel 
tracking systems; require all recreational and commercial fishermen to 
have permits which are revokable in the event of illegal acts; 
implement a gear certification program in all fisheries where gear 
regulations exist (legal would be certified); encourage the use where 
appropriate of ITQ programs (the ITQs in the clam fisheries have 
increased compliance with regulations). Non-governmental bodies should 
not be used for enforcement.

    The U.S. spends $660 million annually on fisheries management, 
mostly enforcement of the Magnuson-Stevens Act. Other fishing nations, 
for example, Australia, Canada and New Zealand, have implemented user 
charges to recover the costs of fishery management services. Should the 
Magnuson-Stevens Act be amended to require that some of the costs of 
management be recovered from users of our marine fisheries resources? 
If so, what principles should govern a cost-recovery program for U.S. 
fisheries?
    Yes, user fees should be implemented. Funds derived from those fees 
should be allocated directly to fisheries management and enforcement 
and the fees should be proportional in the case of commercial fishermen 
to the harvest quantity and the enforcement effort required to assure 
compliance. License fees should also be required of recreational 
fishermen.
             Social Science and Fishing Conmmunity Concerns
    How could we improve opportunities for collaboration in research 
and management between fishermen and regulators?
    Councils and the NMFS have a number of opportunities to promote 
collaboration in research and management with fishermen. The Mid-
Atlantic Council is implementing a quota set aside program to provide 
species-specific funding for cooperative research with fishermen. The 
NMFS is engaged currently in a number of industry initiated research 
projects. The Act does not have to be amended to allow for such 
collaborative effort.

    What is the significance of National Standard 8 on fishing 
communities? What, if anything, could be changed in the Magnuson-
Stevens Act or its implementation to better protect coastal fishing 
communities?
    National Standard 8 requires that conservation and management 
measures take into account the importance of fishery resources to 
fishing communities in order to provide for sustained participation of 
those communities and, to the extent practicable, minimize adverse 
economic impacts on such communities consistent with the conservation 
requirements of the Act as mandated under National Standard 1. Coastal 
communities will benefit most by management measures which prevent 
overfishing of existing stocks and from rebuilding of overfished fish 
stocks to a biomass which will provide optimum yield.

    Some observers have noted that fishermen frequently oppose 
conservation and management measures because they have little assurance 
that current sacrifices will be rewarded in the future. How can the 
Magnuson-Stevens Act be amended to improve the prospects that 
fishermen's sacrifices will be perceived as worthwhile, and thus 
improve compliance with regulations?
    Ending the moratorium on IFQ and ITQ systems to give the Councils 
the opportunity, where appropriate, to use such systems for that 
purpose is one action that can be taken. Providing Councils with other 
tools for identifying and limiting participation in fisheries in order 
to achieve a compatible balance between sustainable fish stocks and 
harvest capacity may also result in improved compliance.
                         Science and Data Needs
    The current process for determining data collection and research 
priorities is driven primarily by line items in the budget and other 
centralized political decisions. Would this process and management 
outcomes be improved if managers within each fishery were given greater 
authority and leeway to determine appropriate data collection and 
research programs?
    I believe that to be so. The Councils should work cooperatively 
with the NMFS regional offices and science centers to determine data 
needs, collection requirements and priorities.

    Are the data currently available for estimating fish stocks 
adequate to support the decisions that federal fishery managers must 
make?
    In general, fisheries management decisions are based on the best 
available data. The data currently available are better in some 
instances than in others. Effective fisheries management and the 
appropriate decisions leading to effective management is data 
intensive. More and better data will allow managers to make better and 
more effective management decisions.
                                 ______
                                 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 
    [Response to questions submitted for the record by Mr. LeBlanc 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    [Response to questions submitted for the record by Mr. Crockett 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                   - 

</pre></body></html>
